<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                        WEDNESDAY, APRIL 2, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.

                           FOSTER CARE SYSTEM

                OPENING STATEMENT OF SENATOR MIKE DEWINE

    Senator DeWine. Good morning. The hearing will come to 
order.
    Today, on what fittingly is being recognized as the 
National Day of Hope for Abused Children, we are convening the 
first of what will be a series of hearings regarding the foster 
care system in our Nation's capital. I am honored to have, as 
our lead witness, Congressman Tom Davis, Chairman of the House 
Committee on Government Reform.
    Chairman Davis and I share a long-standing concern and 
commitment to children in our home States, in the District, and 
across our Nation, as of course has Senator Landrieu. Chairman 
Davis has held several oversight hearings regarding the 
receivership of Child and Family Services Agency, commonly 
referred to as CFSA. In addition, Chairman Davis and I worked 
closely together to get the D.C. Family Court Reform Act of 
2001 signed into law.
    As the new chairman of the House Committee on Government 
Reform, Chairman Davis has elevated the oversight of the 
District of Columbia to the full committee. He truly has 
demonstrated his concern for and commitment to our Nation's 
capital.
    Chairman Davis requested that the GAO review CFSA's 
performance and progress. And in our hearing today, we will 
examine and discuss the preliminary findings of that review, 
some of which are very disturbing. Our witnesses will describe 
the problems that have led to the current crisis in the 
District's foster care system and what CFSA has been doing and 
is doing to protect the lives of the District's children.
    Let me commend Congressman Davis for requesting this GAO 
review. It was a great step, something that is long overdue, 
and has provided this committee and this Congress and the 
District of Columbia some very, very important information.
    Candidly, this is not the first time that this Congress has 
looked at this issue, nor the first time that this committee 
has looked at this. This is not the first time that we, as a 
subcommittee, have heard testimony from witnesses describing 
the sorry state of the District's child welfare system. This is 
not the first time we have discussed the errors and the 
unbelievable lapses in judgment and the unquestionable and 
inexcusable breakdowns in the system, breakdowns that have led 
to the loss of at least 229 children's lives between 1993 and 
the year 2000.
    In fact, in a hearing all too similar to this one today, a 
hearing that we held in March 2001 about the state of foster 
care in the District, a hearing that this subcommittee held, we 
listened to vivid and tragic testimony detailing the complete 
collapse of the child welfare system in the District of 
Columbia. And at that hearing, I made it very clear that 
protecting the health and welfare of the District's children is 
our number one priority and how that, too, should be the number 
one priority of the District of Columbia.
    We put the CFSA on warning and said that enough was enough 
and that we were not going to allow blatantly irresponsible 
acts of incompetence to continue anymore. Further, we explained 
how this subcommittee has a responsibility, an obligation, to 
review the District's resource needs and budget proposals with 
close Congressional scrutiny. We have an obligation to ensure 
that any dollars that flow into the child welfare system are 
used for the proper protection of the children involved.
    So the question is: What has changed in these past 2 years? 
The preliminary GAO findings would suggest that very little has 
in fact changed. But before we get to the specifics of the GAO 
report, I would like to make something very clear. Whether we 
are talking about a child here in the District of Columbia or 
one in Cincinnati or one in Richmond or New Orleans or anywhere 
in the United States, I think we all would agree that every 
child in this country deserves to live in a safe, stable, 
loving and permanent home with loving and caring adults. Yet 
the reality is that tonight more than half a million children 
in this country will go to bed in homes that are not their own. 
And many of these children are tragically at risk.
    I first learned about this nearly 30 years ago in the early 
1970's, when I was serving as an assistant county prosecutor in 
my home county in Ohio, Green County, when I was a young county 
prosecuting attorney. One of my duties was to represent the 
Green County Children's Services in cases where children were 
going to be removed from their parents' custody. I witnessed 
then that too many of these cases drag endlessly, leaving 
children trapped in temporary foster care placements, which 
often entail multiple moves from foster home to foster home to 
foster home for years and years and years.
    It would appear that children in this city, in our Nation's 
capital, are at even more risk because of the systemic 
dysfunction within the District's child welfare bureaucracy. 
Let me explain.
    Over 10 years ago, the District's child welfare system was 
considered among the worst in the Nation. In 1989, the American 
Civil Liberties Union filed a class action lawsuit against the 
city, LaShawn A. v. Barry. And they argued that the District 
was failing to protect neglected and abused children.
    In 1991, the case went to trial where the Court ultimately 
found the District liable. Following this decision, the parties 
involved in the case developed a remedial action plan. The 
Court used this plan as the basis for its modified final order, 
which required the District to correct the vast deficiencies in 
its child welfare system.
    By 1995, however, little had changed, prompting U.S. 
District Judge Thomas F. Hogan to install a receiver to oversee 
the system and appoint a court monitor to review the District's 
performance. On June 15, 2001, the receivership ended. And 
responsibility was transferred to a newly established Cabinet-
level Child and Family Services Agency. The order terminating 
the receivership created a probationary period that would end 
when the District demonstrated progress on a series of 
performance indicators.
    Today, the court monitor will present her findings and 
testify as to whether or not to end the probationary period for 
CFSA. It is my understanding that the court monitor will 
recommend ending that probationary period. I will say bluntly 
that from reading the GAO's testimony, which will be presented 
shortly, I have some grave concerns about CFSA's abilities. I 
am curious to see how the court monitor's recommendations 
comports with the disturbing picture that GAO's findings paint.
    For example, the GAO has determined that CFSA is not, is 
not, meeting the most crucial requirements of the Adoption and 
Safe Families Act. This law, which I helped sponsor and which 
has been in effect since November 1997, includes a number of 
very specific provisions that require States to change policies 
and practices to better promote children's safety and adoption 
or other permanent options, or other permanency options.
    In fact, since this law has been in effect, adoptions have 
increased nearly by 40 percent nationwide. According to the 
GAO, though, while some improvements have been made, the CFSA 
has not adopted some key policies and procedures for ensuring 
the safety and permanent placement of children. Furthermore, 
caseworkers have not consistently implemented or documented 
some of the policies and procedures that have been adopted. In 
fact, CFSA is not meeting the Adoption and Safe Families Act 
standards in the following ways:
    Number one, initiating proceedings to terminate parental 
rights for children in foster care for 15 of the most recent 22 
months; number two, notifying parents of reviews and hearings; 
number three, requiring mandatory annual permanency hearings 
every 12 months for a child in foster care.
    Another troubling finding that the GAO will elaborate on 
further is the District's inability to track its children in 
foster care. In fact, data is not even available for 70 percent 
of the District's children in foster care. This is true even 
though the District has invested resources in a new automated 
information system that has been operational for over 3 years. 
How can we track these children and determine their well-being 
when they are not even entered into this automated system? How 
can the court monitor be sure that CFSA is meeting its 
standards if CFSA cannot even electronically track the children 
in its own care?
    I am very interested to hear the testimony of Anne 
Schneiders, chairman of the National Association of Counsel for 
Children, who has said that children wait for months, for weeks 
or months, before foster care placement is available. Some 
older children wait at group homes or even overnight at CFSA 
offices. They are often placed in whatever home has a vacancy, 
irrespective of the needs of the child or the preference of the 
family.
    In addition to the new GAO findings, other studies and 
newspaper investigations paint equally disturbing pictures. For 
example, according to a recent study by the U.S. Department of 
Health and Human Services, District children were in foster 
care an average of 65 months before they achieved a permanency 
plan. That is over 5 years in foster care before a plan is even 
determined.
    And, of course, none of us can forget the tragic and 
troubling accounts detailed in the September 2001 Washington 
Post's Pulitzer Prize winning investigative series on the state 
of the District's child welfare system. But even after that 
series ran, the Post identified additional cases of abuse and 
neglect. In a December 2001 story, the newspaper reported that 
at least 10 children under District protection died between 
June 2001 and December 2001, and that in one case an infant 
died of starvation after a city social welfare worker failed to 
visit his family for 7 months.
    Then, an August 2002 story reported that it took the CFSA 
nearly 3 months to remove an 11-year-old mentally retarded 
child from a District group foster care home after he reported 
being sexually abused by a 15-year-old fellow resident. In this 
particular case, the District social worker learned of the 
incident on April 9, 2002, but did not actually report it until 
July 2, 2002. And furthermore, when police finally interviewed 
the 11-year-old boy, they found out his 12-year-old roommate 
also had been sexually assaulted.
    These kinds of reports make us all sick. And the CFSA needs 
to understand we are not going anywhere, none of us are going 
anywhere. This committee is not backing off in any way until 
these children are protected. We have made the welfare and 
safety of these children our top priority.
    And as chairman of this subcommittee, I am going to 
continue to have hearings. And we are going to keep digging for 
facts and findings. And we are going to do everything we 
possibly can to save these children.
    Now I recognize that the District's child welfare system 
did not collapse overnight. And we are well aware that it will 
not be fixed overnight. However, 1 month, let alone 65 months, 
or 5 five years is a very long time in a child's life. It is an 
eternity for a child. How many more months and years can we ask 
these children and teens to wait until they have a safe and 
loving home?

                           PREPARED STATEMENT

    When we look at the District's child welfare system in its 
totality, we must not view its reform in a vacuum. The reform 
of this system is about a lot of things. This is about, we 
know, resource needs. This is about proper management of those 
resources and the services provided. It is also, of course, 
about accountability. And ultimately, and most importantly, it 
is about putting the safety and the health and well-being of 
thousands of children first, above all else.
    I know that Chairman Davis shares these concerns and is 
standing ready and willing to work together to make life better 
for these children. I thank him for requesting the GAO report. 
And I look forward to hearing his testimony.
    [The statement follows:]
               Prepared Statement of Senator Mike DeWine
    Good morning. This hearing will come to order. Today, on what 
fittingly is being recognized as the National Day of Hope for Abused 
Children, I am convening the first of what will be a series of hearings 
regarding the foster care system in the District of Columbia.
    I am honored to have as our lead witness, Congressman Tom Davis, 
Chairman of the House Committee on Government Reform. Chairman Davis 
and I share a long-standing concern and commitment to children in our 
own home States, in the District, and across the Nation. Chairman Davis 
has held several oversight hearings regarding the receivership of the 
Child and Family Services Agency, commonly referred to as CFSA. In 
addition, Chairman Davis and I worked closely together to get the DC 
Family Court Reform Act of 2001 signed into law.
    As the new Chairman of the House Committee on Government Reform, 
Chairman Davis has elevated the oversight of the District of Columbia 
to the full committee. He truly has demonstrated his concern for and 
commitment to our Nation's capital.
    Chairman Davis requested that the GAO review CFSA's performance and 
progress, and in our hearing today, we will examine and discuss the 
preliminary findings of that review--some of which are very disturbing. 
Our witnesses will describe the problems that have led to the current 
crisis in the District's foster care system and what CFSA has been and 
is doing to protect the lives of the District's children.
    But candidly, this is not the first time we've done this. This is 
not the first time that we, as a subcommittee, have heard testimony 
from witnesses describing the sorry state of the District's child 
welfare system. This is not the first time we've discussed the errors, 
and the unbelievable lapses in judgment, and the unquestionable and 
inexcusable breakdowns in the system--breakdowns that have lead to the 
loss of at least 229 children's lives between 1993 and 2000.
    In fact, in a hearing--all too similar to this one today--a hearing 
that we held in March 2001 about the state of foster care in the 
District--we listened to vivid and tragic testimony detailing the 
complete collapse of the child welfare system. And at that hearing, I 
made it unequivocally clear that protecting the health and welfare of 
the District's children is my No. 1 priority--and how that, too, should 
be the No. 1 priority of the District of Columbia. I put the CFSA on 
warning and said that enough was enough--that we were not going to 
allow blatantly irresponsible acts of incompetence to continue any 
more. Furthermore, I explained how this subcommittee has a 
responsibility--an obligation--to review the District's resource needs 
and budget proposals with close congressional scrutiny. We have an 
obligation to ensure that any dollars that flow into the child welfare 
system are used for the proper protection of the children involved.
    So, what has changed in these past 2 years? The preliminary GAO 
findings would suggest that very little has, in fact, changed. But, 
before we get to the specifics of the GAO report, I want to make 
something very clear.
    Whether we are talking about a child here in the District, or one 
in Cincinnati, or in Richmond, or in New Orleans, or anywhere else in 
America--every child deserves to live in a safe, stable, loving, and 
permanent home, with loving and caring adults.
    Yet, the reality is that tonight, more than a half-million children 
in this country will go to bed in homes that are not their own. Many of 
these children are at risk. I first learned this nearly 30 years ago in 
the early 1970's when I was serving as an assistant county prosecutor 
in Greene County, Ohio. One of my duties was to represent the Greene 
County Children Services in cases where children were going to be 
removed from their parents' custody. I witnessed then that too many of 
these cases drag on endlessly, leaving children trapped in temporary 
foster care placements, which often entail multiple moves from foster 
home to foster home to foster home--for years and years and years.
    It would appear that children in this city--in our Nation's 
capital--are at even more risk because of the systemic dysfunction 
within the District's child welfare bureaucracy. Let me explain.
    Over 10 years ago, the District's child welfare system was 
considered among the worst in the Nation. In 1989, the American Civil 
Liberties Union filed a class-action lawsuit against the city--LaShawn 
A. v. Barry--arguing that the District was failing to protect neglected 
and abused children. In 1991, the case went to trial, where the court 
ultimately found the District liable. Following this decision, the 
parties involved in the case developed a remedial action plan. The 
court used this plan as the basis for its modified final order, which 
required the District to correct the vast deficiencies in its child 
welfare system.
    By 1995, however, little had changed, prompting U.S. District Judge 
Thomas F. Hogan to install a Receiver to oversee the system and appoint 
a Court Monitor to review the District's performance.
    On June 15, 2001, the Receivership ended and responsibility was 
transferred to a newly-established Cabinet-level Child and Family 
Services Agency. The Order terminating the Receivership created a 
probationary period that would end when the District demonstrated 
progress on a series of performance indicators.
    Today, the Court Monitor will present her findings and testify as 
to whether or not to end the probationary period for CFSA. It is my 
understanding that the Court Monitor will recommend ending that 
probationary period. I will say, bluntly, that from reading the GAO's 
testimony, which will be presented shortly, I have some grave concerns 
about CFSA's abilities. I am curious to see how the Court Monitor's 
recommendation comports with the disturbing picture that GAO's findings 
paint.
    For example, the GAO has determined that CFSA is not meeting the 
most crucial requirements of the Adoption and Safe Families Act. This 
law--which I sponsored and which has been in effect since November 
1997--includes a number of specific provisions that require States to 
change policies and practices to better promote children's safety and 
adoption or other permanency options. In fact, since this law has been 
in effect, adoptions have increased by nearly 40 percent!
    According to the GAO, though, while some improvements have been 
made, the CFSA has not adopted some key policies and procedures for 
ensuring the safety and permanent placement of children.
    Furthermore, caseworkers have not consistently implemented or 
documented some of the policies and procedures that have been adopted. 
In fact, CFSA is not meeting the Adoption and Safe Family Act standards 
in the following ways: (1) initiating proceedings to terminate parental 
rights for children in foster care for 15 of the most recent 22 months; 
(2) notifying parties of reviews and hearings; and (3) requiring 
mandatory annual permanency hearings every 12 months for a child in 
foster care.
    Another troubling finding that the GAO will elaborate on further is 
the District's inability to track its children in foster care. In fact, 
data is not even available for 70 percent of the District's children in 
foster care. This is true even though the District has invested 
resources in a new automated information system that has been 
operational for over 3 years! How can we track these children and 
determine their well-being when they are not even entered into an 
automated system? How can the Court Monitor be sure that CFSA is 
meeting its standards if CFSA cannot even electronically track the 
children in its own care?
    I am very interested to hear the testimony of Anne Schneiders, 
Chair of the National Association of Counsel for Children, who has said 
that children wait weeks or months before a foster care placement is 
available. Some older children wait at group homes or overnight at CFSA 
offices. They are often placed in whatever home has a vacancy--
irrespective of the needs of the child or the preference of the family.
    In addition to the new GAO findings, other studies and newspaper 
investigations paint equally disturbing pictures. For example, 
according to a recent study by the U.S. Department of Health and Human 
Services, District children were in foster care an average of 65 months 
before they achieved a permanency plan! That is over 5 years in foster 
care before a plan is even determined!
    And, of course, none of us can forget the tragic and troubling 
accounts detailed in the September 2001 Washington Post's Pulitzer 
Prize winning investigative series on the state of the District's child 
welfare system. But, even after that series ran, the Post identified 
additional cases of abuse and neglect.
    In a December 2001 story, the newspaper reported that at least 10 
children under District protection died between June 2001 and December 
2001, and that in one case, an infant died of starvation after a City 
social worker failed to visit his family for 7 months.
    Then, an August 2002 story reported that it took the CFSA nearly 3 
months to remove an 11-year-old mentally retarded boy from a District 
group foster care home after he reported being sexually abused by a 15-
year-old fellow resident. In this particular case, the District social 
worker learned of the incident on April 9, 2002, but didn't actually 
report it until July 2, 2002! And furthermore, when police finally 
interviewed the 11-year-old boy, they found out that his 12-year-old 
roommate also had been sexually assaulted.
    These kinds of reports make me sick. And, the CFSA needs to 
understand that I am not going anywhere until these kids are protected.
    I have made the welfare and safety of these children my top 
priority, and as Chairman of this subcommittee, I'm going to keep 
having hearings, and we're going to keep digging for facts and 
findings, and we're going to do everything we possibly can to save 
these children.
    I recognize that the District's child welfare system did not 
collapse over night. And, we are well aware that it will not be fixed 
over night. However, one month--let alone 65 months or 5 years--is a 
very long time in a child's life. How many more months and years can we 
ask these infants and children and teens to wait until they have a safe 
and loving home?
    When we look at the District's child welfare system in it's 
totality, we must not view its reform in a vacuum. The reform of this 
system is about a lot of things. This is about resource needs. This is 
about proper management of those resources and the services provided. 
This is about accountability. And ultimately and most importantly, this 
is about putting the safety and health and well-being of thousands of 
children first--above all else.
    I know that Chairman Davis shares these concerns and is standing 
ready and willing to work together to help make life better for these 
children. I thank him for requesting the GAO report and welcome now his 
testimony.

    Senator DeWine. Let me turn to the Ranking Member of this 
committee, who has been a real partner in this effort and who 
cares passionately about the children of the District of 
Columbia, Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. And I am going 
to be very brief and submit a statement for the record, because 
I am anxious to hear from our partner in the House on this 
issue. And I also have any number of questions that will follow 
up some of the more disturbing findings in this report.

                           PREPARED STATEMENT

    But let me just say that I appreciate this work. I want to 
associate myself with your remarks, Mr. Chairman, and 
understand that we have made some progress. But according to 
this report, there is a tremendous amount of work that is yet 
to be done. And this work is extremely important. And there is 
an urgency about this work. So I will submit the rest of my 
statement in writing. And thank you, Mr. Chairman.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    I would like to join Chairman DeWine in welcoming our witnesses 
from the District as well as Chairman Tom Davis from the House 
Government Reform Committee. I appreciate Chairman Davis taking the 
time to share his insight into the District, as a representative from 
Virginia, and the GAO report which he initiated.
    It has been two years since Chairman DeWine and I convened our 
first hearing on this subcommittee to discuss child welfare in the 
District. At that time we met with some of you and some of your 
predecessors. We are happy that Judith Meltzer is on the panel again, 
and that her expertise has provided a thread of continuity in the 
reform of child welfare in the District. However, over the two years 
that have passed, we are still in the planning phase of reform.
    The receivership of the Child and Family Services Agency ended in 
June of 2001 after certain criteria were achieved by the city, such as, 
protecting CFSA from agency budget or personnel reductions; reform of 
the Family Court and coordination; implementation of memoranda of 
understanding with the Department of Health and the Commission on 
Mental Health Services for providing mental health and substance abuse 
services. These benchmarks have improved the direction of this agency, 
but not the results so far.
    Now this subcommittee is meeting with the leaders on child welfare 
again and we understand that the agency's probationary period, which 
has seen child welfare through the last 21 months, was terminated in 
January. I understand that the District has met 75 percent of 20 best 
practice benchmarks during probation. I would be interested to learn 
more specifically about the benchmarks met and those where the agency 
fell short.
    The two main guidebooks to reform of CFSA are a court order (the 
implementation plan of the LaShawn Decree) and the Federal law (the 
Adoption and Safe Families Act). GAO has aptly reviewed the District's 
strengths and weaknesses in these areas. The federal court will 
maintain oversight of the agency as it implements the standards set in 
the. Yet another component must be considered: the citizens of the 
District; as identified in Judith Meltzer's written testimony.
    I remain concerned that there is a grave difference between 
checking the box of criteria and impacting the lives of children. I 
have worked in this field for 20 years as an advocate for children, and 
I know that there are small things that can be done to make children 
safer, while the administrative arm of the agency is trying to stand up 
their processes. I do not want the District to lose sight of this fact. 
We must be achieving safety and permanency for every child on a day to 
day basis. We cannot wait until the administration of the agency is 
strong enough to do its job every day.
    Each of your different perspectives (as an advocate of children; as 
an administrator of an agency; and as the monitor to ensure compliance 
with court mandates) can provide insight.
    This morning, I would like to know from each of you: How can we 
move beyond ``we're working on it''? When is this agency going to 
remove the ``Under Construction'' sign and replace it with a sign 
reading, ``Now Operating''? We are not talking about widgets. We are 
talking about the safety and future of children.
    I hope that you all will be open with the subcommittee on the 
critical needs that exist and how we can address the necessary 
resources in the city. I appreciate the time of each of our witnesses 
and hope that we can begin a constructive dialogue on the future of the 
Child and Family Services Agency.

    Senator DeWine. Thank you.
    Congressman Davis, again, thank you for requesting this 
very revealing report. We are very grateful to you for doing 
this. And we look forward to your testimony. Thank you. Please 
proceed, and take as much time as you would like.
STATEMENT OF HON. TOM DAVIS, U.S. REPRESENTATIVE FROM 
            VIRGINIA
    Mr. Davis. Thank you very much. And good morning, Mr. 
Chairman and Senator Landrieu. And let me thank you for your 
partnership and your leadership, both of you, in this as well. 
And thank you for inviting me to testify today.
    As you know, I have a longstanding interest in the Child 
and Family Services Agency and all the reform efforts it is 
undertaking to provide adequate services to vulnerable children 
and families in the District.
    When I served as chairman of the House Government Reform 
Subcommittee on the District, we held numerous hearings to 
examine CFSA's operations under Federal court-ordered 
receivership. At the time, CFSA was plagued by deep-rooted 
management problems that impacted the safety of children in its 
care and hindered the agency's delivery of services.
    The systematic problems identified were widespread and 
included agency operations, staffing, budget, and fiscal 
management, procurement, and quality assurance monitoring. The 
CFSA has since worked to address many of these problems and 
fulfill the criteria for terminating the probationary period.
    To complement the reforms in CFSA, Congress worked with the 
D.C. Superior Court officials, Government, and community 
leaders to craft the Family Court Act. The act established 
management principles to better address the needs of the 
children in the system, increased the number of Family Court 
judges, and created the position of magistrate judge to help 
eliminate the backlog of cases and ensure that cases were 
managed in a timely manner. The Family Court reforms emphasized 
the importance of communication between the Court and the CFSA, 
including the establishment of an on-site liaison office in the 
Family Court to better inform judges of the availability of 
social services in the city.
    The occurrence of highly publicized incidents last year, 
including the placement of underage children in group homes, 
reminded us that many areas of CFSA's operations had yet to be 
reformed and that children were paying the price for agency 
mistakes. Therefore, then-D.C. subcommittee Chairwoman Connie 
Morella and I requested a follow-up GAO study to examine CFSA's 
performance measures and compliance with the Adoption and Safe 
Families Act, the implementation of key foster care policies, 
and the relationship between the agency and the Family Court.
    Based on GAO's initial results, I am pleased that CFSA is 
showing some progress in a number of areas. Specifically, we 
are encouraged by CFSA's efforts to develop written plans to 
help it comply with some of AFSA's requirements and performance 
measures. We are also pleased to note the agency's development 
of numerous foster care policies.
    Furthermore, CFSA's efforts to lower the number of underage 
children who are placed in group homes is commendable. However, 
I question why the number remains so high--GAO reports that 70 
children were still in group homes at the end of February 
2003--and whether the District has an adequate number of foster 
families.
    The relationship between CFSA and the Family Court is 
improving. And the two entities are working collaboratively. 
But I understand that hearing conflicts and staffing problems 
remain.
    While the agency's progress is encouraging, I admit that 
GAO's findings leave me with more questions than answers. I 
still have concerns about the many challenges that lay ahead. 
For instance, there are remaining AFSA requirements that the 
agency has not met regarding the termination of parental rights 
and permanency hearings. I understand that many of the delays 
in these areas are likely due to staffing shortages. I know 
that social service agencies nationwide face a shortage of 
social workers.
    So what has to be done to attract a larger number of 
qualified and competent social workers to CFSA? Mr. Chairman, I 
understand that you are examining this issue and looking for 
potential ways to provide a financial incentive to qualified 
applicants, including loan forgiveness and scholarships. Our 
counterpart, the House Committee on Government Reform, stands 
ready to provide the necessary support for innovative 
recruitment and retention efforts.
    As you know, Mr. Chairman, the incidents that prompted me 
to request the GAO report occurred in group homes. One of 
several issues that emerged included the delayed reporting of 
abuse allegations. I remain concerned that CFSA has been slow 
to improve staff training and clarify the incident reporting 
requirements so that employees understand their 
responsibilities.
    GAO also found that critical data about children's cases 
are not always entered into the FACES automatic case management 
system in a timely fashion. This limits a social worker's 
ability to provide the Family Court with the most accurate, 
relevant, and timely information so that the judge may make an 
educated decision to ensure the safety and well-being of the 
child. All components of the child welfare system need to work 
together to provide children with safe homes and any social and 
medical services that they may require. Since the information 
stored in the FACES system serves a variety of purposes within 
the agency, it is imperative that it is updated as quickly as 
possible. I hope that CFSA will discuss their IT improvement 
plans this morning.
    Furthermore, the data in the FACES system should ideally 
keep track of a child's assignment to a foster family, 
including those in Maryland. I continue to be concerned that 
the District of Columbia may not have an accurate tally of the 
number of children currently placed in Maryland foster homes. I 
have also received reports that the computers are often down, 
further exacerbating the database challenges.
    So what needs to happen in order to address the critical 
shortfalls identified by GAO? Does the answer lie in more 
staff, better management, better IT services, more money? How 
successful has CFSA been at targeting their resources to 
resolve management, staffing, and other operational challenges? 
These are questions that our committees must continue to ask as 
we pursue our respective roles. And I certainly hope that 
today's hearing will identify CFSA's advances and pinpoints its 
needs as it continues to institute reform.
    I understand that the process is slow. If only the system 
could be fixed overnight for the benefit of the children it 
serves. Unfortunately, the reality is that a comprehensive 
overhaul of an agency's infrastructure and the implementation 
of new polices and procedure, it takes time, it takes money and 
some patience.

                           PREPARED STATEMENT

    The House committee will hold an oversight hearing in May 
to further examine these issues. As we move forward with our 
oversight responsibility, I look forward to working together, 
as we examine the progress of the agency's reforms, determine 
what assistance Congress can provide as CFSA completes the 
development and improvement of its policies and procedures.
    That concludes my remarks, Mr. Chairman. Again, I 
appreciate the leadership of both of you on this issue.
    [The statement follows:]
             Prepared Statement of Representative Tom Davis
    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you for inviting me to testify today about the District of Columbia 
Child and Family Services Agency (CFSA). As you know, I have a 
longstanding interest in CFSA and the reform efforts it is undertaking 
to provide adequate services to vulnerable children and families in the 
District.
    When I served as Chairman of the House Government Reform 
Subcommittee on the District of Columbia, we held numerous hearings to 
examine CFSA's operations under Federal court-ordered receivership. At 
the time, CFSA was plagued by deep-rooted management problems that 
impacted the safety of children in its care and hindered the agency's 
delivery of services. The systemic problems identified at CFSA were 
widespread and included agency operations, staffing, budget and fiscal 
management, procurement, and quality assurance monitoring. The CFSA has 
since worked to address many of these problems and fulfill the criteria 
for terminating the probationary period.
    To complement the reforms in CFSA, Congress worked with D.C. 
Superior Court officials, government, and community leaders to craft 
the Family Court Act. The Act established management principles to 
better address the needs of the children in the system, increased the 
number of Family Court judges, and created the position of magistrate 
judge to help eliminate the backlog of cases and ensure that cases are 
managed in a timely manner. The Family Court reforms emphasized the 
importance of communication between the Court and CFSA, including the 
establishment of an on-site liaison office in the Family Court to 
better inform judges of the availability of social services in the 
city.
    The occurrence of highly publicized incidents last year, including 
the placement of underage children in group homes, reminded us that 
many areas of CFSA's operations had yet to be reformed and that 
children were paying the price for agency mistakes. Therefore, then-
D.C. Subcommittee Chairwomen Connie Morella and I requested a follow-up 
GAO study to examine CFSA's performance measures and compliance with 
the Adoption and Safe Families Act (ASFA), the implementation of key 
foster care policies, and the relationship between the agency and the 
Family Court.
    Based on GAO's initial results, I am pleased that CFSA is showing 
progress in a number of areas. Specifically, I am encouraged by CFSA's 
efforts to develop written plans to help it comply with some of the 
ASFA requirements and performance measures. I am also pleased to note 
the agency's development of numerous foster care policies. Furthermore, 
CFSA's efforts to lower the number of underage children who are placed 
in group homes is commendable. However, I question why that number 
remains so high (GAO reports that 70 children were still in group homes 
at the end of February 2003), and whether the District has an adequate 
number of foster families. The relationship between CFSA and the Family 
Court is improving and the two entities are working collaboratively, 
but I understand that hearing conflicts and staffing remain problems.
    While the agency's progress is encouraging, I must admit that GAO's 
findings leave me with more questions than answers. I still have 
concerns about the many challenges that lay ahead. For instance, there 
are remaining ASFA requirements that the agency has not met regarding 
the termination of parental rights and permanency hearings. I 
understand that many of the delays in these areas are likely due to 
staffing shortages. I know that social services agencies nationwide 
face a shortage of social workers. So, what must be done to attract a 
larger number of qualified and competent social workers to CFSA? Mr. 
Chairman, I understand that you are examining this issue and looking 
for potential ways to provide a financial incentive to qualified 
applicants, including loan forgiveness and scholarships. The House 
Committee on Government Reform stands ready to provide the necessary 
support for innovative recruitment and retention efforts.
    As you know, Mr. Chairman, the incidents that prompted me to 
request the GAO report occurred in group homes. One of several issues 
that emerged included the delayed reporting of abuse allegations. I 
remain concerned that CFSA has been slow to improve staff training and 
clarify the incident reporting requirement so that employees understand 
their responsibilities.
    GAO also found that critical data about children's cases are not 
always entered into the FACES automated case management system in a 
timely fashion. This limits a social worker's ability to provide the 
Family Court with the most accurate and relevant information so that 
the judge may make an educated decision to ensure the safety and well-
being of the child. All components of the child welfare system need to 
work together to provide children with safe homes and any social and 
medical services they may require. Since the information stored in the 
FACES system serves a variety of purposes within the agency, it is 
imperative that it is updated as quickly as possible. I hope that CFSA 
will discuss their IT improvement plans this morning.
    Furthermore, the data in the FACES system should ideally keep track 
of a child's assignment to a foster family, including those in 
Maryland. I continue to be concerned that the District of Columbia may 
not have an accurate tally of the number of children currently placed 
in Maryland foster homes. I have also received reports that the 
computers are often down, further exacerbating the database challenges.
    So what needs to happen in order to address the critical shortfalls 
identified by GAO? Does the answer lie in more staff, better 
management, better IT services, more money? How successful has CFSA 
been at targeting their resources to resolve management, staffing, and 
other operational challenges? These are questions that our committees 
must continue to ask as we pursue our respective roles. And I certainly 
hope that today's hearing will identify CFSA's advances and pinpoint 
its needs as it continues to institute reform.
    I understand that the process is slow. If only the system could be 
fixed overnight for the benefit of the children it serves. The 
unfortunate reality is that a comprehensive overhaul of an agency's 
infrastructure, and the implementation of new policies and procedures 
take time, money, and patience.
    The House Committee on Government Reform will hold an oversight 
hearing in May to further examine these issues. As we move forward with 
our oversight responsibility, I look forward to working together as we 
examine the progress of the agency's reforms, and determine what 
assistance Congress can provide as CFSA completes the development and 
improvement of its policies and procedures.
    That concludes my remarks, Mr. Chairman. I am available to answer 
any questions you may have.

    Senator DeWine. Well, Mr. Chairman, we look forward to 
working with you. We just appreciate your interest and again 
thank you for requesting this GAO report. And I think it is 
going to provide us, both of us, with a great deal of 
information to help the District improve and work together on 
our common goal, to really help the children of the District of 
Columbia.
    Mr. Davis. Thank you.
    Senator DeWine. Senator Landrieu?
    Senator Landrieu. I just want to thank you for your 
testimony and acknowledge that these problems are quite severe 
in the District. And we have every intention of continuing to 
work with you to improve and to find workable solutions. I will 
note that the District, of course, which I always feel 
compelled to point out, is not the only place in the United 
States where these problems exist. But they exist in a more 
acute way here--the numbers just seem overwhelming to some of 
us who do this work all throughout the country. The District of 
Columbia is not alone, but it does seem to have some persistent 
problems that are just very tough to address.
    So I thank you for your effort and look forward to working 
with you.
    Mr. Davis. Thank you very much.
    Senator DeWine. Thank you very much.
    I would invite our second panel now to come forward.
    Dr. Olivia Golden is the Director of the District of 
Columbia's Child and Family Services Agency. Ms. Judith Meltzer 
is the court-appointed monitor for the Child and Family Service 
Agency. Ms. Cornelia Ashby is the Director of Education, 
Workforce, and Income Security Issues at the General Accounting 
Office. And Anne Schneiders is the chair and founder of the 
Washington Chapter of the National Association of Counsel for 
Children.
    I think we will start with you, Dr. Golden. And we will 
take just a brief 5-minute opening statement, if you would like 
to make one. And then we will just go right down. And then we 
will have questions.
STATEMENT OF DR. OLIVIA A. GOLDEN, DIRECTOR, CHILD AND 
            FAMILY SERVICES AGENCY, DISTRICT OF 
            COLUMBIA
    Dr. Golden. Thank you. Good morning, Chairman DeWine, 
Senator Landrieu, District of Columbia Subcommittee. I am 
Olivia Golden, the Director of the Child and Family Services 
Agency for the District of Columbia. And I appreciate your deep 
commitment to the District and to children.
    Less than 2 years ago, in June of 2001, Federal Court 
receivership of CFSA terminated. And I had the opportunity to 
become the first director of CFSA in its new form as a cabinet-
level agency of the District of Columbia. The legislation that 
created this new agency laid out for CFSA a whole set of 
responsibilities and authorities that had never been unified in 
one place in the District before, creating for the first time 
the opportunity for true reform.
    The pace of change since then has been extraordinary. It 
has only been 18 months since October of 2001 that the District 
has had a unified child abuse and neglect agency at all. Before 
then, CFSA investigated reports of neglect only, while the 
Metropolitan Police Department investigated reports of abuse 
and services to children who had experienced abuse were split 
between court social services and CFSA.
    In this fragmented system, the obstacles to such basic 
elements of child welfare services as prompt and high-quality 
investigation and timely movement to permanence were 
overwhelming. Both our own sense of urgency and the Federal 
Court's framework required us to create real change for 
children at the same time we were reengineering the whole legal 
and institutional framework for child welfare in the District, 
building the District's first real safety net for children.
    After our first year, as Senator DeWine mentioned, the 
court monitor in the LaShawn lawsuit reported that we had met 
75 percent of 20 exacting performance goals, measuring progress 
from the end of the receivership. As a result, Federal Judge 
Hogan signed the order ending the probationary period in 
January of 2002. Among the probationary period accomplishments 
that have the most direct impact on children are the dramatic 
reduction in the backlog of investigations open more than 30 
days, sharp reductions in the use of group care for young 
children, a sharp reduction in the number of children in 
residential care more than 100 miles from the District, and a 
20 percent increase in finalized adoptions.
    This is a critical juncture for reform and for the LaShawn 
lawsuit. The District has demonstrated its capacity to mobilize 
and maintain momentum for change. Yet the end of CFSA's 
probation does not mean the end of the lawsuit. We are now 
committed to several years of hard work to meet the ambitious 
goals we have set for ourselves and the requirements of the 
Court's modified final order. We have been closely working with 
the court monitor and plaintiffs in developing the 
implementation plan that will set out benchmarks for this 
process.
    CFSA's multi-year timetable for reform is consistent with 
the national experience. Our national advisory panel, which 
includes leaders who have transformed child welfare in other 
jurisdictions, such as William Bell from New York, Judge 
Ernestine Gray from New Orleans, and Judith Goodhand from 
Cleveland, Ohio, has suggested that we think of change in a 
major urban child welfare system as a 5- to 10-year process. As 
William Bell wrote of New York's ambitious child welfare 
reform, ``Everyone involved had to accept that real reform was 
a multi-year, multi-faceted undertaking.''
    In my written testimony, I describe in detail how far we 
have come and the reform that still lies ahead in staff 
recruitment, retention, and training, in licensing, in contract 
reform, in foster care and adoptive parent recruitment, in 
information systems, and in partnerships with other agencies. 
In this oral summary, I would like to highlight just three 
additional accomplishments.
    First, because manageable social worker caseloads are key 
to quality services for children, we have brought the average 
ongoing caseload down from about the mid-30's last year at this 
time to 23 as of last week.
    Second, our substantial progress in building a reliable and 
timely automated data system has been key to our 
accomplishments for children. I would love to talk about that 
more during questions. This month FACES, our system, will 
receive an award from Computer World Magazine for being a 
national leader in automating child welfare case management. 
And I would like to correct some of the comments made earlier, 
if we have time in the question period, because we do have a 
very complete and timely automated system. But there is old 
data from 1998 and 1999 that GAO found, because of the state of 
the system then, the old data was not all on it.
    Third, just 1 year ago, we began reforming legal support by 
co-locating a dramatically expanded team of attorneys with 
CFSA. Today, social workers have legal representation in 97 
percent of all hearings. Our legal staff has been reorganized 
to work with Family Court judicial teams. And each lawyer is 
shifting to vertical prosecution, which means seeing a case 
through from initial hearing to permanence.

                           PREPARED STATEMENT

    In conclusion, we are at an extraordinary moment in the 
District's child welfare system, a moment of early 
accomplishment, of great hope, and yet of fragility. I am 
deeply grateful for the subcommittee's past support and 
leadership and for both Senator Landrieu and Senator DeWine's 
work at a national level where I had the chance to work with 
you as well.
    My written testimony suggests several areas for the 
subcommittee's continued involvement, which I look forward to 
discussing today or in the future.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Olivia A. Golden
    Good morning Chairman DeWine, Senator Landrieu, and Members of the 
District of Columbia Subcommittee of the Senate Appropriations 
Committee. I am Olivia Golden, the Director of the Child and Family 
Services Agency (CFSA) for the District of Columbia, and I am grateful 
for the opportunity to testify today regarding the progress of child 
welfare reform in the District of Columbia. I appreciate the deep 
commitment of Senator DeWine, Senator Landrieu, and other Subcommittee 
members to the District's well-being and to the child welfare agenda of 
safety, permanence, and well-being.
    Less than 2 years ago, in June 2001, Federal Court Receivership of 
CFSA terminated, and I had the opportunity to become the first Director 
of CFSA in its new form as a cabinet-level agency of the District of 
Columbia. The legislation that created this new cabinet-level agency 
laid out for CFSA a whole set of responsibilities and authorities that 
had never been unified in one place in the District before, creating 
for the first time the opportunity for true reform. The pace of change 
since then has been extraordinary. For example, it has only been about 
18 months, since October of 2001, that the District has had a unified 
child abuse and neglect agency. Before then, CFSA investigated reports 
of neglect only, while the Metropolitan Police Department investigated 
reports of abuse, and services to children who had experienced abuse 
were split between Court Social Services at the Superior Court and 
CFSA. In this fragmented system, the obstacles to such basic elements 
of child welfare services as prompt and high-quality investigation and 
timely movement to permanence were overwhelming. To take another 
example, after 15 years when the District's statute regarding licensing 
of foster homes, group homes, and independent living facilities had 
never been implemented, this authority was given to CFSA in the April 
2001 legislation and was implemented through regulations in 2001 and 
early 2002. Just weeks ago, we accomplished the District's first-ever 
licensing of these facilities, meeting the regulatory deadline of 
January 1, 2003.
    But there was no time to wait for this dramatic institutional 
change to be complete: both our own sense of urgency and the Federal 
Court's framework for measuring progress required us to create real 
change for children at the very same time we were re-engineering the 
whole statutory and institutional framework for child welfare in the 
District. After our first year, the Court Monitor in the LaShawn 
lawsuit reported that we had met 75 percent of 20 exacting performance 
goals measuring progress from the baseline at the end of Receivership, 
thus ending the probationary period under LaShawn. Judge Hogan signed 
the order ending the probationary period in January 2002.
    Among the probationary period accomplishments that have the most 
direct impact on children are:
  --reduction in the backlog of investigations open more than 30 days 
        from over 800 in May of 2001 to under 300 in May of 2002 (and 
        under 100 today);
  --sharp reductions in the use of congregate care for young children--
        for example, a reduction in the number of children under 6 in 
        group care from 99 in May of 2001 to 47 in May of 2002 and 
        under 40 as of February 28, 2003;
  --a sharp reduction in the number of children in residential care 
        more than 100 miles from the District to 56 as of February 
        2003. This is a sharp decline from a total of 83 in May of 2001 
        and 65 in May of 2002;
  --a 20 percent increase in finalized adoptions from the year ending 
        in May of 2001 to the year ending in May of 2002; and
  --improvements in the proportion of cases with current case plans, 
        the building block for permanence for children.
    I want to acknowledge the leadership and commitment demonstrated by 
Mayor Williams, Deputy Mayor Graham, the Council of the District of 
Columbia and Delegate Eleanor Holmes Norton, in making such dramatic 
change possible in less than 2 years.
    It has been an extraordinary personal opportunity for me to be part 
of these 2 years of fundamental reform in the District. In my previous 
role as Assistant Secretary for Children and Families at the Federal 
level, I had the opportunity to work on both the Adoption and Safe 
Families Act and the Federal Child and Family Service Reviews, in order 
to better align the Nation's child welfare system with three critical 
goals: keeping children safe, enabling every child to grow up in a 
permanent family, and supporting the well-being of the most vulnerable 
children and most fragile families. It is these same three goals that 
have shaped our work for the past 2 years in the District.
    In today's testimony, I would like to give you a sense of how far 
we have come in this very brief but very intense period of reform and 
of the continued, major reform that still lies ahead. Four key themes 
summarize where we have been and where we are going:
  --1. After less than 2 years out of receivership, we are at a 
        critical juncture for reform and for the LaShawn lawsuit.--We 
        have accomplished major milestones, by completing the statutory 
        reform sketched above and achieving the milestones that ended 
        the probationary period; at the same time, we have ahead of us 
        a several-year plan to accomplish the vision for reform laid 
        out in the LaShawn Modified Final Order.
  --2. This timetable for reform is consistent with the national 
        experience about reform of major urban child welfare systems, 
        an experience we draw on through our National Advisory Panel 
        and a wide variety of other expertise.--We are about 2 years 
        into a reform process that the national experience suggests 
        will take 5 to 10 years of sustained, committed effort.
  --3. CFSA's progress has required both major institutional changes--
        such as new legislation, new regulations, and new 
        intergovernmental agreements--and improvements in basic, day-
        to-day practice leading to better results for children.--In the 
        first year we transformed the statutory and institutional 
        framework and tore down barriers to reform at the same time 
        that we achieved early results for children, including the 
        achievement of 75 percent of the performance standards to end 
        the probationary period. In the second year, we are continuing 
        the rapid pace of change, accelerating the improvements for 
        children and the development of core processes, and 
        strengthening emerging partnerships.
  --4. We have ahead of us an ambitious multi-year program to build in 
        quality and transform results.--We expect that the road map to 
        this ambitious reform agenda will be the Implementation Plan 
        currently being completed by the Federal Court Monitor after 
        intensive discussions with the District and the LaShawn 
        plaintiffs. We believe that the support of the whole community 
        will be necessary to achieve this ambitious agenda, and we are 
        grateful for the continuing support of the Subcommittee and the 
        opportunity to suggest how the Subcommittee can help from here 
        on.
    Before turning to these specific themes, I would like to illustrate 
the impact of reform on children's lives with one real example: 17-
year-old Anna has experienced at least 15 psychiatric hospitalizations 
since becoming involved with CFSA at age 12. Her father and grandmother 
love Anna, but they are worn out from dealing with her bi-polar and 
behavioral disorders, seizures, verbal and physical violence, substance 
abuse, and running away. They wanted Anna placed in a residential 
treatment facility. Anna's CFSA caseworker hoped to keep Anna in the 
community and in contact with her family, so she referred Anna's case 
to Multi-Agency Placement Team (MAPT). Through MAPT, Anna has been able 
to stay in the community with intensive, coordinated, multi-agency 
support. These services include: placement in a foster home that can 
meet her needs, intensive case management, referral to a local 
psychiatrist, involvement with a mentor, enrollment in an education-
based day treatment program, and a part-time job. The difference for 
Anna is that her family and the agencies worked together to coordinate 
services for her. This is very different than hasty assembly of 
fragmented services in the past. Anna's difficulties are severe, and 
she may or may not be able to remain in the community. But for now, 
MAPT has provided access to intensive, coordinated local services; Anna 
has been diverted from a restrictive residential placement; and she is 
engaged in school and with the providers and not running away.
                     status of the lashawn lawsuit
    We are now at a very important point in the LaShawn lawsuit. The 
Receivership and the probationary period that followed it have 
terminated, as a result of the District's successful enactment of key 
legislative reforms as well as the accomplishment of 75 percent of the 
20 performance goals. In January, Federal Judge Hogan of the U.S. 
District Court certified CFSA's completion of probation, which 
successfully demonstrates the District's capacity to mobilize and 
maintain momentum for change.
    At the same time, the end of CFSA's probation does not mean the end 
of the lawsuit. We are now facing several years of hard work to meet 
the ambitious goals we have set for ourselves and the requirements of 
the Modified Final Order, which is the original consent decree the 
District signed in 1993, and other remedial orders. Now, the District 
must substantially comply with requirements in these orders to end 
Federal Court involvement.
    The vision of reform laid out in the Modified Final Order not only 
has legal force but offers a compelling vision of safety, permanence, 
and well-being for abused and neglected children. It envisions a 
District where:
  --prompt, thorough, quality investigations protect children at risk 
        and screen them appropriately for health and mental health 
        issues;
  --a broad range of services in the community help children remain at 
        or return home safely--or, when those options are not possible, 
        grow up in nurturing adoptive families;
  --support is readily available to help foster, kinship, and adoptive 
        parents meet children's health, mental health, and other needs;
  --children almost always live with families and only rarely in group 
        settings;
  --foster children have as much continuity and stability as possible, 
        including opportunities to live with their brothers and 
        sisters, to bond with one foster or kinship family rather than 
        move among many placements, and to see their parents often as 
        long as reunification is the goal; and
  --social worker caseloads are low enough that both CFSA and private-
        partner social workers routinely provide quality case 
        management while expanding their skills through pre-service and 
        in-service training.
    For several months, the District, Federal Court Monitor, and 
plaintiffs have been negotiating an Implementation Plan designed to 
improve the key areas of local child welfare in keeping with this 
vision. As you will hear today from the Court Monitor, we are 
optimistic that the final Implementation Plan will be submitted to the 
Court very soon. This final Implementation Plan will mandate and direct 
continued reform of CFSA over the next several years. It will mean 
meeting measurable benchmarks within specific time frames. And it will 
mean achieving substantial compliance of the Modified Final Order, so 
that Federal court oversight will terminate and further legal action 
will be avoided.
    I expect the final Implementation Plan will challenge us to move 
beyond our achievements to date to develop a well functioning urban 
child welfare system. I also expect that CFSA will need to continue, 
and perhaps even increase, the fast-paced rate of change we have 
struggled to establish over the past 2 years. However, with continued 
reform inside our agency and sustained support from outside, the 
District now has two unprecedented opportunities: first, to establish 
the strong public child protection program local children and families 
deserve and second, to end the LaShawn lawsuit. The challenge will be 
great, the demands high, and the time frame extended over several 
years. But the time is right to continue our momentum and achieve 
significant positive outcomes for children, families, and the city. 
This payoff is clearly well worth all our best efforts and support.
             the national context for child welfare reform
    To inform and sustain this dramatic pace of reform at CFSA, we have 
drawn on a range of national expertise in the reform of urban child 
welfare systems. The October 2000 consent order that led to the end of 
the Receivership envisioned a National Advisory Panel, to be supported 
by private funding and to provide expertise and advice to the Director 
of CFSA. With support from the Annie Casey Foundation, we have 
established this National Panel, which includes academic experts as 
well as leaders who have transformed child welfare systems in other 
jurisdictions--such as William Bell, current Commissioner of the 
Administration for Children's Services in New York, Judge Ernestine 
Gray from New Orleans who is the Immediate Past President of the 
National Council of Juvenile and Family Court Judges, and Judith 
Goodhand who formerly led child welfare in Cleveland, Ohio.
    These national leaders have provided us with a range of advice, 
support, and technical assistance, ranging from informal training 
activities to an on-site team review of all of CFSA's placement 
functions, with a report to follow shortly. One common theme to all of 
their advice, however, has been to think of change in a major urban 
child welfare system as a 5- to 10-year process. As William Bell, 
Commissioner of New York City's child welfare agency, wrote of New 
York's ambitious child welfare reform (New York Times Op-ed dated 
January 21, 2003), ``a desire for quick fixes had to be resisted. 
Everyone involved had to accept that real reform was a multi-year, 
multi-faceted undertaking.''
                      cfsa: a snapshot of progress
    Before moving on to the details of our reform process, I would now 
like to take a moment to provide a snapshot of our progress for 
children. Our goal is to achieve safety, permanence, and well being not 
just for one, or a dozen, or a hundred but for the thousands of 
children who need the District's protection every year. To provide a 
context for the scale of the task ahead, in fiscal year 2002, our 24-
hour line for reporting child abuse and neglect received an average of 
640 calls monthly. About 440--or 69 percent--of those calls met the 
criteria for abuse or neglect and were referred for investigation. In 
an average month, CFSA served some 3,119 children in paid placements, 
and about 2,301 families with children at home. At the end of fiscal 
year 2002, we had 1,803 children adopted from our foster care program 
and living in adoptive homes, with support from the District's 
subsidized adoptions program.
    In every area where we are assessing progress, we see a balance of 
important positive changes yet a great deal left to do. Key highlights 
include:
  --Improved staffing and reduced caseloads per social worker, yet more 
        to do to reach our goals.--Because manageable caseloads are key 
        to high quality services for children, we have placed a top 
        priority on bringing down and equalizing caseloads, to reduce 
        both the average caseload and the caseloads carried by our most 
        over burdened workers. As a result of our aggressive 
        recruitment (described below) as well as a focus on assigning 
        and managing cases more equitably, we have brought the average 
        ongoing caseload down from about the mid-30's last year at this 
        time to 23 as of last week. At the top end, we have gone from 
        18 workers carrying more than 50 cases last August to none at 
        that level now, and we expect to bring all caseloads below 40 
        within the next few weeks. However, we have much more to do: 
        under the MFO, we will need to bring all ongoing caseloads 
        below 20, with some targeted for 17 and 12 cases depending on 
        the child and family circumstances. At the front end of the 
        system, our investigators are very close to the MFO caseload 
        levels: at the end of February, 45 of 55 investigators had 
        caseloads below the MFO level of 12 investigations. We intend 
        to meet the MFO level in investigations by the end of the 
        fiscal year.
      Recruitment and retention of child welfare staff are national 
        challenges and not unique to the District of Columbia. The 
        Child Welfare League of America and the American Public Human 
        Services Association, among others have reported on the problem 
        and proposed remedies. With support from the Annie E. Casey 
        Foundation, we are hoping to build on this knowledge and add 
        new lessons from our experience that may assist other 
        jurisdictions.
  --Timely investigations.--As indicated above, we have made important 
        progress in reducing the backlog of investigations open more 
        than 30 days, from a backlog of more than 800 in May of 2001 to 
        under 300 in May of 2002 to under 139 today. The proportion of 
        open investigations that have been open 30 days or less is 
        currently 70 percent. We have been able to accomplish these 
        improvements even while adding new responsibilities, such as 
        the new area of institutional investigations--investigations of 
        settings such as group homes, foster homes, and day care 
        centers--which in many States are seen as more complex and 
        time-consuming than individual abuse and neglect 
        investigations. Our next steps in investigations will require 
        us to focus intensively on quality, in order to meet the 
        ambitious standards in the MFO.
  --Continued reductions in reliance on congregate care.--Sadly, the 
        District's history involves far too great a reliance on group 
        care rather than families for children who cannot live safely 
        at home. We have already made important changes in this 
        historic practice and anticipate further progress over the 
        coming years. In addition to the dramatic reduction in the 
        number of very young children--under age 6--in congregate care 
        highlighted above, we have also focused on reducing the number 
        of children age 12 and under in congregate care. This number 
        has dropped from 130 as of May 31, 2002 to 70 as of February 
        28, 2003 of whom approximately 40 are under the age of 6.
      Understanding the stories of the young children who have moved 
        from group care to families helps make clear how much 
        difference this change can make to their lives. Just to take 
        one example: In CFSA's drive to replace group homes with family 
        settings, especially for children age 6 and under, Michael 
        posed several challenges. He has been blind and mute from 
        birth, with his father as his primary caretaker. When a family 
        crisis temporarily overwhelmed his father, Michael entered a 
        group home at age 4. Two years later, Father was stable, but 
        Michael remained in group care. Everyone, including Father, 
        recognized that Michael had made progress through specialized 
        services while in the group home--for example, enrollment in a 
        school for blind children. So the challenge was to connect 
        Father to services that would support him in meeting Michael's 
        special needs. Among services CFSA located and put in place 
        are: a home health aide to provide respite for Father, an 
        introduction to Michael's pediatrician of 2 years, a visiting 
        nurse, individual and family therapy to help Father learn how 
        to interact with Michael more fully, and referrals to local 
        sources of Braille materials and special toys. Last month, 
        Michael went home with his father. For now, he continues to 
        attend the school for blind children. Someday, with 
        accommodations, he may be able to attend a mainstream 
        classroom.
  --Improving the timeliness of adoption and guardianship for children 
        who cannot return to their birth homes.--In fiscal year 2002, 
        CFSA finalized 313 adoptions, representing approximately a 20 
        percent increase from last year. Key elements of this 
        accomplishment were close collaboration with the Superior 
        Court, improved legal support for CFSA, and emphasis on 
        tracking progress. In fiscal year 2003, we anticipate improving 
        further our process for ensuring that children who cannot live 
        with their birth parents are able to grow up with a loving 
        family. Next steps include holding immediate permanency 
        staffings as soon as the court determines a child cannot go 
        home, further improvements in legal support and filings to 
        terminate parental rights, and award of a contract for an 
        Adoption Resource Center to support adoptive parents.
      In addition, there are currently 60 relatives in the process of 
        obtaining subsidized guardianship. Thirty relatives have 
        completed the process awaiting judge's order, as did two last 
        year. The subsidized guardianship program is an effective 
        approach to achieving permanence for a child when a relative is 
        prepared to make a lifetime commitment but not to terminate 
        parental rights.
                        the first year of reform
    A key first step in achieving these changes for children was the 
tremendously ambitious set of institutional reforms that the District 
accomplished in the months just before and just after CFSA's June 2001 
return from Receivership, reforms that were focused on dismantling the 
structural and legal barriers that for so long stood in the way of 
safety, permanence, and well-being for the District's abused and 
neglected children. The consent order provided a framework for the 
structural reforms to achieve a major overhaul of child welfare in the 
District of Columbia, including the following elements:
  --enabling legislation that established CFSA as a Cabinet level 
        agency under the Mayor with independent personnel and 
        procurement authority, licensing 13 authority for foster homes 
        and group homes, and responsibility for the Interstate Compact 
        on the Placement of Children;
  --unification under CFSA of the responsibility for abuse and neglect 
        investigation and services, a provision of the enabling 
        legislation which was implemented effective October 1, 2001, 
        thus ending the fragmentation that had been a key barrier to 
        serving families effectively;
  --promulgation of the District's first licensing regulations for 
        group homes (September 21, 2001) and foster homes (July 28, 
        2001); and publication of the first regulations to govern 
        independent living facilities, (February 22, 2002); and
  --reform of the legal support provided to CFSA social workers, 
        including almost tripling the number of attorneys so social 
        workers can always be represented in court, and restructuring 
        legal services to enable much closer coordination between 
        attorneys and social workers and provide for an attorney-client 
        relationship with CFSA.
    Each of these institutional changes has required many hours of work 
to implement, requiring fundamental change in the nature of work, 
training, staffing assignments, and policies. At the same time, the 
benefits have been far-reaching. For example, the extraordinary 
partnership between the Corporation Counsel and CFSA has reformed legal 
support for our agency. A little less than 1 year ago, we co-located a 
dramatically expanded team of attorneys with CFSA and began reforming 
attorney support of social workers. Today, social workers have legal 
representation in 97 percent of all hearings. Our legal staff has been 
reorganized to work in teams with Superior Court judicial teams. Each 
lawyer is currently shifting to ``vertical prosecution,'' which means 
seeing a case through from initial hearing all the way to permanency, 
with the goal of more timely and better decision-making on behalf of 
children.
    A final key element of structural reform was the Family Court 
legislation passed by the Congress in 2001, with important 
contributions by members of this Subcommittee, and signed by the 
President in January 2002. We have already seen major improvements in 
the relationships among the key systems and in the processes for 
managing children's cases as a result of this legislation, and early 
indicators are promising in terms of the results for children. In the 
past, poor relationships among CFSA, Superior Court, and the 
Corporation Counsel had created problems for children and families in 
the system. But today, as the Council for Court Excellence reported 
last October, we are working together towards the same goals:

    ``The major public stakeholders in the DC child welfare system--the 
DC Superior Court, the Child and Family Services Agency (CFSA), and the 
Office of the Corporation Counsel (OCC)--are working collaboratively to 
make major structural changes that will position the city to achieve 
dramatically improved outcomes for children.''

    Our goal is to continue working closely with the Family Court to 
achieve better outcomes for children through teamwork among the legal 
and social work professionals involved with a child's case, through 
scheduling that allows social workers to be out in the field visiting 
children and families, through clear accountability and outcome 
measures, and through shared knowledge and professional development. I 
meet regularly with Presiding Judge Lee Satterfield to identify issues 
that we need to tackle jointly to benefit children. Last fall, CFSA 
participated actively in the design and implementation of the first 
cross-training, hosted by the Family Court, on systems of care. Also in 
the fall, CFSA worked closely with the Court to design the best way to 
transfer cases to the new teams of magistrate and associate judges in 
the Family Court. This activity for the last 1,200 cases, is happening 
in a phased in manner over several months to guard against the 
disruption of the casework continuity with a social worker. We provided 
automated systems support so that cases from one of CFSA's 
administrations would be assigned to just two or three teams of judges. 
This would enable judges, attorneys, and CFSA social workers to develop 
shared expectations and to work together more closely. In partnership 
with the Courts, we have successfully designed a schedule that will 
ensure social workers some time without court appearances, freeing them 
to make visits and conduct other work. Finally, we are collaborating 
closely with the Court in the area of information systems. We have just 
initiated a project to scan court orders into our automated system so 
that everyone involved at CFSA has complete and accurate information. 
Our most recent success in the field of automation is that we have 
developed the functionality in FACES that enables us to interface with 
the Court's Information System and are now able to show by social 
worker and supervisor the court hearing dates, times and locations for 
all children who are in our custody. This is an enormous achievement 
because it greatly improves our ability to manage social worker and 
attorney time more efficiently and improve the court experiences of 
children and families.
    These institutional changes were critical, because they positioned 
us to achieve dramatically improved outcomes for children and families: 
to keep children safe, ensure that children grow up in permanent 
families, and promote the well-being of the most vulnerable children 
and most fragile families.
                       the second year of reform
    Building on these institutional changes and the early results 
reflected by the probationary period standards, CFSA is moving ahead on 
a range of improvements in practice, in the systems that support our 
work, and in our partnerships with public and private agencies. The 
goal of all of these changes is to accelerate even further the 
improvements in children's lives. Yet we know that in many areas, we 
have a great deal still to do. This section offers only a sampling of 
the many major reforms now underway.
Staff Recruitment/Retention
    Recruitment and retention of a full complement of qualified social 
workers are essential to reducing individual caseloads, which, as 
suggested above, will vastly improve child protection. Currently, CFSA 
has approximately 270 licensed masters- and bachelors-level social 
workers. This represents a net increase of 30 social workers over the 
past year and falls slightly short of our goal of 300 social workers, 
total, in fiscal year 2002. (If we had counted both licensed social 
workers and social work graduates in trainee positions pending 
licensure, we would have exceeded the goal, with a total of 304 social 
workers at the end of fiscal year 2002. However, since District law 
does not allow unlicensed social workers to carry cases, we do not 
count our unlicensed trainees until they pass the licensing exam.)
    In fiscal year 2003, our goal is to end the year with a total of 
310 licensed social workers. While we have made important progress 
towards this goal and believe we can meet it, it will not be easy, nor 
will it be easy to continue progress into fiscal year 2004 and future 
years, in order to meet and maintain the MFO caseload standards. To 
achieve the goal of 310 total licensed social workers, even with a 
retention rate that is a little better than the national average, we 
anticipate having to hire more than 160 social workers and trainees 
during the course of this year to achieve our targeted increase of 40-
50 licensed social workers on board at the end of the year. We have an 
aggressive recruiting strategy--including outreach to both local and 
selected distant colleges and universities with schools of social work, 
participation in major conferences in the social work field, increased 
advertising, and targeting bi-lingual candidates--and our retention of 
social workers is consistent with the experience of other child welfare 
agencies nationwide. For all licensed social workers at CFSA, the 
turnover rate was 17 percent--or slightly below the annual average of 
20 percent for State child welfare agencies. We continue to work on 
improving retention through strategies such as reducing caseloads, 
upgrading training, and providing more support for doing a tough job. 
We are very appreciative of the Committee's interest in the broad issue 
of social worker recruitment and retention and would like to highlight 
the District's interest in participating as a pilot site in your work 
in areas such as scholarships, stipends, and loan forgiveness for 
social workers.
Training
    CFSA's major improvements in training are key to both recruitment 
and retention, as well as being an important underpinning to the 
quality of services. We are proud to report that our recruiters have 
heard from candidates that word has spread about our new training 
units, which enable new workers to learn how to handle the pace and 
intensity of CFSA's work with close guidance. These new units are a 
drawing card for CFSA compared to other organizations.
    We now coordinate our training through an in-house Training Academy 
that is set up to offer pre-service and in-service training to our 
staff. Under the requirements of the Modified Final Order, Pre-Service 
Training is a competency-based, 4-month program of classroom and on-
the-job training designed to prepare new social workers and supervisors 
for effective delivery of child welfare services. It includes 
theoretical, skill building, and practical learning experiences. In 
addition, trainees receive intensive supervision in a training unit. 
They learn about CFSA's structure, goals, and mission and about legal 
aspects of child welfare.
    During the past year, the CFSA Training Academy has offered the 
following courses for the first time: joint training of foster parents 
and social workers, orientation for non-social work staff, and training 
for the magistrate judges of the Family Court in conjunction with the 
Corporation Counsel. In the year ahead, we will continue to strengthen 
and expand the design of the training office to ensure that our efforts 
impact the quality of practice and staff development critical to 
improving outcomes for children in care.
Improved Service Quality
    Ensuring children's safety, providing opportunities for them to 
grow up in stable families, and supporting well-being of both children 
and families require quality services. We are working to raise the bar 
for services provided by our contracted and community partners through 
two different but complementary strategies:
  --implementation of the new licensing authority assigned to CFSA in 
        2001, and
  --an aggressive and proactive program of contract reform.
            Licensing and Monitoring
    Licensing of Youth Residential Facilities has been in the making 
for 15 years following passage of the Youth Residential Licensure Act 
of 1986. The group home regulations became final in September, 2001; 
the foster home regulations became final in July, 2001; and the 
Independent Living Program regulations became final in February, 2002.
    Last spring and summer, the Office of Licensing and Monitoring 
within CFSA began the process of licensing providers who operate group 
homes and independent living facilities. Throughout the process, CFSA 
provided technical assistance to help facilities get licensed and 
inspected all facilities. CFSA met the deadlines for licensing of all 
26 independent living and group home providers. The standards have 
already made a significant difference in the quality of facilities 
where our young people live, including repairs, renovations, and in 
some cases a shift to new space.
            Contract Reform
    Our contract reform is a bold initiative designed to ensure that 
CFSA's performance-based posture and best practices in modern child 
welfare are reflected in the services we buy. It is a vehicle for 
stimulating increased availability of community-based services in the 
District, reducing reliance on group homes, making providers 
accountable for delivering positive outcomes for children and families, 
offering incentives for outstanding results, and ensuring good use of 
public funds to meet community needs.
    Last August, CFSA met with providers to announce the contract 
reform initiative and involve them in the process. During the fall, we 
gathered provider input through focus groups. In January, we circulated 
draft Requests for Information. The deadline for comments just passed 
about a month ago. We appreciate the extensive, valuable feedback we 
received from providers, Superior Court, the Federal Court Monitor and 
plaintiffs, and community members, and we are now reviewing all 
comments with care. The next step will involve drafting three new 
global Requests for Proposals that will seek an expanded range of 
quality offerings in the areas of Congregate Care, Family-based Care, 
and Community-based Care and Preventive Services. We expect to put 
these RFP's out for bid this spring and to launch the new contracts in 
late summer.
Foster, Adoptive, and Kin Parent Recruitment
    Our vision is to increase our numbers of resource family homes in 
the District of Columbia of foster, adoptive, or kin homes. Currently 
we have 150 traditional foster homes, 350 kin homes and 4 proctor homes 
within the District. We are committed to placing children in the 
neighborhoods and communities from which they are removed to minimize 
the trauma and the significant losses that children experience as a 
result of placement in foster care. We are focusing therefore on 
geographically sensitive recruitment to increase numbers of resource 
parents in those wards from which more children are being removed, as 
well as child specific recruitment activities. We are also expanding 
our Proctor Parent program and building capacity for them to meet the 
needs of the behaviorally challenged children and the medically fragile 
population, and we have successfully negotiated a contractual 
arrangement with the Foster Parent Association of D.C. to offer several 
key services to our resource families, including identifying members to 
co-facilitate training and facilitate support groups. We anticipate 
that foster parents themselves are an excellent resource for 
recruitment as we can move towards ensuring that the needs of current 
parents are met.
Information Systems and Data Collection and Tracking
    Our substantial progress in building a reliable and timely 
automated data system has been key to our accomplishments for children. 
In the last year and a half, we have built a collaboration between 
staff from FACES (our automated information system), top management 
from all parts of the agency, and our line social work and supervisory 
staff that has dramatically improved the quality and timeliness of data 
entry and the user-friendliness and relevance of the automated FACES 
reports and screens. As a result, staff at all levels from social 
workers to supervisors and top managers are now able to count on FACES 
as a tool for their work, to rely on FACES reports as a means of 
tracking performance and results for children, and to use FACES 
information for planning--whether planning for one child or for the 
agency as a whole. In the key area of safety, a close collaboration 
between FACES and our intake and investigations staff has yielded not 
only full and timely data but reporting screens that enable supervisors 
to manage investigations better. For ongoing supervisors, a key piece 
of information for ensuring safety is social worker visitation, which 
supervisors can now track through CFSA's automated system. For example, 
each supervisor can access reports that track social worker visits to 
children in the last month. These management reports are updated daily 
and available to supervisors through a few clicks of the mouse.
    Similarly, there have been major improvements in the key data 
needed to achieve permanence:
  --Case plan information is now much more complete on the automated 
        system, in part because of major improvements in the case plan 
        automated format implemented as a result of social worker 
        feedback.
  --Court reports can now be completed and reviewed by supervisors and 
        program managers as part of FACES.
  --Information from the Court regarding permanency hearings, while 
        still incomplete, is just at the point of major improvement as 
        a result of the new automated feed to our system from the 
        Court's data.
  --Automated linkages to other agencies are supporting our work in 
        both safety and permanence. For example, access to the 
        District's criminal justice information system helps our 
        investigators locate missing parents quickly--a critical step 
        in the adoption process.
    We are proud that the improvements in our FACES system have begun 
to receive national recognition. Last fall, the Court Monitor noted 
improvements in the quality of FACES in her report. This month, FACES 
will receive an award from Computerworld magazine for being a leader in 
automating child welfare case management. Our Chief Information 
Officer, Harold Beebout, was one of the first five CIO's in the 
District to receive certification from the District's Office of the 
Chief Technology Officer through a rigorous process where senior 
information technology officials from several jurisdictions probed the 
technical and strategic preparedness of the District's top information 
managers.
Partnerships
    Almost all the performance achievements I've been describing are 
the result of partnerships: with foster and adoptive parents, 
providers, Family Court, other agencies, and many others. The strong 
local safety net children and families deserve will ultimately be woven 
through partnerships. The child welfare function is essential, but it 
is only one component among a vast array of services that abused and 
neglected children need to overcome their difficulties and thrive. 
Other public and private agencies and community members have important 
roles to play. CFSA's status as a cabinet-level agency has opened the 
door to improved working relationships with other District agencies. On 
behalf of those we serve, we are working to exploit this wonderful 
opportunity.
    A prime example is CFSA's developing links with the Department of 
Mental Health. As we conduct clinical staffings and review cases at 
CFSA, over and over we see mental health needs that must be met if 
children are to be safe, grow up in stable families, and thrive. 
Children need counseling to rise above abuse and neglect. Parents need 
mental health services to overcome their own crises and keep their 
children safe. Foster parents need access to emergency help when a 
foster child has a crisis in the middle of the night. Social workers 
need expert mental health consultation to assess the risks of a child's 
return home.
    To access more and better mental health services for those we 
serve, CFSA is developing a strong collaboration with the District's 
Department of Mental Health. The timing is perfect because DMH is under 
its own court deadlines and is just as intent as CFSA on strengthening 
the local safety net for children and families. Senior members of our 
two agencies met for a day-long retreat a few weeks ago and developed a 
detailed work plan that focuses on access to services, development of 
provider capacity, service definition, Medicaid reimbursement, and 
other issues.
    CFSA's partnership with the Healthy Families/Thriving Communities 
Collaboratives continues to provide services that strengthen, provide 
support to children in foster care in the communities where they live 
and support efforts to reunite children in foster care with their 
families. During the past year, CFSA and the Collaboratives built upon 
its partnership by taking a more targeted approach in examining ways to 
strengthen service delivery for children and families in the District. 
As a result of this concentrated effort, in 2002 two Collaboratives 
have instituted Emergency Assessment programs, providing intensive 
preventive services to families in their own communities and diverting 
families from ongoing involvement with the child welfare system. In 
addition, we have entered into new partnership agreements with the 
Collaboratives in three distinct areas--preventative, supportive and 
aftercare. Services offered within these targeted areas include case 
management; visitation; housing assistance; parent, caregiver, and 
foster parent support; support for family visitation; and information 
and referral. Our partnership throughout the years with the 
Collaboratives has shown that family-centered, culturally competent 
practice that provides integrated community based services truly makes 
a difference in the lives of children and families entering and exiting 
the child welfare system.
                               next steps
    While we have made an important and vigorous beginning on the 
agenda of safety, permanence, and well-being for the District's 
children, we have ahead of us an ambitious multi-year program to build 
in quality and transform results. We expect that the road map to this 
ambitious reform will be the Implementation Plan currently being 
completed by the Federal Court Monitor after intensive discussions with 
the District and the LaShawn plaintiffs. In order to accomplish the 
goals of the plan, we know that we will be continuing the intense pace 
of change. And because of the District's unique role as both a local 
and a State child welfare agency, we will be continuing this intense 
pace of change both in our daily services to the children who come 
through our doors and in our reforms of policy, institutions, and 
infrastructure. That is, at one and the same time, we will be:
  --improving our services to the hundreds of children who come to our 
        attention each month through new investigations;
  --providing strong clinical support and staffing to ensure that the 
        thousands of children now on our caseload achieve the permanent 
        families they deserve, either through reunification, 
        guardianship, or adoption;
  --building new services and resources for children and new supports 
        for foster, kin, and adoptive families, both through our own 
        contract reforms and through new and strengthened partnerships 
        with agencies across District government;
  --strengthening prevention and neighborhood-based services for 
        families;
  --under-girding the services we provide both internally and through 
        our partners with the critical infrastructure to support 
        quality, such as training, quality assurance, policy 
        development, licensing and monitoring;
  --recruiting and retaining high quality, well-trained social workers;
  --recruiting and retaining foster, kin, and adoptive parents who can 
        meet the needs of the District's children and providing those 
        resource parents with the training and supports they need; and
  --continuing our efforts to build in stronger partnerships with the 
        metropolitan jurisdictions and with the Superior Court, in 
        order to promote children's safety, permanence, and well-being.
    Achieving these goals will require continued commitment from the 
whole community. The District's financial investments in CFSA, even 
through difficult financial times, have been critical to achieving the 
progress so far, and stabilizing this commitment into the future will 
be essential to continuing progress from here. We very much appreciate 
the support of the Subcommittee, for a key next step in maintaining 
this momentum: the District's proposal to correct an inequity in the 
current statutory framework for Federal reimbursement for Title IVE, by 
raising the Title IVE Federal reimbursement rate to 70 percent, which 
would make it the same as Medicaid, as it is in all other 
jurisdictions. We also very much appreciate the leadership of the 
Subcommittee in ensuring that the District, Maryland, and Virginia 
continue collaborating to develop metropolitan agreements that will 
benefit children, and in promoting the continued close collaboration of 
CFSA and the Superior Court, and we urge a continued focus in both of 
these very promising areas.
    Beyond these critical areas for the Subcommittee's continued 
leadership, we appreciate the invitation to identify additional areas 
for potential investment. We offer the following ideas for further 
discussion, because they link closely to the next steps in the Federal 
Court's Implementation Plan and the needs of the District's children. 
We are eager to provide additional information in any of these areas 
that interest the Committee:
  --Prevention and Integrated Services for Families.--A major issue for 
        the District's children and families is the availability of 
        early and integrated services that could prevent placement or 
        make reunification possible. We are working closely with our 
        community-based collaborative partners in this area, as well as 
        developing expanded partnerships with other District agencies 
        such as the Department of Mental Health, Addiction Prevention 
        and Recovery Administration, and the Department of Housing and 
        Community Development. These are issues across the country yet 
        they are particularly difficult to address in the District, 
        with the intensive needs that children and families may have 
        and the gaps in resources. We believe that there are 
        opportunities here for the Federal Government to pilot ideas of 
        great interest nationally as well as to make a major difference 
        for the District's children.
  --Adoption.--Because of the intensive work that we are currently 
        doing to identify the specific needs of children who are 
        awaiting placement, we would be very interested in 
        collaborating with the Subcommittee on a project that focuses 
        on recruitment for these children. In general, our children who 
        are awaiting adoption are ages 7-13 and part of sibling groups; 
        in addition, we would like to focus on a number of children who 
        are medically fragile and will need adoptive homes prepared to 
        meet those needs.
  --Piloting of National Initiatives Regarding Social Worker 
        Recruitment, Retention, and Training.--We are interested in 
        working closely with the Subcommittee on piloting in the 
        District key initiatives to recruit and retain social workers 
        to do public child welfare work that could be valuable for 
        national policy. We are interested in discussing strategies 
        such as loan forgiveness, stipends and scholarships for 
        bachelors-level social workers interested in continuing their 
        education, and scholarships for paraprofessionals interested in 
        becoming social workers.
  --Joint Initiatives with the Court, such as Training and Information 
        Systems.--We are currently engaged in a range of activities 
        with the Superior Court and see ambitious next steps ahead, 
        particularly as the Court's new information system is 
        implemented. The District's side of these joint activities 
        could be enhanced through further support.
                               conclusion
    We are at an extraordinary moment in the District's child welfare 
system: a moment of early accomplishment, of great hope, and yet of 
fragility. If we maintain our commitment and our investment for several 
more years, building on the major institutional reforms, promising 
partnerships, and early results for children that we have already seen, 
we will achieve the vision of safety, permanence, and well-being that 
our children deserve. On the other hand, if we are unable to maintain 
this level of continued commitment to change, we risk failing our 
community and our children. I am deeply grateful for the Subcommittee's 
past support and leadership on behalf of the District and our most 
vulnerable children, and I know the District can count on your 
continued support and leadership in the future. Thank you, and I look 
forward to any questions.

    Senator DeWine. Ms. Ashby.
STATEMENT OF CORNELIA M. ASHBY, DIRECTOR OF EDUCATION, 
            WORKFORCE, AND INCOME SECURITY ISSUES, 
            GENERAL ACCOUNTING OFFICE
    Ms. Ashby. Mr. Chairman and Senator Landrieu, I am pleased 
to be here today to discuss the preliminary findings from our 
study of the D.C. Child and Family Services Agency, done at the 
request of Representative Tom Davis, Chairman of the House 
Committee on Government Reform. We will issue our final report 
next month.
    My comments are based primarily on our analysis of data in 
the District's automated child welfare information system, 
known as FACES. We verified the accuracy of the data. But for 
some of the data elements we needed, CFSA had not entered into 
FACES information for about two-thirds of its active cases. 
Consequently, we obtained and analyzed information from paper 
case files to supplement FACES information for some cases. 
Most, but not all, of the cases with incomplete data originated 
prior to FACES going online in October 1999. Top CFSA managers 
told us that including data in FACES for active cases that 
originated prior to FACES is not an agency priority. In my full 
statement, we discuss the importance of having accurate, 
timely, and complete automated case management data for all 
cases.
    In summary, CFSA has addressed various AFSA requirements 
and met several of the selected performance criteria, adopted 
child protection and foster care policies, and enhanced its 
working relationship with the D.C. Family Court. However, much 
remains to be done.
    CFSA addressed six of the nine AFSA requirements and met or 
exceeded four of the eight performance criteria. For example, 
CFSA signed a border agreement to achieve timelier placement of 
District children in Maryland, which addresses the AFSA 
requirement to use cross-jurisdictional resources to facilitate 
timely permanent placements of children. However, CFSA did not 
meet AFSA requirements involving proceedings to terminate the 
rights of parents in certain situations, annual permanency 
review hearings or notice of reviews and hearings. One of the 
selected performance criteria requires 60 percent of children 
in foster care to be placed with one or more of their siblings. 
As of November 2002, 63 percent of children had such 
placements.
    The criteria for which CFSA's performance fell short 
included social worker visitation with children in foster care, 
placement of children in foster homes with valid licenses, 
progress toward permanency, and parental visits with children 
in foster care who have a goal of returning home. For example, 
none of the 144 children placed in foster care during the 2-
month period prior to November 30, 2002, received required 
weekly visits by a CFSA caseworker. CFSA has written plans to 
address 2 of the 3 unmet AFSA requirements and 3 of the 4 unmet 
performance criteria.
    CFSA has adopted child protection and foster care placement 
policies that are comparable to most, but not all of those 
recommended by organizations that develop standards for child 
welfare programs. However, caseworkers did not consistently 
implement the six policies we examined.
    CFSA has policies for investigating allegations of child 
abuse, developing plans, and estimating permanency goals for 
foster children. In addition, it has policies for managing 
cases. CFSA has, in addition to its policies for managing 
cases, policies for licensing and monitoring group homes, plans 
for training staff in group homes, and a goal to reduce the 
number of young children in group homes. However, CFSA lacks 
some recommended policies, namely written time frames for 
arranging needed services for children and families, limits on 
the number of cases assigned to a caseworker, and procedures 
for providing information about planned services for children.
    For three of the six policies we examined, FACES data 
indicated that the percentage of foster care cases for which a 
policy was implemented ranged from 13 to 73. This variation is 
due in part to the incomplete data in FACES. In addition, 
information related to the other three policies was not 
routinely recorded in FACES, and we had to review case files to 
assess their implementation.
    One policy requires caseworkers to complete a case plan 
within 30 days of a child's entry into foster care. However, 
case plans were not routinely completed within 30 days. Another 
policy requires administrative review hearings every 6 months. 
But such hearings were rescheduled often. The third policy 
requires caseworkers to arrange for services. It was difficult 
to determine whether services were actually provided. CFSA 
officials told us that they recently made changes to help 
improve the implementation of some of these policies.

                           PREPARED STATEMENT

    CFSA has improved its working relationship with the Family 
Court with its commitment to promoting improved communication 
and by expanding the support services it provides for court 
activities. However, CFSA officials and Family Court judges 
noted several hindrances that constrained their working 
relationships. The hindrances they noted included scheduling 
conflicts between court and CFSA, the insufficient number of 
caseworkers, caseworkers who were unfamiliar with cases that 
had been transferred to them, and the unclear roles and 
responsibilities of attorneys, judges, and CFSA caseworkers.
    This concludes my statement. I would be glad to answer any 
questions.
    [The statement follows:]
                Prepared Statement of Cornelia M. Ashby
     issues associated with the child and family services agency's 
                        performance and policies
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to discuss preliminary findings from our study of the 
District of Columbia's Child and Family Services Agency (CFSA), done at 
the request of Representative Tom Davis, Chairman of the House 
Committee on Government Reform. My testimony will focus on the extent 
to which CFSA has (1) taken actions to address the requirements of the 
Adoption and Safe Families Act of 1997 (ASFA) and met selected 
performance criteria, (2) adopted and implemented child protection and 
foster care placement policies that are comparable to those generally 
accepted in the child welfare community, and (3) enhanced its working 
relationship with the D.C. Family Court.
    My comments today are based primarily on our analysis of the 
information in the District's automated child welfare information 
system, known as FACES, which CFSA is to use to manage child welfare 
cases and report child abuse and neglect, foster care, and adoption 
information to the Department of Health and Human Services (HHS). We 
analyzed cases in FACES that were at least 6 months old as of November 
2002 and verified the accuracy of its data. However, CFSA had not 
entered into FACES detailed information on the data elements we needed 
for our analysis with respect to about two-thirds of the District's 
active foster care cases--mostly cases that originated prior to FACES 
going on-line in October 1999. Consequently, we also obtained and 
analyzed information from paper case files to supplement FACES 
information for some cases. We also interviewed District officials, 
CFSA managers, judges, and child welfare experts, and we analyzed 
Federal and District laws and regulations, related court documents, and 
child welfare policies. Our final report will be issued in May 2003. We 
conducted our work between September 2002 and March 2003 in accordance 
with generally accepted government auditing standards.
    In summary, CFSA has taken actions to address various ASFA 
requirements and met several selected performance criteria,\1\ enacted 
child protection and foster care placement policies and procedures, and 
enhanced its working relationship with the D.C. Family Court; however, 
much remains to be done. CFSA met two-thirds of the ASFA requirements 
and half of the selected foster care performance criteria we used, and 
developed written plans to address two of the three unmet ASFA 
requirements and three of the four unmet performance criteria. In 
addition, CFSA has adopted child protection and foster care placement 
policies and procedures that are comparable to most, but not all, of 
those recommended by organizations that develop standards applicable to 
child welfare programs. However, CFSA has not adopted some key policies 
and procedures for ensuring the safety and permanent placement of 
children, and caseworkers have not consistently implemented or 
documented some of the policies and procedures that have been adopted. 
For example, CFSA has developed an automated child welfare data system 
to help manage its caseload, but detailed information for the data 
elements related to the policies reviewed had not been entered into the 
system for about 70 percent of its foster care cases. Further, CFSA has 
improved its working relationship with the Family Court through 
improved communication and top management support; however, both CFSA 
and the Family Court still need to overcome barriers that continue to 
constrain this relationship.
---------------------------------------------------------------------------
    \1\ These performance criteria were among those included in the 
performance standards that CFSA had to meet in order to end the 
probationary period following the general receivership. We selected 
those performance criteria that in our judgment most directly relate to 
the safety and permanent placement of children.
---------------------------------------------------------------------------
                               background
    CFSA is responsible for protecting thousands of foster care 
children who have been at risk of abuse and neglect and ensuring that 
critical services are provided for them and their families. However, 
many children in CFSA's care languished for extended periods of time 
due to managerial shortcomings and long-standing organizational 
divisiveness. As a result of these deficiencies, the U.S. District 
Court for the District of Columbia issued a remedial order in 1991 to 
improve the performance of the agency. In 1995, lacking sufficient 
evidence of program improvement, the agency was removed from the 
District's Department of Human Services and placed in general 
receivership. Under a modified final order (MFO) established by the 
court, CFSA was directed to comply with more than 100 policy and 
procedural requirements. The efforts CFSA made during the receivership 
to improve its performance included establishing an automated system, 
FACES, to manage its caseload. The U.S. District Court ended the 
receivership in 2000, established a probationary period, and identified 
performance standards CFSA had to meet in order to end the probationary 
period. The court appointed the Center for the Study of Social Policy 
as an independent monitor to assess CFSA's performance and gave them 
the discretion to modify the performance standards. However, in the 
summer of 2002, abuses of two children placed in group homes were 
reported, indicating that CFSA's operations and policies, especially 
those regarding foster care cases, may still need improvement.
    Additionally, several Federal laws, local laws, and regulations 
established goals and processes under which CFSA must operate. ASFA, 
with its goal to place children in permanent homes in a timelier 
manner, placed new responsibilities on all child welfare agencies 
nationwide. AFSA introduced new time periods for moving children toward 
permanent, stable care arrangements and established penalties for 
noncompliance. For example, it requires States to hold a permanency 
planning hearing--during which the court determines the future plans 
for a child, such as whether the State should continue to pursue 
reunification with the child's family or some other permanency goal--
not later than 12 months after the child enters foster care. The D.C. 
Family Court Act of 2001, established the District's Family Court and 
placed several requirements on the District's Mayor and various 
District agencies, including CFSA and the Office of Corporation Counsel 
(OCC).\2\ The Family Court Act requires the Mayor, in consultation with 
the Chief Judge of the Superior Court, to ensure that D.C. government 
offices that provide social services and other related services to 
individuals served by the Family Court, including CFSA, provide 
referrals to such services on site at the Family Court.
---------------------------------------------------------------------------
    \2\ The D.C. Family Court Act of 2001, established the Family Court 
as part of the D.C. Superior Court. The Family Court replaced the D.C. 
Superior Court's former Family Division. Among other responsibilities, 
the Family Court handles child abuse and neglect cases and court 
hearings and other proceedings for the District's foster children and 
their families. OCC provides legal support for CFSA caseworkers during 
their appearances before the Family Court.
---------------------------------------------------------------------------
    CFSA operates in a complex child welfare system.\3\ The agency 
relies on services provided by other District government agencies. For 
example, both the Fire Department and the Health Department inspect 
facilities where children are placed, and D.C. Public Schools prepare 
individual education plans for children in care. In addition, CFSA 
works with agencies in Maryland, Virginia, and other States to arrange 
the placement of District children in those States and also works with 
private agencies to place children in foster and adoptive homes.
---------------------------------------------------------------------------
    \3\ We issued several GAO reports that addressed CFSA operations 
and program plans. For more information see related GAO products.
---------------------------------------------------------------------------
    The management of foster care cases involves several critical 
steps. Typically, these cases begin with an allegation of abuse or 
neglect reported to the CFSA child abuse hot line. CFSA staff are 
required to investigate the allegation through direct contact with the 
reported victim. If required, the child may be removed from his or her 
home, necessitating various court proceedings handled by the District's 
Family Court. CFSA case workers are responsible for managing foster 
care cases by developing case plans, visiting the children, 
participating in administrative hearings, attending court hearings, and 
working with other District government agencies. CFSA case workers are 
also responsible for documenting the steps taken and decisions made 
related to a child's safety, well-being, and proper placement. In 
addition, CFSA is responsible for licensing and monitoring 
organizations with which it contracts, including group homes that house 
foster care children.
    HHS is responsible for setting standards and monitoring the 
Nation's child welfare programs. The monitoring efforts include 
periodic reviews of the operations, known as Child and Family Services 
Reviews,\4\ and of the automated systems, known as Statewide Automated 
Child Welfare Information System (SACWIS) Reviews, in the States and 
the District of Columbia. HHS last reviewed CFSA's child welfare 
information system in 2000 and its overall program in 2001.
---------------------------------------------------------------------------
    \4\ Child and Family Services Reviews, conducted by HHS, cover a 
range of child and family service programs funded by the Federal 
Government, including child protective services, foster care, adoption, 
independent living, and family support and preservation services. The 
2001 review evaluated seven specific safety, permanency, and well-being 
outcomes for services delivered to children and families served by 
CFSA.
---------------------------------------------------------------------------
 cfsa undertook actions to address most asfa requirements reviewed and 
             met half of the selected performance criteria
    CFSA took actions to address six of the nine ASFA requirements and 
met or exceeded four of the eight performance criteria we included in 
our study. Although ASFA includes other requirements, we only included 
those directly related to the safety and well-being of children. The 
performance criteria were among those performance standards that CFSA 
had to meet in order to end the probationary period following the 
general receivership. We selected those that, in our judgment, most 
directly relate to the safety and permanent placement of children in 
foster care. For example, CFSA signed a border agreement to achieve 
timelier placement of District children in Maryland, which addresses 
the ASFA requirement to use cross-jurisdictional resources to 
facilitate timely adoptive or permanent placements for waiting 
children. However, CFSA did not meet three requirements involving (1) 
proceedings to terminate the rights of parents whose children are in 
foster care, (2) annual hearings to review permanency goals for 
children and (3) notice of reviews and hearings. Table 1 summarizes the 
ASFA requirements directly related to the safety and well-being of 
children and identifies whether CFSA met them.

 TABLE 1.--SUMMARY OF ASFA REQUIREMENTS RELATING DIRECTLY TO THE SAFETY
                       AND WELL-BEING OF CHILDREN
------------------------------------------------------------------------
           ASFA Requirements Met              ASFA Requirements Not Met
------------------------------------------------------------------------
1. Include the safety of the child in        1. Initiate or join
 State case planning and in a case review    proceedings to terminate
 system.                                     parental rights for certain
                                             children in foster care--
                                             such as those who have been
                                             in foster care for 15 of
                                             the most recent 22 months
                                             of care.
2. Comply with requirements for criminal    2. Provide family members a
 background clearances and have procedures   notice of reviews and
 for criminal record checks.                 hearings and an opportunity
                                             to be heard.
3. Develop a case plan for a child for      3. Conduct mandatory annual
 whom the State's goal is adoption or        permanency hearings every
 other permanent living arrangement.         12 months for a child in
                                             foster care.
4. Develop plans for the effective use of   ............................
 cross-jurisdictional resources to
 facilitate timely adoptive or permanent
 placements for waiting children.
5. Provide for health insurance coverage    ............................
 for children with special needs in State
 plans for foster care and adoption
 assistance.
6. Incorporate standards to ensure quality  ............................
 services for children in foster care in
 State plans.
------------------------------------------------------------------------
Source: ASFA and HHS' CSFR and GAO analysis.

    We analyzed automated data related to eight selected performance 
criteria and found that CFSA met or exceeded four of them. For example, 
one of the criteria requires 60 percent of children in foster care to 
be placed with one or more of their siblings; we found that as of 
November 30, 2002, 63 percent of children were placed with one or more 
siblings. The areas in which CFSA's performance fell short included 
criteria related to (1) social worker visitation with children in 
foster care, (2) placement of children in foster homes with valid 
licenses, and (3) progress toward permanency for children in foster 
care and (4) parental visits with children in foster care who had a 
goal of returning home. For example, none of the 144 children placed in 
foster care during the 2-month period prior to November 30, 2002, 
received required weekly visits by a CFSA caseworker. In addition, 52 
of 183 foster care children (32 percent), for whom CFSA had not met the 
progress towards permanency goal, had been in foster care without 
returning home for 36 months or more. Twenty-two of these children had 
been in foster care 5 or more years without returning home. A complete 
list of the performance criteria and our analysis is shown in appendix 
I.
    CFSA has written plans to address two of the three unmet ASFA 
requirements and three of the four unmet performance criteria we 
selected for our study. One of CFSA's plans includes actions to address 
one criterion for which the agency fell short--parental visits. This 
plan, the Interim Implementation Plan, includes measures that were 
developed to show the agency's plans for meeting the requirements of 
the MFO issued by the court. The plan states that, for new contracts, 
CFSA will require its contactors to identify sites in the community for 
parental visits to help facilitate visits between parents and their 
children. However, CFSA does not have written plans that address other 
unmet criteria, such as reducing the number of children in foster care 
who, for 18 months or more, have had a permanency goal to return home. 
CFSA has also not implemented the ASFA requirement to provide foster 
parents, relative caregivers, and pre-adoptive parents the opportunity 
to be heard in any review or hearing held with respect to the child. 
Without complete plans for improving on all measures, CFSA's ability to 
comply with the ASFA requirements and meet the selected performance 
criteria may be difficult. Furthermore, unless these requirements and 
criteria are met the child's safety may be jeopardized, the time a 
child spends in foster care may be prolonged, or the best decisions 
regarding a child's future well-being may not be reached.
    Agency officials cited external demands, including court-imposed 
requirements, staffing shortages, and high caseloads, as factors that 
hindered CFSA's ability to fully meet the ASFA requirements and the 
selected performance criteria. For example, program managers and 
supervisors said that the new court-imposed mediation process intended 
to address family issues without formal court hearings places 
considerable demands on caseworkers' time. The time spent in court for 
mediation proceedings, which can be as much as 1 day, reduces the time 
available for caseworkers to respond to other case management duties, 
such as visiting with children in foster care. Furthermore, managers 
and supervisors reported that staffing shortages have contributed to 
delays in performing critical case management activities, such as 
filing for the termination of parental rights. Staffing shortages are 
not a unique problem to CFSA. We recently reported that caseworkers in 
other States said that staffing shortages and high caseloads had 
detrimental effects on their abilities to make well-supported and 
timely decisions regarding children's safety. We also reported that as 
a result of these shortages, caseworkers have less time to establish 
relationships with children and their families, conduct frequent and 
meaningful home visits, and make thoughtful and well-supported 
decisions regarding safe and stable permanent placements.\5\
---------------------------------------------------------------------------
    \5\ U.S. General Accounting Office, Child Welfare: HHS Could Play a 
Greater Role in Helping Child Welfare Agencies Recruit and Retain 
Staff, GAO-03-357 (Washington, DC: Mar. 31, 2003).
---------------------------------------------------------------------------
 cfsa has established many foster care policies but lacks others, and 
         the extent of implementation and documentation varies
    CSFA has established many foster care policies but, caseworkers did 
not consistently implement the six we examined. In addition, CFSA's 
automated system lacked data on policy implementation for 70 percent of 
its foster care cases. When CFSA's caseworkers are not consistently 
implementing the policies essential steps are not always being taken 
for all children in a timely manner. As a result, children may be 
subject to continued abuse and neglect or efforts to achieve permanent 
and safe placements may be delayed. Furthermore, without information on 
all cases, caseworkers do not have a readily available summary of the 
child's history needed to make future decisions and managers do not 
have information needed to assess and improve program operations.
csfa has established many foster care policies but caseworkers did not 
                      consistently implement them
    While we previously reported in 2000 \6\ that CFSA lacked some 
important child protection and foster care placement policies, CFSA has 
now established many such policies and most are comparable to those 
recommended by organizations that develop standards applicable to child 
welfare programs. For example, CFSA has policies for investigating 
allegations of child abuse, developing case plans, and establishing 
permanency goals for foster children. In addition, one policy is more 
rigorous than suggested standards. Specifically, CFSA's policy requires 
an initial face-to-face meeting with children within 24 hours of 
reported abuse or neglect, while the suggested standard is 48 hours or 
longer in cases that are not high risk. However, CFSA still lacks some 
that are recommended, namely (1) written time frames for arranging 
needed services for children and families (e.g., tutoring and drug 
treatment for family members); (2) limits on the number of cases 
assigned to a caseworker, based on case complexity and worker 
experience; and (3) procedures for providing advance notice to each 
person involved in a case about the benefits and risks of services 
planned for a child and alternatives to those services.
---------------------------------------------------------------------------
    \6\ U.S. General Accounting Office, District of Columbia Child 
Welfare: Long-Term Challenges in Ensuring Children's Well-Being, GAO-
01-191 (Washington, DC: Dec. 29, 2000), and U.S. General Accounting 
Office, Foster Care: Status of the District of Columbia's Child Welfare 
System Reform Efforts, GAO/HEHS-00-109 (Washington, DC: May 5, 2000).
---------------------------------------------------------------------------
    CFSA did not consistently implement the six policies we examined. 
We selected policies that covered the range of activities involved in a 
foster care case, but did not duplicate those examined in our review of 
the AFSA requirements or the selected performance criteria. For three 
of the six policies, data in FACES on all foster care cases indicate 
that the extent to which caseworkers implemented them varied 
considerably. Table 2 summarizes these three policies and the 
percentage of cases for which the data indicated the policy was 
implemented.

 TABLE 2.--THE EXTENT OF IMPLEMENTATION OF SELECTED FOSTER CARE POLICIES
------------------------------------------------------------------------
                                                            Percent of
                                                            Foster Care
                                                             Cases for
                         Policy                              Which the
                                                            Policy Was
                                                            Implemented
                                                              (N=943)
------------------------------------------------------------------------
Initiate face-to-face investigation of alleged child                  26
 abuse or neglect within 24 hours of receiving an
 allegation on CFSA's child abuse hotline...............
Complete a safety assessment within 24 hours of face-to-              13
 face contact with the child............................
Complete a risk assessment within 30 days of receiving                73
 an allegation on the hotline...........................
------------------------------------------------------------------------
Source: FACES data and GAO analysis.

    In some cases, it took CFSA caseworkers considerably longer than 
the required time to initiate an investigation or complete safety and 
risk assessments. In 93 cases, CFSA caseworkers took more than 10 days 
to initiate the investigation and in 78 cases, it took caseworkers 
longer than 100 days to complete a risk assessment, more than three 
times longer than the 30-day requirement.
    For the other three policies, we reviewed case files and examined 
related data from FACES for 30 cases, because officials told us that 
the information related to these policies was not routinely recorded in 
FACES. One policy requires caseworkers to complete a case plan within 
30 days of a child's entry into foster care. Our analysis and file 
review found that case plans were not routinely completed within 30 
days. Another policy requires conducting administrative review hearings 
every 6 months. These reviews ensure that key stakeholders are involved 
in permanency planning for the child. We found that administrative 
review hearings were rescheduled for a variety of reasons, such as the 
caseworker had to appear at a hearing for another case or the attorney 
was not available. The third policy requires caseworkers to identify 
and arrange for services for children and their families. It was 
difficult to determine whether services recommended by caseworkers were 
approved by supervisors or if needed services were provided. Managers 
said that sometimes services are arranged by telephone and the results 
not entered into FACES.
    Officials said that several factors affected the implementation of 
some of the policies we reviewed. Agency officials explained that, in 
part, the data on implementation of the initial investigations and 
safety assessment reflected that the District's Metropolitan Police 
Department was responsible for the initial investigation of child abuse 
cases until October 2001 and that data was not entered into FACES. CFSA 
now has responsibility for both child abuse and neglect investigations. 
Further, program managers and supervisors said that several factors 
contribute to the time frames required to initiate face-to-face 
investigations, including difficulty in finding the child's correct 
home address, contacting the child if the family tries to hide the 
child from investigators, and even obtaining vehicles to get to the 
location. Caseworkers' supervisors and managers explained that 
generally, the policies were not always implemented because of limited 
staff and competing demands and the policies were not documented 
because some caseworkers did not find FACES to be user friendly.
    CFSA officials said they recently made changes to help improve the 
implementation of some of the policies we reviewed. CFSA has focused on 
reducing its backlog of investigations and reduced the number of 
investigations open more than 30 days from 807 in May 2001 to 263 in 
May 2002. CFSA officials said that they anticipate a reduction in the 
number of administrative review hearings that are rescheduled. The 
responsibility for notifying administrative review hearing participants 
when a hearing is scheduled was transferred from caseworkers to the 
staff in the administrative review unit, and notification will be 
automatically generated well in advance of the hearings. Additionally, 
another official said that CFSA has begun testing a process to ensure 
that all needed services are in place within 45 days.
    However, without consistently implementing policies for timely 
investigations and safety and risk assessments, a child may be subject 
to continued abuse and neglect. Delaying case plans and rescheduling 
administrative review hearings delay efforts to place children in 
permanent homes or reunite them with their families. Further, without 
knowing whether children or families received needed services, CFSA 
cannot determine whether steps have been taken to resolve problems or 
improve conditions, which also delays moving children toward their 
permanency goals.
    In addition to its policies for managing cases, CFSA has policies 
for licensing and monitoring group homes, plans for training staff in 
group homes, and a goal to reduce the number of young children in group 
homes. CFSA's policies for group homes are based primarily on District 
regulations that went into effect July 1, 2002. According to a CFSA 
official, the agency was precluded from placing children in an 
unlicensed group home as of January 1, 2003. As of March 2003, all CFSA 
group homes were licensed, except one, and CFSA was in the process of 
removing children from that home. In the future, CFSA plans to use 
requirements for licensing group homes as well as contractual 
provisions as criteria for monitoring them. CFSA also plans to provide 
training to group home staff to make it clear that, as District 
regulations require, any staff member who observes or receives 
information indicating that a child in the group home has been abused 
must report it. Further, CFSA has a goal to reduce the number of 
children under 13 who are placed in group homes. CFSA has reduced the 
number of children under 13 in group homes from 128 in August 2002, to 
70 as of February 2003; and, has plans to reduce that number even 
further by requiring providers of group home care to link with agencies 
that seek foster care and adoptive families.
     cfsa's automated system lacked data on many foster care cases
    While CFSA's policies with regard to is automated child welfare 
information system--FACES--were not among the six policies we initially 
selected for examination, in our efforts to assess CFSA's 
implementation of the selected foster care policies, we determined that 
FACES lacked such data for about 70 percent of its active foster care 
cases. Of the population of foster care cases at least 6 months old as 
of November 30, 2002--2,510 cases--data on the initial investigation 
and safety and risk assessment policies were not available for 1,763 of 
them. CFSA officials explained that all of these cases predated FACES 
and the previous system was used primarily to capture information for 
accounting and payroll purposes, not for case management. Top agency 
managers said that CFSA does not currently plan to make it an agency 
priority to include data in FACES for these pre-FACES cases. 
Additionally, FACES reports showed that data was not available on many 
of the more recent foster care cases. For example, complete data on the 
initiation of investigations and safety assessments were not available 
for about half of the 943 cases that entered the foster care system 
after FACES came on line. Officials explained that their plans are to 
focus on improving a few data elements at a time for current and future 
actions.
    Complete and accurate data is an important aspect of effective 
child welfare systems. HHS requires all States and the District of 
Columbia to have an automated child welfare information system. These 
systems, known as Statewide Automated Child Welfare Information Systems 
(SACWIS), must be able to record key child welfare functions, such as 
intake management, case management, and resource management. However, 
it its review of FACES, HHS found the system to be in noncompliance 
with several requirements, including the requirements to prepare and 
document service/case plans and to conduct and record the results of 
case reviews.\7\ In addition to the standards and requirements 
established by HHS for all child welfare systems, the MFO requirements 
stress the importance of an automated system for CFSA. Many of the 
requirements the MFO imposed on CFSA direct CFSA to produce management 
data. For example, the MFO requires that CFSA be able to produce 
management data showing (1) how many children who need medical reports 
received them within 48 hours after the report of neglect or abuse was 
supported, (2) the caseload figures by worker for all workers 
conducting investigations of reports of abuse or neglect, and (3) the 
number of supervisors with at least 3 years of social work experience 
in child welfare.
---------------------------------------------------------------------------
    \7\ HHS completed its SACWIS assessment review of FACES in June 
2000. The purpose of this review is to assess whether the child welfare 
information system performs functions that are important to meeting the 
minimal requirements.
---------------------------------------------------------------------------
    It is very important to have accurate and timely automated case 
management data for all cases. An expert from a child welfare 
organization stated that there is a great need to transfer information 
from old case records to new automated systems in a systematic way. 
Without such a transfer, paper records with important information may 
be lost. She said that records of older teens have been lost, and, with 
them, valuable information such as the identity of the child's father, 
has also been lost. Without data in FACES, if caseworkers need missing 
data they will have to look for paper records in the case files, some 
of which are voluminous. This file review effort is much more time 
consuming than reviewing an automated report and requires more time for 
caseworkers to become familiar with cases when cases are transferred to 
new caseworkers. Complete, accurate, and timely case management data 
enables caseworkers to quickly learn about new cases, supervisors to 
know the extent that caseworkers are completing their tasks, and 
managers to know whether any aspects of the agency's operations are in 
need of improvement.
 cfsa has enhanced its working relationship with the d.c. family court 
           by working collaboratively, but hindrances remain
    CFSA has enhanced its working relationship with the Family Court 
through its commitment to promoting improved communication and by 
expanding its legal support services for court activities. CFSA 
participates in various planning committees with the Family Court, such 
as the Implementation Planning Committee, and assists in providing 
service referrals on site at the Family Court. Since 2002, attorneys 
from the OCC have been located at CFSA and work closely with 
caseworkers. This co-location has improved the working relationship 
between CFSA and the Family Court because CFSA caseworkers and the 
attorneys are better prepared for court appearances. Additionally, 
training sessions have been held that included CFSA caseworkers, OCC 
attorneys, and Family Court judges. Furthermore, frequent dialogue 
between top management at CFSA and the Family Court and top management 
support have been key factors in improving these relationships.
    However, CFSA officials and Family Court judges noted several 
hindrances that constrain their working relationships. These hindrances 
include scheduling conflicts between the court and CFSA, an 
insufficient number of caseworkers, caseworkers who are unfamiliar with 
cases that have been transferred to them, and the unclear roles and 
responsibilities of CFSA caseworkers, attorneys, and judges. For 
example, CFSA officials said that Family Court judges often override 
caseworker recommendations that affect children and families. Family 
Court judges told us that they believe caseworkers do not always 
recommend appropriate services for children and their families. As a 
result of these conflicting perspectives, court officials said that 
appropriate decisions affecting children and families might not be 
reached in a timely manner.
                              conclusions
    While CFSA has met several procedural ASFA requirements and other 
performance criteria, developed essential policies, and enhanced its 
working relationship with the Family Court, it needs to make further 
improvement in order to ensure the protection and proper and timely 
placement of all of the District's children. To improve outcomes for 
foster care children, CFSA needs a comprehensive set of policies; 
effective implementation of all policies; complete, accurate, and 
timely automated data on which to base its program management; and an 
effective working relationship with the D.C. Family Court. However, 
gaps in its foster care policies, inconsistent policy implementation, 
and incomplete automated data may hinder CFSA's ability to protect and 
improve the outcomes for the District's children. We expect to have 
recommendations in our final report that will address these issues and 
strengthen CFSA's operations. Mr. Chairman, this concludes my prepared 
statement. I will be happy to respond to any questions that you or 
other Subcommittee Members may have.

      APPENDIX I.--GAO'S ANALYSIS OF SELECTED PERFORMANCE CRITERIA
------------------------------------------------------------------------
      Performance Criteria                               GAO Analysis
------------------------------------------------------------------------
1. Current case plans for foster
 care cases:
    Forty-five percent of foster  Met...............  As of September
     care cases have current                           30, 2002, 46
     case plans.                                       percent of foster
                                                       care cases had
                                                       current case
                                                       plans.
2. Visitation between children
 in foster care and their
 parents:
    Thirty-five percent of cases  Not met...........  As of November 30,
     in which children have a                          2002, 1 percent
     goal of returning home have                       of children with
     parental visits at least                          a return home
     every 2 weeks.                                    goal had parental
                                                       visits at least
                                                       every 2 weeks.
3. Social worker visitation with
 children in foster care:
    Twenty-five percent of        Not met...........  As of November 30,
     children in foster care                           2002, no children
     have weekly visits with                           had weekly
     caseworkers in their first                        visits; 0.3
     8 weeks of care; 35 percent                       percent had at
     of all children in foster                         least monthly
     care have at least monthly                        visits with a
     visits with a social worker.                      social worker.
4. Appropriate legal status for
 children in foster care:
    No child in emergency care    Met...............  As of November 30,
     (legal status) for more                           2002, no children
     than 90 days.                                     in emergency care
                                                       more than 90
                                                       days.
5. Current and valid foster home
 licenses:
    Seventy-five percent of       Not met...........  As of November 30,
     children are placed in                            2002, 47 percent
     foster home with valid                            of children were
     licenses.                                         in foster homes
                                                       with valid
                                                       licenses.
6. Progress toward permanency:
    No more than 10 percent of    Not met...........  As of November 30,
     children in foster care                           2002, 30 percent
     have a permanency goal of                         of children had a
     return home for more than                         permanency goal
     18 months.                                        of return home
                                                       for more than 18
                                                       months.
7. Foster care placement with
 siblings:
    Sixty percent of children in  Met...............  As of November 30,
     foster care are placed with                       2002, 63 percent
     one or more of their                              of children were
     siblings.                                         placed with one
                                                       or more siblings.
8. Placement stability:
    No more than 25 percent of    Met...............  As of November 30,
     children in foster care as                        2002, 21 percent
     of May 31, 2002, have had                         of children in
     three or more placements.                         care since August
                                                       1, 2001, had
                                                       three or more
                                                       placements.
------------------------------------------------------------------------
Source: GAO analysis.


    Senator DeWine. Thank you very much. Ms. Schneiders.
STATEMENT OF ANNE E. SCHNEIDERS, CHAIR AND FOUNDER, 
            WASHINGTON CHAPTER, THE NATIONAL 
            ASSOCIATION OF COUNSEL FOR CHILDREN
    Ms. Schneiders. Good morning, Senator DeWine and Senator 
Landrieu. I come before you as the Chair of the Washington 
Chapter of the National Association of Counsel for Children, 
which is a national advocacy organization for children.
    Senator DeWine. You might want to pull that mike close. 
Thank you.
    Ms. Schneiders. I am a practicing attorney and a clinical 
social worker, licensed in D.C., Maryland, and New York, and 
practiced child welfare/foster care for 25 years before going 
to law school. I am pleased to have this opportunity to address 
this committee on the status of Child and Family Services from 
the perspective of one who must interface with this agency on 
behalf of abused and neglected children as guardian ad litem 
for almost 200 children over the years.
    The rise and fall of statistics does not interest me, as 
numbers can say whatever you want them to to make a point. My 
concern is the impact of policy decisions on children, as too 
many children who have been cared for by CFSA leave the system 
angry, resentful, and no better off than when they entered. Let 
me cite such a few policies.
    First is placement. Children brought into the system are 
too often made to wait weeks or months before a placement is 
available. Children 14 and older are made to wait in group home 
facilities until a placement is identified. Many are then 
placed in whatever home has a vacancy, regardless of the needs 
of the child or the expressed preference of a family. There is 
little matching of a child to the family.
    The result is a negative experience for both and the 
ultimate removal of the child. Some children are moved two, 
three, and four times before finding an appropriate placement. 
This is true of both CFSA foster homes and the private agencies 
with whom CFSA contracts. Some children abscond from the group 
homes before a foster home is located. Some act up to the point 
of requiring psychiatric hospitalization. Thus the trauma of 
the abuse, coupled with the trauma of removal from the birth 
parents, are compounded three and fourfold by the actions of 
Child and Family Services.
    CFSA needs to invest in active and aggressive recruitment 
of therapeutic foster homes so that it has a pool of families 
with whom to place children. Children should be matched with 
families, so that there is at least a reasonable expectation 
that the placement will be effective. It should not take 4 to 6 
weeks to put a child in a foster home.
    Secondly, the lack of adequate support services. There is a 
disturbing punitive climate emerging in the agency that seems 
to view the child as the culprit in the abuse and neglect 
cases. Services are not readily available to counter the 
effects of abuse and neglect. Tutors are limited to 1 month of 
service with repeated requests for renewal. Little can be done 
in 1 month. Mentors are only available for 3 months at a time, 
with a need to justify renewal. The purpose of a mentor is to 
afford the child a meaningful relationship. To terminate such a 
relationship in 3 months only serves to have the child 
experience yet another loss.
    Teenagers are denied admission to independent living 
programs until they are 18, regardless of the need and the 
child's readiness at 16 or 17. Specialized evaluations and 
therapy are limited to whatever Medicaid will pay, regardless 
of the child's need or the availability of competent 
clinicians. GALs are frequently told by social workers to 
request a court order or the service will not be provided, thus 
making the court manage the case. There is no similar policy 
restricting services to parents, who immediately get referrals 
for therapy, parenting, anger management, drug treatment, and 
whatever else they may need.
    CFSA needs to have a police that guarantees every child the 
services which the Court identifies as needed to counter the 
effects of abuse and neglect and prepare them more quickly for 
permanency or emancipation.
    The preparation for emancipation. Most of the children who 
age out of foster care are young people whose problems or age 
have precluded adoption or whose family failed to improve 
sufficiently for them to return home. They have serious 
academic deficits, emotional problems, mental limitations, none 
of which are their fault. They lack self-confidence and self-
help skills. They are immature and vulnerable. They are ill-
prepared to jump into the mainstream of life.
    CFSA discharges the children without secure housing, 
employment, or healthcare. This month alone I have had two 
children I represent age out at 21. One mildly retarded, 
emotionally disturbed youngster is currently homeless. The 
other, a teen mother of two, was given a list of city shelters 
to which to apply the day after her 21st birthday. There is no 
farewell, no emancipation celebration, no assurance that if you 
get stuck, you can come back for help, just a message that your 
case has been closed.
    CFSA receives an allocation of Section 8 housing vouchers 
from the Federal Government that are carefully doled out to 
selected parents who have abused and neglected their children 
and who are seeking reunification. At the same time, CFSA sends 
its own young people, the victims of the abuse and neglect, out 
of the system at age 21 telling them where to find the nearest 
shelter. None of the vouchers in the hands of CFSA can be given 
to its own children for whom it has served as surrogate parent.
    To make matters worse, CFSA is now proposing to reduce the 
age of emancipation of 18 instead of the current 21, because 
they claim that children do not appreciate the services 
offered. Very few children even of stable families are ready to 
leave home at 18. Intact, stable families send their children 
to college in the hopes that they will mature during those 
years. It is incredible to think that CFSA expects abused and 
neglected children, who have had very little nurturing and 
stability and who have too often bounced around the foster care 
system, are mature enough to manage on their own at age 18. All 
that is available to them is the street or a city shelter. 
Discharging these children at age 18 will force them to survive 
on the street, selling drugs or their bodies for enough money 
to buy food. This is not the way the District of Columbia 
should handle its children.
    Current legislation which provides that these very 
vulnerable young people remain in care until age 21 is both 
humane and responsible and should not be altered as a means of 
balancing the budget. The decision as to whether a child is 
prepared for independent living prior to age 21 should continue 
to be left with the Family Court who has oversight of the case 
and should not be made as the result of an arbitrary and 
capricious policy based on finances.
    CFSA needs to develop a policy and method of providing 
appropriate housing for children that emancipate from the 
system each year and not just send them to the city shelters to 
apply for TANF and food stamps. None of us would treat our own 
children that way. CFSA needs to design an integrated program 
of services staffed with persons who can engage young adults in 
meaningful activities and in which the young people are active 
participants in their own development. CFSA should create an 
after-care department to assist youngsters who spent their 
childhood in foster care and need a home to return to for 
occasional assistance during stressful times, especially as 
they try to get started on their own.
    Finally, it is intriguing to hear CFSA boast about the 
reduction in staff turnover when workers continue to leave, 
cases remain uncovered or covered by a supervisor. Social 
workers continue to complain about high case loads, routinely 
put in for transfers to non-case carrying positions, or work 
late into the night to get reports to the Court on time. I 
spoke to a social worker yesterday at midnight who was still 
trying to finish a report for the Court today.
    Cases are still counted as families without regard to the 
number of children in that family. Social workers are often 
responsible for up to 50 children at a time because of the way 
cases are counted, making it impossible to get to IEP meetings, 
treatment team meetings, or other significant events in the 
child's life. Cases have as many as three or more workers at a 
time and far more during the life of the case. A worker is 
assigned to the case on one day, the goal is changed to 
adoption, and the case is transferred to a recruitment worker. 
A family is recruited, and the case is transferred to an 
adoption worker. At the same time, a sibling goes to 
independent living and is assigned a teen services worker. 
Another sibling is placed with a contract agency and is given a 
different worker. I represent a set of twins, who each have 
different workers.
    Such a practice precludes the formation of beneficial 
relationships.
    Senator DeWine. Twins who have different workers?
    Ms. Schneiders. Pardon?
    Senator DeWine. Twins who have different workers?
    Ms. Schneiders. Yes. One happens to be in residential 
treatment, and therefore gets a worker through that unit. And 
the other is in a foster home and has a worker with that unit. 
And no one knows who has case responsibility for that.
    CFSA needs to develop a one case-one worker policy similar 
to the Court's one family-one judge system, with a maximum of 
15 to 20 children per worker, regardless of the number of 
families. Social workers need to get to know the case so that 
services are not duplicated, facts are not lost, progress is 
not overlooked, goals are not changed. And the continual 
reorganization of the agency is counterproductive in pursuit of 
this goal.

                           PREPARED STATEMENT

    Success should be measured when children in the care of 
Child and Family Services Agency feel safe and protected, loved 
and cared for, and achieve permanence early or are prepared to 
face the world on their own at age 21, not when the statistics 
prove that numbers have gone up or down.
    Thank you.
    [The statement follows:]
          Prepared Statement of Anne E. Schneiders, Esq., LISW
    Good morning, Senator DeWine, and all members of the Appropriations 
Committee.
    My name is Anne Schneiders, and I come before you as the Chair and 
Founder of the Washington Chapter of the National Association of 
Counsel for Children, a national advocacy organization for children. I 
am a proud resident of the District of Columbia; a practicing attorney 
at D.C. Superior Court; and a clinical social worker licensed in the 
District of Columbia, Maryland and New York. I spent 25 years as a 
social worker and administrator in foster care before going to law 
school.
    I am pleased to have this opportunity to address this Committee on 
the status of Child and Family Services from the perspective of one who 
must interface with this agency on behalf of abused and neglected 
children as a Guardian ad litem for almost 200 children over the years.
    Dr. Olivia Golden has certainly brought an element of 
professionalism to the table, and her reports to you and other bodies 
reflect considerable progress and improvement. The reality, however, 
from my perspective, as an advocate for the children entrusted to CFSA 
and their families, is that while Dr. Golden is masterful at 
conceptualizing programs and services, policies and procedures, 
structures and organizations, she is so far removed from the daily 
delivery of services to the children and their families, that she is 
unaware that the concepts she espouses are not effectuated on the front 
lines. In this testimony I will address specific issues and provide 
some concrete examples of the difficulties those of us trying to 
represent children and families encounter in working with CFSA. This 
agency is still in dire need of improvement, and in spite of all the 
rhetoric about progress and improvement, much of it remains on paper 
and has not made it to the level of practice on a daily basis.
    The rise and fall of statistics does not interest me, as numbers 
can say whatever you want them to say to make a point. My concern is 
the impact of policy decisions on children as too many children who 
have been ``cared for'' by CFSA leave the system angry, resentful and 
no better off than when they entered. Let me cite a few such policies:
               diversion of reports of abuse and neglect
    Advocates for children and families are very concerned with the 
apparent diversion of neglect and abuse cases away from the Superior 
Court's Family Court. Children must be represented by counsel to be 
adequately protected. During the year (2002), only about 900 neglect 
and abuse cases were petitioned, while in previous years between 1,700-
1,900 per year were petitioned. We are under no illusion that community 
based services are this effective!! Children are being placed with D.C. 
family members in what are called ``third party placements'' in order 
to avoid the ICPC difficulties of placing children over State lines, 
without ascertaining the criminal and child abuse histories of these 
potential caretakers. While obtaining criminal and abuse clearances is 
sometimes a cumbersome process, it is essential to protect children 
from further abuse. In these cases, we welcome what CFSA refers to as 
``bureaucratic barriers'' that serve to protect children.
Recommendation
  --There should be an outside review of the reports of abuse and 
        neglect that get diverted to community based services to 
        determine the appropriateness of these referrals, and to see 
        how many of them eventually come before the court in a more 
        severe state than at the initial identification.
                          lack of prosecution
    We are also very concerned that perpetrators of sexual abuse and 
physical abuse of children are not prosecuted in the District of 
Columbia. Most attorneys will tell you that none of the perpetrators of 
the abuse of children before the court have been prosecuted, yet we 
continue to make reunification the primary goal in abuse cases. While 
CFSA has taken all of the Corporation Counsel attorneys under its 
umbrella--and even into its building--there has been no significant 
improvement in the government's pursuit of justice for children. 
Recently, the mother in a case petitioned in 1999 for physical abuse 
was arrested. The children had already been removed, reunified, and 
have recently had to be removed again for repeated physical and 
emotional abuse. Had proper steps been taken to prosecute the initial 
criminal child abuse case, these children would not have been re-
abused. Another severely retarded, cerebral palsy child was abused at 
home; brought into care; abused physically and sexually in group homes 
prior to placement in a foster home. None of these instances were 
pursued because he was deemed not a reliable witness. Again, over a 3-
year period 3 children were removed from one parent. One child had been 
burned and shot; the third child was scalped at the age of 6 weeks. No 
one was ever prosecuted for these crimes because the victims were 
young! If these 3 cases are on my caseload, I am sure there are 
hundreds of others throughout the system.
Recommendation
  --CFSA must be required to pursue justice for children and criminal 
        prosecution of those who physically and sexually abuse 
        children.
                           placement policies
    Children brought into the system are too often made to wait weeks 
or months before a placement is available. Young children still are 
retained at 400 6th Street overnight or until a placement is available. 
Children 14 and older are made to wait in group home facilities until a 
placement is identified. Many are then placed in whatever home has a 
vacancy regardless of the needs of the child or the expressed 
preference of the family. There is little matching of child to family. 
The result is a negative experience for both and the ultimate removal 
of the child. Some children are moved 2, 3, 4 times before finding an 
appropriate placement. This is true of both CFSA foster homes and the 
private agencies with whom CFSA contracts for services. Some children 
abscond from the group home before a foster home is located. Some act 
up to the point of requiring psychiatric hospitalization. Thus, the 
trauma of the abuse coupled with the trauma of removal from the birth 
parents are compounded 3- and 4-fold by the actions of Child and Family 
Services Agency.
    As recently as last week a 15-year-old child who had spent a year 
in a group home requested a foster home in January, and the Judge 
ordered CFSA to identify a home for him. In March the matter was 
brought back to court because no referral had yet been made. When the 
Judge asked for an explanation, CFSA came up with a home--reportedly 
the only home available in the system. No match was made; the child 
never met the foster family. He was just placed in the home. It lasted 
less than a week before the child ran away. The child remains in the 
group home being told there is no other foster home in the system. He 
must just wait!
    The same is true of the process for placing children in residential 
treatment programs. Last year I represented two 14-year-old children 
who spent extended periods of time in the Psychiatric Institute of 
Washington waiting for the process of identifying a residential 
treatment program to progress. These children wasted 2-3 months of 
their childhood sitting in a hospital waiting for meetings to be 
scheduled; papers to be exchanged; and transportation to be arranged 
before they could begin the treatment process.
Recommendation
  --CFSA needs to invest in active and aggressive recruitment of 
        therapeutic foster homes so that it has a pool of families with 
        whom to place children. Children should be matched with 
        families so that there is at least a reasonable expectation 
        that the placement will be effective. It should not take 4-6 
        weeks to place a child in a foster home, nor 6-8 weeks for 
        admission to a residential setting.
                   lack of adequate support services
    There is a disturbing punitive climate emerging in the agency that 
seems to view the child as the culprit in abuse and neglect cases. 
Services are not readily available to counter the effects of abuse and 
neglect.
  --Tutors are limited to 1 month of service with repeated requests for 
        renewal. Little tutoring can be effective in 1 month. The 
        request for renewal on a monthly basis is a serious waste of 
        time on the part of social workers. Judges need to order such 
        simple services as tutoring to be sure that this service is not 
        interrupted, and re-started with a new tutor. Children cannot 
        adjust that readily to new faces and styles of teaching.
  --Mentors are only available for 3 months at a time with the need to 
        justify renewal for longer periods. The purpose of a mentor is 
        to afford the child a meaningful relationship. To terminate 
        such a relationship in 3 months only serves to have the child 
        experience yet another loss. CFSA has contracts with various 
        firms who pay the mentors for the time invested in the child. 
        Because of this expense, they limit the time given to any child 
        to 12 hours/month with the maximum amount, if justified, to 24 
        hours/month. This time includes transportation to and from the 
        child's place of residence. Volunteers for Abused and Neglected 
        Children (formerly CASA) have trained volunteers who do not get 
        paid. All CFSA has to do is enter into a contract for 
        administrative services, but has failed to do so. It is 
        difficult to understand the rationale for this decision.
  --Teenagers are denied admission to independent living programs until 
        they are 18 regardless of the need and the child's readiness at 
        16 or 17. This leaves some children in inappropriate settings 
        waiting for the magical age of 18 for admission to an 
        appropriate program. No one has yet explained the rationale for 
        this decision.
  --Specialized evaluations and therapy are limited to whatever 
        medicaid will pay for regardless of the child's need or the 
        availability of competent clinicians. Every child removed from 
        the birth parent is traumatized by this event, or those leading 
        up to removal. Too often the multiple moves of CFSA from 
        shelter care to multiple foster homes only compounds the 
        emotional stress these children experience. The inability to 
        secure specialized forms of therapy is serious. Young children 
        require therapy to deal with sexual trauma, physical abuse, 
        attachment disorders, and depression, while adolescents become 
        angry, defiant, aggressive and act out sexually or use drugs. 
        Identifying quality mental health care for these children is 
        extremely difficult given CFSA's policy that only providers who 
        take medicaid can be used unless there is a court order for a 
        specific type of therapy or therapist. This process is lengthy 
        and delays by weeks or months the initiation of therapy for 
        very troubled children and often puts both home and school in 
        jeopardy. Payment to vendors, while better than previously, 
        continues to be problematic and keeps the pool of available 
        clinicians limited. This is one of the most serious 
        shortcomings of CFSA given the fact that virtually every child 
        in care needs therapy.
    GAL's are frequently told by social workers to request a court 
order or the service will not be provided, thus making the court manage 
the case. There is no similar policy restricting services to parents 
who immediately get referrals for therapy, parenting, anger management 
programs, drug treatment, and whatever else they need, regardless of 
whether they take advantage of it or not.
    The same problem exists for other evaluations and therapies ordered 
by the court--i.e. psychiatric and psychological evaluations of both 
children and parents. The one place where it was possible to get top 
quality, comprehensive evaluations of children and their parents was 
the Youth Forensic Services. This agency, however, has been virtually 
dismantled by the Commission on Mental Health so that Youth Forensics 
now has no psychiatrist, 2 psychologists one of whom is unlicensed, and 
3 social workers.
Recommendations
  --CFSA needs to have a policy that guarantees every child the 
        services which the court identifies as needed to counter the 
        effects of abuse and neglect, and prepare them more quickly for 
        permanency or emancipation. There needs to be an identified 
        roster of qualified clinicians who can be accessed readily so 
        as not to delay the initiation of therapy for traumatized 
        children. Adoption is often delayed because a child has not 
        been provided therapy, mentoring, tutoring or other needed 
        services to counter the negative effects of prior physical/
        sexual abuse or severe neglect.
  --Some oversight committee needs to revisit the logic of dismantling 
        Youth Forensic Services which was one of the best resources 
        available to CFSA. There is no comparable service available in 
        the District of Columbia which understands the needs of the 
        court; the type of comprehensive evaluations needed; and the 
        impact of court decisions on children and families.
                      preparation for emancipation
    Most of the children who ``age out'' of foster care are young 
people whose problems or age have precluded adoption, or whose family 
failed to improve sufficiently for them to return home. They have 
serious academic deficits, emotional problems, mental limitations, none 
of which are their fault. They lack self confidence and self-help 
skills. They are immature and very vulnerable. They are ill prepared to 
jump into the mainstream of life.
    CFSA discharges these children without secure housing, employment, 
or health care. This month alone I have had two children I represent 
age out at 21. One mildly retarded, emotionally disturbed youngster is 
currently homeless; the other, a teen mother of two was given a list of 
city shelters to which to apply the day after her 21st birthday. There 
is no farewell; no emancipation celebration; no assurance that if you 
get stuck you can come ask for help; just a message that ``Your case is 
now closed.'' Adoptive families are assured of post-adoption services; 
teens are given no such assurance.
    CFSA receives an allocation of Section 8 vouchers from the Federal 
Government that are carefully doled out to selected parents who have 
abused or neglected their children and who are seeking reunification. 
At the same time, CFSA sends its own young people, the victims of the 
abuse or neglect, out of the system at age 21 by telling them where to 
find the nearest shelter. None of the vouchers in the hands of CFSA can 
be given to its own children for whom it has served as surrogate 
parent.
    To make matters worse, CFSA is now proposing to reduce the age of 
emancipation to 18 instead of the current age of 21 because they claim 
the children don't appreciate the services offered. Very few children 
even of stable families are ready to leave home at age 18. Intact, 
stable families send their children to college in the hopes that they 
will mature during those 4 years. It is incredible to think that CFSA 
expects abused and neglected children, who have had very little 
nurturance and stability, and who have too often bounced around the 
foster care system are mature enough to manage on their own at age 18. 
All that is available to them is the street or a city shelter. 
Discharging these children at age 18 will force them to ``survive'' on 
the street selling drugs or their bodies for enough money to buy food. 
This is not the way the District of Columbia should handle its 
children.
Recommendations
  --Current D.C. legislation which provides that these very vulnerable 
        young people remain in care until age 21 is both humane and 
        responsible and should not be altered as a means of balancing 
        the budget. The decision as to whether a child is prepared for 
        independent living prior to age 21 should continue to be left 
        with the Family Court judge who has oversight of the case, and 
        should not be made as the result of an arbitrary and capricious 
        policy based on finances.
  --CFSA needs to develop a policy and method of providing appropriate 
        housing for the children that emancipate from the system each 
        year, and not just send them to city shelters, and to apply for 
        TANF and food stamps. None of us would treat our own children 
        in this manner!
  --CFSA needs to design an integrated program of services, staffed 
        with persons who can engage young adults in meaningful 
        activities and in which the young people are active 
        participants in their own development.
  --CFSA should create an after-care department to assist youngsters 
        who spent their childhood in foster care and need a ``home'' to 
        return to for occasional assistance during stressful times, 
        especially as they try to get started on their own.
                     staff retention and assignment
    It is intriguing to hear CFSA boast about the reduction in staff 
turnover, when workers continue to leave; cases remain uncovered or 
``covered'' by a supervisor. Social workers continue to complain about 
the high caseloads; routinely put in for transfers to non-case carrying 
positions; or work late into the night to get reports to the court on 
time. Cases are still counted as ``families'' without regard for the 
number of children in that family. Social workers are often responsible 
for up to 50 children at a time, making it impossible to get to IEP 
meetings, treatment team meetings, or other significant events in a 
child's life.
    Cases have as many as 3 or more workers at a time and far more 
during the life of the case. A worker is assigned to a case on one day; 
then the goal is changed to adoption and the case is transferred to a 
``recruitment'' worker; a family is recruited and the case is 
transferred to an ``adoption'' worker. At the same time a sibling goes 
to independent living and is assigned a ``teen services'' worker; 
another sibling is placed in a contract agency and is given a different 
worker. I represent a set of twins who each have different workers. 
Such a practice precludes the formation of beneficial relationships 
that support the family and children--and delay progress.
Recommendation
  --CFSA needs to develop a ``one case/one worker'' policy similar to 
        the court's ``one family/one judge'' system, with a maximum of 
        15-20 children per worker regardless of the number of families. 
        Social workers need to get to know the case so that services 
        are not duplicated, facts lost, progress overlooked. The 
        continual ``re-organizing'' of the agency is counter 
        productive.
    Success should be measured when children in the care of Child and 
Family Services Agency feel safe and protected, loved and cared for, 
and achieve permanence early or are prepared to face the world on their 
own at age 21.
    I thank you for this opportunity and look forward to improved 
relationships between CFSA and the community.

    Senator DeWine. Thank you very much. Very interesting.
    Ms. Meltzer.
STATEMENT OF JUDITH W. MELTZER, DEPUTY DIRECTOR, CENTER 
            FOR THE STUDY OF SOCIAL POLICY, AND COURT-
            APPOINTED MONITOR, CHILD AND FAMILY 
            SERVICES AGENCY
    Ms. Meltzer. Thank you. Good morning, Senator DeWine, 
Senator Landrieu. Thank you for this opportunity to testify and 
for your continuing leadership.
    I am Judith Meltzer, Deputy Director of the Center for the 
Study of Social Policy, which is the court-appointed monitor to 
U.S. District Court Judge Thomas Hogan for the LaShawn A. v. 
Williams lawsuit.
    The LaShawn modified order is a comprehensive decree dating 
to 1994, mandating comprehensive reform of the District's child 
welfare system. The Center is the monitor with responsibility 
for development of implementation plans and for ongoing 
assessment of the District's progress.
    The recent history of LaShawn begins with the termination 
of the receivership in June 2001 and the launching of a 
probationary period. The probationary period was to end only 
when the District demonstrated sufficient progress on a series 
of very incremental benchmarked performance standards. The 
District did that. Attached to this testimony is a copy of our 
report of September 30, 2002, which was based on an independent 
review last summer of over 1,000 CFSA case records.
    In doing that review, we looked at both the automated 
records on the FACES information system, as well as paper 
records for every case, because you could not rely on the 
automated system to get complete information. We did find that 
the District met 75 percent of the targets, which was the basis 
for recommending a termination of the probationary period.
    This is an accomplishment, and a significant one for the 
District. And I do not want to underestimate it. But I also 
want you to know that it does not mean that the District's 
child welfare system is consistently functioning at an 
acceptable level of performance or that the District achieved 
compliance with the LaShawn Order.
    I want to emphasize this in response to your earlier 
remarks, Chairman DeWine. The probationary standards were set 
as very incremental markers to demonstrate that the city had 
the capacity to administer this agency. In other words, the end 
of probation gives the responsibility for administration back 
to the District of Columbia from the U.S. District Court. And 
that was really the question that was resolved by the 
termination of the probationary period. We are now at a point 
of developing the implementation plan for going forward, 
because the Court has determined that the administration can 
continue to make progress on these standards.
    As Court Monitor, I am currently responsible for the 
development of this implementation plan in collaboration with 
the parties. The Implementation Plan is designed to address the 
deficiencies we found, the deficiencies found by GAO, and the 
deficiencies identified by the field and by advocates such as 
Ms. Schneiders.
    Since January, Dr. Golden and her staff, the Office of 
Corporation Counsel of the Mayor's office, plaintiffs and I 
have been working intensively to reach consensus on a plan. 
That discussion is near completion--and I will be submitting a 
plan to the Court by mid-April. The implementation will set 
ambitious yet, I believe, feasible targets between now and 
December 2006 for District performance. Among the most 
important are continued improvement in the timeliness and 
quality of investigations of child abuse and neglect; high-
quality social work and supervisory practice related to 
assessment, case planning and supervision of placement; wider 
availability of community-based supports; enhanced service 
provision; increased visits by social workers; an expanded 
range of high-quality family placement options in the District; 
reliable and accessible supports for foster parents; consistent 
access to mental health services, substance abuse services, and 
comprehensive medical, psychological and educational services; 
and permanent homes for the 1,110 children currently in the 
foster care system with a permanency goal of adoption.
    The implementation plan also requires steady and measurable 
improvement in several key infrastructure areas, including 
aggressive hiring of social workers. This job cannot be done 
unless there are enough social workers who are well trained to 
do it. The Plan also requires implementation of a high-quality 
training program for CFSA staff and for private agency workers; 
revamping contract policies and procedures to establish clear 
and enforceable performance expectations; full implementation 
and enforcement of the new licensing standards for foster 
homes, group homes, and independent living facilities; 
revamping the agency's administrative case review system; 
continued work with the new Family Court to achieve AFSA 
timelines and outcomes, and completion of work on the automated 
information system, FACES, so that the agency has access to 
timely, accurate, and complete data on the children and 
families it serves.
    I believe that the Implementation Plan, with its ambitious 
yet sequenced targets, can be successfully completed. And my 
optimism is in part based on the excellent leadership that has 
been provided in the last 2 years by the Mayor, Dr. Golden, and 
her staff.
    In addition to a degree that far exceeds anything that I 
witnessed in the prior history of LaShawn, the child welfare 
agency is finally working constructively with other agencies in 
the District Government, including the Mental Health Agency. 
Also Superior Court, under the leadership of Judge Rufus King 
and presiding Judge Lee Satterfield, is working collaboratively 
and constructively with the child welfare agency.
    There are five actions that the subcommittee can take to 
help accelerate positive change. I will list them only now, 
although my written testimony provides some additional detail.
    First, I think the Congress can provide incentives for the 
creation of a qualified and stable workforce, either through 
educational stipends or loan forgiveness programs and through 
expanding the applicability of Title IV-E training 
reimbursement to private agency workers, court staff, and other 
public agency partners.
    Second, I think there can be additional financial support 
for targeted prevention efforts that will allow the District to 
expand the provision of comprehensive neighborhood-based 
services to families at risk of entering the child welfare 
system.
    Third, I believe there should be targeted efforts to 
achieve permanency for the 1,110 children in the foster care 
system who have a permanency goal of adoption. This is one-
third of the current caseload.
    Fourth, I think there can be assistance for the development 
of additional foster and adoptive families within the District 
of Columbia, including foster families for children who are 
entering the system without exceptional needs, as well as those 
who have severe behavioral and therapeutic needs.
    Fifth, there needs to be intensive efforts to create assets 
and supports for those leaving the foster care system, as Ms. 
Schneiders has just testified to. There are currently 1,028 
youths over the age of 14 in the foster care system. Again, 
that is almost a third of the caseload. And it is a higher 
proportion of older children than other systems. This reflects, 
I think, the many years in which the system did not move 
children to permanency in a timely fashion. But much more has 
to be done to provide these children with the supports they 
need, so that when they exit the foster care system, they can 
lead healthy and independent lives.

                           PREPARED STATEMENT

    Members of the subcommittee, I want to conclude by 
emphasizing the importance of continuing support for the work 
of the District's child welfare system. I know it is 
frustrating. It has been extremely frustrating for me. It is 
frustrating for everybody that this reform has taken so long. 
But this is a multi-year effort. The Implementation Plan that 
the Court will order will chart ambitious steps for finally 
bringing the District's child welfare agency to an acceptable 
level of performance. This requires changes in practice, 
policy, and structure, as well as additional resources.
    With our continued efforts and shared commitment, I look 
forward to a day in the not-too-distant future when we can 
celebrate full compliance with LaShawn order and the end of 
Federal Court oversight of the system.
    Thank you.
    [The statement follows:]
                Prepared Statement of Judith W. Meltzer
    Senator DeWine and other distinguished members of the Subcommittee, 
thank you for the opportunity to testify this morning about the 
progress of the District of Columbia's Child and Family Services Agency 
(CFSA). I am Judith Meltzer, Deputy Director of the Center for the 
Study of Social Policy. I serve as the Court-appointed Monitor to U.S. 
District Court Judge Thomas Hogan for the LaShawn A. v. Williams 
lawsuit. The LaShawn Modified Order is a comprehensive decree, dating 
to 1994. The Order includes expectations for child welfare performance 
in the District across the full range of programmatic and 
administrative functions that are necessary to achieve the safety, 
permanency and well-being of children who are at risk of and experience 
child abuse and neglect. The LaShawn Order appointed the Center for the 
Study of Social Policy as the independent Court Monitor with 
responsibility for the development of implementation plans and for the 
ongoing assessment of the District's progress in complying with the 
Federal court orders.
    The recent history of LaShawn begins with the leadership of Mayor 
Anthony Williams and the establishment of the Child and Family Services 
Agency in June 2001, with Dr. Olivia Golden as its Director. On that 
date, the Federal court terminated the Receivership of the District's 
child welfare system and launched a probationary period, which would 
end only when the District demonstrated sufficient progress on a series 
of 20 benchmarked performance standards. The District was to achieve 
agreed-upon performance targets for 75 percent of the standards by 
October 31, 2001, which was later extended to May 31, 2002. The 
standards were designed as incremental measures of progress and 
covered, among other things, the timeliness of investigations of abuse 
and neglect; the development of current case plans for family services 
cases and children in foster care; reducing the number of children in 
emergency and congregate care; increasing the numbers of children 
adopted; and improving the appropriateness and stability of foster care 
placement for children in the District's custody. Attached to this 
testimony is a copy of my report to the Court dated September 30, 2002, 
on the District's progress in meeting the Probationary Period 
Performance Standards based on our review last summer of over 1,000 
case records. The District met performance targets for 75 percent of 
the standards and, based on those results, I was able to recommend that 
the probationary period be terminated. On January 7, 2003, U.S. 
District Court Judge Hogan formally terminated the probationary period, 
thus ending the Federal court Receivership of the District's child 
welfare agency, although Federal court oversight under LaShawn remains 
in place.
    The ending of the Receivership reflects real improvement in the 
system and is a significant and positive accomplishment for the 
District of Columbia. It does not, however, mean that the District's 
child welfare system is consistently functioning at an acceptable 
performance level or that the District has achieved compliance with the 
LaShawn Order. This Subcommittee hearing comes at a very important time 
for the Child and Family Services Agency as it works to create a child 
welfare system that meets not only the Court's expectations for 
performance, but more importantly a system that meets the expectations 
of the citizens of the District of Columbia.
    As Court Monitor, I am currently responsible for the development, 
in collaboration with the parties, of a binding Implementation Plan 
that identifies the steps and tasks necessary to achieve compliance, 
the timelines for task accomplishment and the resources (including 
staff, personnel, contracts and other resources) necessary for 
implementation. This Implementation Plan is to be submitted to the 
Court and will become an enforceable order of the Federal court under 
the LaShawn Order. The expectations of the LaShawn Order and the 
Implementation Plan are consistent with the District's efforts to 
comply with the Federal and District Adoption and Safe Families Act 
(ASFA) and with community and professional standards of acceptable 
child welfare practice.
    Since January, I have been working intensively and constructively 
with Dr. Golden and her staff, the Office of Corporation Counsel, Grace 
Lopes from the Mayor's Office and representatives from plaintiffs 
(Children's Rights, Inc.), to reach consensus on an Implementation 
Plan. Our negotiations ended last week and I expect to make final 
decisions and submit an Implementation Plan to the Court by no later 
than April 15th. At that time, I will be glad to submit the proposed 
Plan to this Subcommittee for inclusion in the record of this hearing.
    The Implementation Plan will set ambitious, yet I believe, feasible 
targets between now and December 2006 for District performance across 
the spectrum of child welfare practices and services. Among the most 
important are:
  --Continued improvement in the timeliness and quality of 
        investigations of child abuse and neglect.
  --High quality social work and supervisory practice with children and 
        families in the areas of assessment case planning, and 
        supervision of placement.
  --Wider availability of community-based supports for families to 
        prevent children and families from entering the child welfare 
        system.
  --Enhanced services provision so that children will enter foster care 
        placement only when their own families cannot be assisted to 
        provide them with safe and stable homes.
  --Increased visits by social workers to children in placement and to 
        families with children at home with current child protective 
        services cases.
  --Development of an expanded range of high quality family placement 
        options in the District of Columbia to continue progress to 
        reduce the numbers of children, especially young children, who 
        are cared for in group settings. The Implementation Plan will 
        most likely include a provision that requires the District to 
        end any overnight placement in its in-house Intake Center by 
        June 2003 and to have fewer than 50 children under age 12 in 
        congregate settings by December 31, 2004.
  --Providing reliable and accessible foster parent supports so that 
        placement disruptions decline and children experience fewer 
        placement moves while they are in foster care.
  --Consistent access to resources that children and families need, 
        especially mental health services, substance abuse services and 
        comprehensive medical, psychological and educational services.
  --Locating adoptive families or permanent kinship families for the 
        1,100 children in foster care with a permanency goal of 
        adoption, and completing the necessary adoption subsidy/
        guardianship agreements and other legal actions to provide 
        these children permanent homes.
    In order to achieve the programmatic and practice goals that I 
listed, the Implementation Plan also requires steady and measurable 
improvement in several key infrastructure areas, including:
  --Aggressive hiring of social workers through improved recruitment 
        and retention strategies leading to rapidly declining caseloads 
        for all workers. The Implementation Plan is anticipated to 
        require complete achievement of LaShawn caseload standards for 
        workers and supervisors by the end of 2004.
  --Implementation of a high quality training program for CFSA staff 
        and private agency workers that is geared to improving practice 
        skills and achieving defined practice competencies.
  --Revamping the contract policies and procedures to establish clear 
        and enforceable expectations for performance by private 
        agencies related to achieving safety, permanency and well-being 
        outcomes for children.
  --Full implementation of new licensing standards for foster homes, 
        group homes and independent living facilities and consistent 
        and effective enforcement of licensing standards.
  --Revamping the Agency's administrative case review system to provide 
        consistent and meaningful review of case progress and 
        achievement of permanency goals.
  --Continued work with the new Family Court to make sure that the 
        entire system works together to achieve ASFA permanency 
        expectations and timelines.
  --Implementation of comprehensive quality assurance processes, 
        including routine case and supervisory reviews, special 
        incident reviews, external fatality reviews and quantitative/
        qualitative assessment of case process and outcomes.
  --Completion of work on CFSA's automated management information 
        system (FACES) so that the Agency has access to timely, 
        accurate and complete data on the children and families it 
        serves.
    In making decisions about the Implementation Plan, I have worked 
with the District and the plaintiffs to achieve a balance between the 
urgent needs of children and families and the desire to quickly produce 
results, with the District government's appropriate concern about 
successfully sequencing and managing multiple and demanding 
requirements for change. I believe that the Implementation Plan, with 
its ambitious yet sequenced performance targets, can be successfully 
completed. My optimism is, in part, based on the excellent leadership 
provided by Dr. Golden and the hard working CFSA staff. Dr. Golden has 
assembled an enthusiastic team of competent child welfare professionals 
and has mobilized the diverse talents of many staff within the Agency 
and from a broad range of private agency and community partners. In 
addition, to a degree that far exceeds anything I have witnessed in the 
prior history of LaShawn, the child welfare agency is working 
constructively with other agencies in the District government, most 
importantly, the Department of Mental Health, the Office of Corporation 
Counsel, and the Metropolitan Police Department. This collaborative 
effort is greatly enhanced by the support of the Mayor. Finally, the 
Superior Court, under the leadership of Chief Judge Rufus King and 
Presiding Judge Lee Satterfield, is working with the child welfare 
agency to ensure children's safety and to provide meaningful and timely 
judicial review of children's progress toward permanency. The serious 
difficulties of providing appropriate services, supports and stable 
living situations for children remain, but I believe there is an 
improved level of trust and commitment from the various parts of the 
system to work together in new ways to solve these complex problems.
    There are five actions that the Subcommittee can take to help 
accelerate positive change. They include:
  --1. Provide incentives for the creation of a qualified and stable 
        workforce.--This can be done in two ways: first, provide 
        financial incentives for recruitment and retention of social 
        workers through loan forgiveness, new stipends or loans for 
        education in return for defined, time-limited commitments to 
        child welfare work in the District; and second, by provide 
        additional funding, either through extending the applicability 
        of Title IV-E training reimbursement or through other means, to 
        provide intensive skill building and family-centered practice 
        training for workers in the public child welfare agency and for 
        staff in private provider agencies and partner agencies, such 
        as mental health, substance abuse, and the Courts.
  --2. Provide additional financial support for targeted prevention 
        efforts that would allow the District to expand the provision 
        of comprehensive neighborhood-based services to families at 
        risk of entering the child welfare system.--For the past 2 
        years, the District was able to use TANF funds to support 
        services provided by the eight Healthy Families, Thriving 
        Communities Collaboratives, including their innovative use of 
        Family Team Decision Making, which bring family, extended 
        family and community supports together with public agency 
        workers to develop and implement plans of care to ensure safety 
        and permanency for children. In fiscal year 2004, the District 
        will have to use local funds to replace the TANF resources for 
        this work and currently does not have additional funding 
        available for any expansion of these important efforts.
  --3. Support targeted efforts to achieve permanency for the 1,100 
        children in foster care who have a permanency goal of 
        adoption.--This can be done in one of several ways: first, 
        providing fiscal incentives for achieving permanency through 
        adoption or subsidized guardianship for children currently in 
        foster care. Bonus funds could be available for specialized 
        recruitment for sibling groups, young teens and/or children 
        with individualized needs, or to pay for additional services 
        and supports to allow a foster family or kin provider to 
        securely commit to adoption or permanent guardianship. Second, 
        funds could be provided to allow the District child welfare 
        agency to enter into contracts with private child placing 
        agencies to engage in child-specific recruitment and placement 
        with families for currently waiting children.
  --4. Assist with the development of foster and adoptive families 
        within the District of Columbia.--One of the barriers to 
        District families wishing to become licensed foster parents is 
        the presence of lead paint in much of the District's older 
        housing stock. Some potential families cannot be approved as 
        foster parents or kin providers until they secure lead paint 
        abatement, which is frequently beyond their financial means. 
        Funding to pay for lead paint abatement for these District 
        families, who are otherwise qualified to be licensed foster or 
        kinship homes or approved adoptive families, could be made 
        available.
  --5. Support intensive efforts to create assets and supports for 
        youth leaving foster care.--As of December 31, 2002, one-third 
        of the children in foster care (1,028 children) were age 14 and 
        over. The District has a higher percentage of older children in 
        its foster care system than nationally, in part reflecting the 
        many years in which the District failed to make timely 
        decisions on permanency for children. Despite current efforts, 
        many of these older children will not achieve permanency before 
        they leave the foster care system, and much more needs to be 
        done to ensure that they are equipped to survive as independent 
        adults when they do leave. Congress could help by providing 
        additional support for educational stipends, work experience 
        and career coaching for these children; for additional mental 
        health and substance abuse services; for assistance with 
        housing when they leave foster care and for the creation of 
        Individual Development Accounts (IDA's) that would allow teens 
        in foster care to build assets.
    Members of the Subcommittee, I conclude by emphasizing the 
importance of continuing support for the work of the District's child 
welfare agency. The Implementation Plan that the Court will order will 
chart ambitious steps for finally bringing the District's child welfare 
agency to an acceptable level of performance. This will require changes 
in practice, policy and structure as well as additional resources. 
Achieving the desired results also will require clarity and tenacity 
about accountability and consistent review of performance data to 
measure progress and take corrective action. As external Monitor, the 
Center for the Study of Social Policy will prepare periodic progress 
reports for the Court, the District government, the Congress and the 
public, and we will work with the Agency to improve their internal 
quality assurance and results monitoring. With our continued efforts 
and shared commitment, I look forward to a day, in the not too distant 
future, when we will celebrate full compliance with the LaShawn Order 
and the end of Federal court oversight of the District of Columbia 
child welfare system.
    Thank you and I will be pleased to take questions.

    Senator DeWine. Thank you all very much.
    Let me start, Dr. Golden, I saw sometimes you nodding your 
head yes and sometimes you nodding your head no. And so maybe 
we should start with clarifying for the record how much of the 
GAO report you agree with and what you do not agree with.
    Dr. Golden. Well, we have talked at great length. And I 
really appreciate----
    Senator DeWine. I want to get that on the record, though, 
so we all know here----
    Dr. Golden. Okay.
    Senator DeWine [continuing]. How much of the GAO report is 
in dispute. And I know we do not have the final report.
    Dr. Golden. Right.
    Senator DeWine. But I would like to know, at least going 
into the report, how much do you think is not correct----
    Dr. Golden. I really----
    Senator DeWine [continuing]. And which is correct.
    Dr. Golden. Sure.
    Senator DeWine. And then we can go and argue about what it 
means.
    Dr. Golden. Well, I have not seen a late draft. It sounds 
to me as though most of the issues about which we discussed, 
the methodology, have been addressed. I think that the one set 
of things that would be worth our talking about more is that 
some of the GAO information is historical information; that is, 
in a number of areas, because they looked at a sample of cases 
in the fall of 2002, that entered the system anywhere from 1998 
on, some of the information is historical. And that is very 
valuable to us, because it tells us where we came from. But it 
is different currently. And as we have been working it through 
with GAO, we have been discussing that.
    Senator DeWine. I do not know what you mean.
    Dr. Golden. Excuse me?
    Senator DeWine. I do not know what you are talking about.
    Dr. Golden. Okay. Shall I give you what----
    Senator DeWine. Yes.
    Dr. Golden. Okay.
    Senator DeWine. Explain it to a lay person who is not in 
the system.
    Dr. Golden. Okay.
    Senator DeWine. I do not do this every day. What does it 
mean?
    Dr. Golden. Sure. Sure.
    Senator DeWine. What do you mean, historical?
    Dr. Golden. Well, remember that FACES was created in 2000. 
The receivership ended in 2001. And the system was unified, 
meaning that CFSA had responsibility for all cases in about 
October of 2001. So the system changed very dramatically over 
those years.
    Senator DeWine. All right.
    Dr. Golden. What--for a number of GAO's findings, for 
example, case plans submitted in the first 30 days, which is an 
area where we know we need to do lots of work----
    Senator DeWine. All right.
    Dr. Golden [continuing]. As I understand it, the 
methodology was to look at cases in the fall of 2002, and then 
go back and look at whenever they came into the system, whether 
many years ago or recently. And for me, as I think about--I am 
very eager to use all the information GAO has in our reform 
plans. For me, that is a different piece of information, 
because that is about how cases were investigated versus the 
information they have provided me that is more current.
    So when I am providing you and the Court with information, 
I am focusing a lot on the change, where things were in 2001, 
when we had a deeply fragmented system, and what has changed. 
And some of GAO's information is about that, and some of it is 
longer ago.
    Senator DeWine. Okay. But these kids are still in the 
system, though.
    Dr. Golden. That is right.
    Senator DeWine. These are not kids that are gone.
    Dr. Golden. That is right.
    Senator DeWine. I mean, let us make sure we understand. 
When I think historic, when I heard you say historic, I thought 
you meant a kid that was gone, in other words, a kid that was, 
you know, 22 and out of the system and we are not worried about 
anymore. But we are still worrying about these kids.
    Dr. Golden. Right. And we are still trying to improve our 
practices.
    Senator DeWine. Okay.
    Dr. Golden. And so some of the GAO information tells me 
about my caseworkers' practices now.
    Senator DeWine. So this is not ancient history.
    Dr. Golden. That is right.
    Senator DeWine. These are still kids. And we are still 
worrying about them. And we still have a responsibility for 
them.
    Dr. Golden. And we are focusing really intently on changing 
how we serve those children.
    Senator DeWine. Okay. And the fact is, what about the 
statistic that 70 percent of the current cases are not in the 
system? Now what about that statistic?
    Dr. Golden. I believe----
    Senator DeWine. That kind of grabs you.
    Dr. Golden. Right. And that----
    Senator DeWine. Is that right or wrong?
    Dr. Golden. It is wrong stated as you stated it. I do not 
think GAO would state it that way.
    Senator DeWine. Okay. State it correctly then. I am wrong. 
Tell me how I should state it.
    Dr. Golden. Okay. Right now we know where all of our 
children are and who they are. We know a whole lot of other 
information about them. For those children currently in our 
caseload who came into care before FACES or who came into care 
through the Metropolitan Police Department before we were doing 
it, there is information about their early months that exists 
in a hard copy case file but is not in our system.
    Senator DeWine. Okay. GAO----
    Dr. Golden. Is that right?
    Senator DeWine [continuing]. How would you say it? I want 
to get it right now.
    Ms. Ashby. Okay. I think that is true. And I think perhaps 
the issue is the significance of that. It is true that in some 
of the analyses we did, we--in fact, what we did is look at 
active cases in November of 2002, because that is at the point 
we were doing our field work. And we took cases that were at 
least 6 months old at that point. And we tried to determine 
certain things about those cases.
    In some instances, the particular things we were looking 
at, particularly with regard to initial investigations, safety 
assessments and so forth, we could not get that information 
consistently from the automated system, although it should have 
been there. And even in some cases where these cases were 
initiated after FACES went online, the information was missing.
    Senator DeWine. Which is pretty shocking.
    Ms. Ashby. It is surprising. And in not just a few----
    Senator DeWine. I mean, that is surprising.
    Ms. Ashby. Not just a few cases.
    Senator DeWine. I mean, if the case started after the 
system started, you really do not have any excuse for not 
having it in then, it seems to me.
    Ms. Ashby. Right. About half, in some cases. In some 
instances, for specific pieces of information, specific data 
elements or fields, the information was missing for up to half 
of the cases.
    Dr. Golden. If it would be helpful to offer some examples 
of those fields and the timing, because one of the things that 
I know, Senator DeWine, it may be important to you to know is 
how do we compare to other operational information systems 
around the country, and what is it that means that we are 
getting an award or we are in the top half, giving that we are 
missing some fields.
    And just to give you a couple of examples, because with an 
information system it always takes time over the years, some of 
the big changes, when I came in 2 years ago, even though FACES 
was operational, we did not have good data entry. We did not 
know which cases went with which workers. We did not know how 
to count worker caseloads. We did not know which homes were 
licensed. We were not easily tracking worker visitation. And we 
did not have good information on court hearings.
    Today we have good information on all those things 
currently. Some of them are really recent. The court hearing 
information, we just got our automated feed from the Court 3 
weeks ago. So over this 2-year period what we have been doing 
is improving the implementation bit by bit. And I think the 
reason our FACES system is getting that national award is 
partly about where we have gotten to now.
    I absolutely agree that if you look at where we were a 
couple of years ago, there is a lot of improvement that we have 
had to do.
    Ms. Ashby. Well, I would agree there has been improvement. 
And I would also suspect that if you only looked at the last 
year, for example, the numbers would look better. But of 
course, what we were asked to do was, for current cases, to 
look to see what the status of things were. And to only look at 
the last year where there have been improvements would not be a 
correct picture either.
    With respect to the data itself and the data, or elements 
within the data, for children who entered the system prior to 
October 1999 when FACES went online, much of that information 
could still be relevant. These are active cases. And if you do 
not know the history, or you cannot readily obtain the 
history--I will not say you cannot know it, because there are 
case files, although we and perhaps others would like to 
address this as well. We found problems with the case files as 
well. Those are not complete either.
    But much of the data, or some of the data, with respect to 
currently active cases, if that information is not readily 
available to the current caseworker, then that worker does not 
necessarily know what has gone on in terms of prior services to 
that child or that family. Perhaps there has been medical 
interventions that may be lost. It is much more--it is much 
more difficult to use paper case files than it is to use an 
automated system. I mean, that is the difference between the 
first half of the 20th century and the 21st century. Certainly 
an automated system is what you need. With an automated system 
you can do various analyses that you cannot do otherwise.
    For example, it was mentioned the possibility of not 
knowing where a child is, if a child might be in Maryland, in a 
foster home in Maryland, and the system might not know it. 
Well, unless you have a name or an I.D. number to go to a case 
file, you really could not find that out. In an automated 
system, perhaps you could do a search, and you could locate the 
child. So I think it is the significance that we are 
disagreeing on in terms of that earlier data.
    Dr. Golden. And I think it is a challenge in all the 
systems around the country. Because all the SACWIS systems have 
been--I mean, ours is one of the newer ones, so we are pleased 
about where are, given when it was implemented. But only 21 
States have them operational. We are one of those.
    So for all the States that either are as new as we are or 
even newer, they do--everybody faces that challenge of whether, 
when you are looking at something several years back, that 
social worker is going to work from the hard copy record and 
focus their data entry on current or look back.
    Senator DeWine. Let me just ask a simple question. And 
again, I am kind of an outsider here. Obviously, I am an 
outsider. But how long would it take to enter all just the 
current data? You do not have any intention of entering the 
current data. I mean, that is what you are telling me.
    Dr. Golden. I am sorry, Senator. I think we do have the 
current data. I am not understanding.
    Senator DeWine. Well, that is not--I am sorry. That is not 
what Ms. Ashby just told me. She said she has found cases where 
you do not have the current data in there.
    Dr. Golden. Well----
    Senator DeWine. She said she found a case where you did not 
have the current data in there.
    Ms. Ashby. And I think we need to define current.
    Senator DeWine. Well, current, what you told me is after 
the system came up----
    Ms. Ashby. That is correct.
    Senator DeWine [continuing]. Online, you found cases where 
all the data was not in there.
    Ms. Ashby. That is correct.
    Senator DeWine. That is current to me.
    Dr. Golden. Well, we----
    Senator DeWine. I draw the line when the system came into 
effect.
    Dr. Golden. Right. Well, let me give you a couple of 
examples. And they would probably be ones we would work on. One 
example of data that would not be in there even for a few 
months ago would be full and complete data from the Court about 
hearings. Because we are very excited. We worked out with the 
Court how to get that feed from them. And so that automated 
data we would not have been complete until we got it started.
    In some cases, we do go back. In other cases, we work from 
paper records and focus on current.
    Another example would be visits, where we have done a huge 
amount of work in the past few months, because we are managing 
visits very much every week. We are focusing on that. And there 
it is a matter, both with our social workers internally and 
with our contracted agencies, focusing a lot of training on 
getting that into the system.
    There is a tradeoff for those social workers, both in our 
agency and in the contracted agencies, about being up to date 
versus going back and trying to transfer information from their 
paper records for the past. We usually focus on what we think 
is most urgent for improving our practice for children. But 
there is often a tradeoff.
    And I think, again, other jurisdictions that have SACWIS 
systems may not have as many elements as we do current or some 
may have more, some may have fewer. Everybody is making a 
judgment call on how much you can effectively use the automated 
system.
    Senator DeWine. Okay. I think I have beat this enough. I am 
going to turn to Senator Landrieu. I am going to come back. I 
have a lot of questions.
    Senator Landrieu. Thank you, Mr. Chairman. I can sense your 
frustration. And I share some of that, because we do want to 
just try to be as clear as we can, so that we can push forward 
these reforms and continue to try to be supportive.
    Let me start with a bigger picture. Could somebody, maybe 
Ms. Golden, clarify for us the universe of children we are 
talking about today? I have read your statement, and it is just 
not clear to me. And maybe I am not reading it correctly. But 
we are talking about 3,119 children currently in placement, 
plus 2,301 children in families.
    Dr. Golden. Those are end of 2002 point-in-time numbers. 
They are pretty--they have been pretty stable. That is right.
    Senator Landrieu. Well, I just want to clarify that if I 
add those two numbers, that is all the children we are talking 
about. That is it, the total?
    Dr. Golden. Well, the other--that is the number at any 
given point. It is the number of children in placement and the 
number of families we are supervising in their homes. That is 
right. Every month we get about----
    Senator Landrieu. Okay. So just--I do not----
    Dr. Golden. I apologize.
    Senator Landrieu. I just need a number. What is the number? 
It is 31 plus 23 is 54, approximately 5,400.
    Dr. Golden. The number of cases. That is right.
    Senator Landrieu. 5,400 cases.
    Dr. Golden. That is right.
    Senator Landrieu. Now that would be multiple children per 
case?
    Dr. Golden. The way that----
    Senator Landrieu. Yes or no?
    Dr. Golden. In the families, family cases, we count the 
family, when children are at home. But when children are in 
placement, we count every child.
    Senator Landrieu. I am just trying to get a number. I am 
just trying to get a number of the children that we are talking 
about.
    Dr. Golden. Yes.
    Senator Landrieu. So give me an estimate, or a real number. 
If it is 5,400 cases, how many children would you say that we 
are monitoring, either monitoring because they are in an out-
of-home paid placement or monitoring children that are still in 
their families----
    Dr. Golden. Right.
    Senator Landrieu [continuing]. But are being monitored 
because of abuse and neglect allegations?
    Dr. Golden. As you said, Senator, it is about----
    Senator Landrieu. So would I raise this number to 6,500? 
Would it be that many?
    Dr. Golden. The number--the children in the families, as I 
said, we count the children in placement, as do most States. In 
families, I actually can get you the exact number.
    Senator Landrieu. Could I get that?
    Dr. Golden. I would say look at an average of about two to 
three children per family. I think our total--those are 
children who are all in the home. If any child is in placement, 
we count that child separately.
    Senator Landrieu. Okay. The reason I am pressing for this 
number is because I am then going to ask you how many social 
workers you have on staff. And I am going to divide the number 
of social workers and children and come up with the actual 
caseload that we are talking about.
    Dr. Golden. Okay.
    Senator Landrieu. Because there are ways that you can 
determine the caseload, you know, say the caseload is X or say 
the caseload is Y. But the way that I would think would be the 
best way is to take the number of children and divide by the 
current payroll of social workers. So first of all, we know 
whether we are talking about a caseload of 15 to 1, 25 to 1, 50 
to 1, or 75 to 1.
    Dr. Golden. I can tell you that approximately, and then we 
can follow up with a division, if that would be useful.
    Senator Landrieu. Okay. What is it?
    Dr. Golden. The caseload, which does include families for 
children at home--that is the way the modified final order 
counts it, and most places do--and children in placement is 
about 23. The----
    Senator Landrieu. Okay. Then I am going to take that 
number, 23 to 1. But I am going to do the division this other 
way and see if there is a discrepancy.
    Dr. Golden. Right.
    Senator Landrieu. The reason I push this number is that I 
do not think we can get much other reform done unless you get 
that caseload down. Because we are depending on the social 
workers, I would imagine----
    Dr. Golden. Absolutely.
    Senator Landrieu [continuing]. To execute the imputing of 
the data, the visitation, the permanency plans. And so it is 
very important, I would suggest to the chairman, that our 
committee focus----
    Dr. Golden. Absolutely.
    Senator Landrieu [continuing]. On the funding and 
recruitment, or funding necessary and then recruitment, for the 
caseworkers, so that the caseworkers remain, hopefully, 
permanent and not turnover, get a handle on their cases, both 
the back log of the historical cases, as you have talked about, 
and the current, and then try to, you know, manage the reform 
that way.
    Dr. Golden. If it would be helpful--I agree completely with 
that. I think that that is a key area for us. In working with 
the Federal Court on the implementation plan, we have some 
standards that frame our work and a workload study coming up to 
refine those standards. So I would be glad either now or after 
to share with you, we have standards for children in placement, 
we have standards for families in the home, and we have 
standards for investigators, which we are very close to, about 
12 investigations a month. And we have--we have a plan, and we 
have a workload study plan to fine tune that. So that would be 
a wonderful fit with the strategies of the committee.
    Senator Landrieu. Well, I look forward to working with you. 
Now following that up just a moment, because I appreciate Ms. 
Schneiders's testimony so much and was pleased that last year 
this committee actually appropriated $1.5 million for the 
guardian ad litem program, which supports a lot of the work 
that you and some of the other attorneys in the area do. And we 
are very proud of that, because we want to step up the advocacy 
as an independent voice, you know, helping us all to really 
stay focused on the reforms. And we really appreciate the 
contribution that advocates are making.
    But based on the testimony given, are you in a position to 
change the policy that we were talking about, so that it turns 
out to be one child per caseworker, and that children are not 
moved from one type of caseworker to another? Could you comment 
on that? And are you committed to the one child-one worker 
system? And if so, when will it be implemented? And if not, why 
not?
    Dr. Golden. Let me tell you about all the work we have been 
doing that, because that is key. And I just want to note that 
Ms. Schneiders is on our local advisory board. And we had a bit 
of this conversation the other night. And I was hoping we would 
follow up with the names of some of the workers, so I could 
work on the specific cases. So that is still ahead for us.
    But let me tell you a little bit about where we stared and 
what we have done in terms of the one worker-one child.
    Senator Landrieu. That would be fine, except my time is 
just so short.
    Dr. Golden. I apologize.
    Senator Landrieu. I just want you, Dr. Golden, if you 
could----
    Dr. Golden. Yes.
    Senator Landrieu [continuing]. To say do you agree with the 
policy of one social worker per child? And if so, when is that 
going to be implemented for the--have we gotten a number? Are 
we talking about 5,000 children, the 5,000 approximately? I 
will just say 5,000 children under care.
    Dr. Golden. I think that the--I agree not only with a 
worker for a child. But I think Ms. Schneiders' point was also 
to try to make sure that, where possible, siblings have the 
same worker. And so we are focusing on both those things. We 
do--and we have made changes in our structure to make that 
happen. Children used to move back and forth when they went 
from a family to out-of-home care. And we have put together in-
home and reunification units with a goal of addressing that.
    We do still anticipate that when the child's goal becomes 
adoption, it often will be better to have that child's case 
moved to an adoption worker. Jurisdictions around the country 
do that different ways. But I think the experience suggests 
that that really works well, because that way you move the 
child towards placement more fully. But that is one of the very 
specific examples.
    Senator Landrieu. I am not--I just want to say that I am 
not sure that I agree with that.
    Dr. Golden. Okay.
    Senator Landrieu. That is why I want to press this point. I 
am just looking for a time line. As the manager of this agency, 
what is the time line that you have in mind for making sure 
that each of the 5,000 children under your care have one worker 
per child or one worker per sibling group? Do you think you 
will reach that goal in 12 months or 24 months or do you have a 
time line in mind?
    Dr. Golden. Well, each child having one worker, I actually 
do want to find out where the problems are now, because that 
should be consistent now. Sibling groups, I think----
    Senator Landrieu. But you are testifying that currently 
today it should be a policy of a child having the same worker, 
today?
    Dr. Golden. From the point where their case is--where their 
investigation is completed, because we have separate 
investigators who would handle that child's case, who would do 
that the first 30 days, and then hand that child's case to an 
ongoing worker. From that point either until permanence or 
until adoption--now there are lots of reasons why that does not 
happen in terms of turnover of that individual worker. But I 
think, as I understand the question, you are asking if our 
policy is to have a child develop bonds with a social worker 
over that whole period, from investigation until the point of 
adoption.
    Senator Landrieu. Until either reunification or adoption.
    Ms. Schneiders, maybe you could comment about what your 
experiences are. Is that happening? Or do you find--you 
testified that you have a set of twins that each have a 
different worker.
    Dr. Golden. Right. Siblings we have to work on.
    Ms. Schneiders. The problem, as I see it, is that every 
time the child makes a move, there is a--because of the way the 
agency is configured--there is a teen unit, there is an 
adoption unit, there is a reunification unit, there is a this 
unit and that unit. So if one child is moving through these 
units, so they have a worker, the goal is adoption. Immediately 
we refer to the adoption unit. The adoption unit then has a 
recruiter. So then the child interacts with the recruiter and 
goes on Wednesday's Child and all that.
    Once the family is found, the recruiter is gone, and the 
child gets an adoption worker. And then--but the siblings can 
be doing another thing. The sibling can be in a teen unit. The 
sibling can be in residential.
    So what we are proposing is that the family be given a 
worker, who can work with that family, so that----
    Senator Landrieu. Absolutely.
    Ms. Schneiders [continuing]. Around these different issues 
there can be sibling visitation, the parent knows who to call, 
and they are not calling five different workers because this 
child is here and another child is there. And that when a child 
makes some progress, the worker knows the progress and the 
struggles to that progress and can benefit from that and move 
the child to the next level.
    Every time a worker changes, they go back to square one, to 
try to learn the case and learn the facts. And they come to 
court and say: I have only had the case for 3 months. I do not 
know anything about it.
    Senator Landrieu. That is what we are determined to end. 
Let me just state that now. I know the chairman has additional 
goals--we are going to end that system in the District and, as 
much as we can, throughout the child welfare agencies around 
the country. We are going to move to a system where there is 
one worker either per child or one worker per family, that 
knows the child, knows the family, knows the history, and stays 
with it, creating that kind of system.
    I am going to end with this. We are going to minimize the 
number of group homes that exist, maximize the number of real 
families, not to underestimate the contribution that foster 
families make, but to make therapeutic real families for 
children to move into temporarily. And they are either going to 
move back to the family that they came from or move into an 
adoptive family.
    So the business of foster care is going to be eliminated 
over a short period of time. Children will be in real families. 
And the case work has to get down to a manageable level for the 
caseworkers with consistency.
    So I will end on that. Let us continue to pursue with this 
GAO report, Mr. Chairman. It is very disturbing in the sense 
that I know we have made a lot of progress, but this outlines a 
tremendous amount of work that has to be done.
    Dr. Golden. Absolutely.
    Senator Landrieu. This committee is prepared to provide 
resources and guidance and assistance. What I am not prepared 
to do is to wait another 5 years for some of these changes to 
take place. They are too important, and they are too critical. 
And there are children's lives that are in the balance.
    So thank you very much.
    Senator DeWine. Thank you.
    Ms. Ashby, you state in your testimony that many 
caseworkers find the FACES database difficult to use. In your 
research, did you find that this was due to the system actually 
being difficult to navigate, or what was the problem?
    Ms. Ashby. I do not----
    Senator DeWine. Or was it a lack of training for the 
caseworkers or--you know, look, the only reason you go to a 
system like this--I am stating the obvious. But the only reason 
you go to a system like this and put the money into it is so 
that your caseworkers have more time to be caseworkers.
    Ms. Ashby. Right.
    Senator DeWine. And, you know, the same with policemen. You 
have technology so a policeman can be a policeman. And you want 
the caseworker to be a caseworker. And you want him or her to 
have more information at his or her fingertips about the 
client, about the child and about the child's family and get 
that information so you can serve that child better.
    Ms. Ashby. Correct.
    Senator DeWine. Now if the system is getting in the way of 
that or if the caseworker cannot use the system or if the 
caseworker is working around the system, we have a problem. And 
I get the impression we have a problem. So what is the deal 
here?
    Ms. Ashby. All right. I cannot give you a definitive 
answer. I suspect that it is all of the above, that in some 
cases, perhaps, a caseworker is intimidated by an automated 
system. That is not unusual.
    Senator DeWine. Yes. I get that. I understand.
    Ms. Ashby. There is training available, as I understand it. 
And there is actually, I think, up to 3 days training. So I 
find it hard to believe the training is an issue. Time may be, 
the time it takes to gather the information and put it in the 
system. I do not know if access to computers--and I do not know 
if every caseworker has a desktop computer or not. Dr. Golden 
is indicating that that is the case. So access to the computer 
is probably not the problem.
    Maybe it is culture. I do not know. If you have an 
organization that is saying that historical data is not 
important because that was last year or 2 years ago or 3 years 
ago, maybe that is interpreted to mean, well, maybe today's 
data is not that important either, because a year from now, 2 
years from now, that will be historical. I do not know. We did 
not look at FACES in terms of the technical aspects of it or 
inputting data, per se.
    Senator DeWine. Well, let me ask this, and let me again be 
more provocative here, Dr. Golden: When you are--is that a 
problem when your organization is not putting a premium on 
historical information, because you are not putting it in? And 
you are not putting a premium on it, and, therefore, the 
caseworker says: My organization is not paying the money to put 
it in or is not mandating it be put in, and therefore maybe it 
is not important to be put in.
    Dr. Golden. Senator, what----
    Senator DeWine. You are looking me in the eye, and you are 
basically telling me it is never going to go get put in. That 
is the impression, because you have never answered me whether 
it is ever going to be put in.
    Dr. Golden. Senator, let me----
    Senator DeWine. Now have you, Doctor?
    Dr. Golden. I think what I focused on, and it sounds as 
though----
    Senator DeWine. Doctor?
    Dr. Golden [continuing]. I am giving you the wrong answer, 
sir.
    Senator DeWine. Have you ever told me it is going to be put 
in? Please give me a yes or no.
    Dr. Golden. I----
    Senator DeWine. No. I take it as a no.
    Dr. Golden. Right. I mean, I think----
    Senator DeWine. It is never going to be put in.
    Dr. Golden [continuing]. Data from 1998 hard copy records, 
you are----
    Senator DeWine. It is never going to be put in. So that 
caseworker is never going to have that information about this 
child.
    Dr. Golden. The caseworker has the information in a hard 
copy record.
    Senator DeWine. Has to go get the hard copy, which----
    Dr. Golden. Senator, I am glad to go back and talk to staff 
about this issue. But I wonder--what I want to tell you is what 
we have learned, because we have hugely changed social workers' 
use of FACES. And I actually, in my management meeting the 
other day preparing for this hearing, asked people why they 
thought there had been a huge transformation and culture 
change. Because we are--and we are doing that not only with our 
own workers, but with the private agency workers. Because it is 
right, that in the past people did not use it.
    What has transformed that is that not only are we now 
managing it every week, but we have made it easier for social 
workers. We have had a group that meet regularly, that seeks to 
change, for example, the investigations screens, the case plan 
screens, so they are useful to the worker. So we have just 
transformed people's use of it currently.
    I hear, Senator, your concern about whether in our intense 
focus on having people use this system in an up-to-date way so 
it is helpful to them, we have neglected something that we 
should have gone back and done. And I will go back and ask that 
question. But what I really want you to know is that the 
current culture of using the system and of the focus on data at 
every level is just transformed. And our private agencies, we 
have cases managed by our private agencies, when we started 
managing the data, they were looking behind. And they did not 
like to look behind. They think of themselves as doing a good 
job. They discovered that they had big FACES training issues. 
And we went out and did all of that work.
    So I think we have transformed that. And I will certainly 
go back and find out whether, in our haste to really reform the 
current, there is something we should have done differently in 
the past.
    Senator DeWine. Well, if your answer to me would have been, 
Senator, it just costs too darn much money to do it, I might 
understand it. I might not agree with you. But I do not even 
hear that.
    Dr. Golden. I do not think it ever----
    Senator DeWine. I mean, I am not even sure I understand 
what you are even telling me. I am not--I did get a good 
night's sleep last night. I mean, I just do not get.
    Dr. Golden. Well, perhaps I am just hearing wrong somehow. 
I think----
    Senator DeWine. Here is what I am hearing, and take me 
through this. And, look, this is only part of the problem. And 
we have about another hour here.
    Dr. Golden. Right. Of course.
    Senator DeWine. So everybody just relax. We are going to 
have a long time.
    Dr. Golden. Of course.
    Senator DeWine. What I am hearing you tell me is, we have a 
new system. It is a Cadillac system. And it is going to give 
our caseworkers the information they need, which is part of 
what is going to make my caseworkers do their job.
    Dr. Golden. Right. It helps them do their job better and 
help us hold them accountable.
    Senator DeWine. And there is training. And there is a lot 
of things that will make caseworkers do their job better. One 
is training. One is ratio. So that, as Senator Landrieu talked 
about----
    Dr. Golden. Absolutely.
    Senator DeWine [continuing]. So we do not--the casework 
ratio. Supervision. There are a lot of things that would go 
into it. But one would be a computer system that gives me the--
I can download the information.
    Dr. Golden. Absolutely.
    Senator DeWine. Okay. So we are only talking about one 
thing, but it is important, one thing. And what I am hearing 
you say is that I have a new system, but I am only going to use 
part of the system. Each child is only--I am only going to 
retrieve part of the information about that child. And then the 
rest of the information will not be available to me. Now it 
will be available to me, if I go back and look at the file. It 
just seems so inefficient. I do not quite get it.
    Dr. Golden. Well----
    Senator DeWine. And I am not hearing any answer to why you 
are doing it that way. And I would really like to move on. I 
would just like to give you an answer.
    Dr. Golden. Right. I mean I can give you the best answer I 
can. Then I will go back and look. I do not think that it 
ever--as with any system implementation, I do not think it ever 
occurred to us that--we have the basic information about 1998, 
for example, that lets us check past reports. I do not think, 
because I do not think it typically happens when you implement 
a system, that going back, collecting those hard copy records, 
and, if they have information about things like whether there 
was a--how soon the person contacted the child, which may or 
may not be in there. It may or may not be in there 
systematically. We do now know the quality. I do not think it 
occurred to us to try to collect all those records and fill in 
that specific information----
    Senator DeWine. How about if the child----
    Dr. Golden [continuing]. Because we are so----
    Senator DeWine. How about if the child had more--how about 
more basic things? How about more significant--not procedural 
things, but how about basic facts about the child?
    Dr. Golden. Those should be there. Everything about--I 
should not say anything, because, again, it depends on the 
quality----
    Senator DeWine. Would those be the system?
    Dr. Golden. Those should be in the system, yes. I mean, 
again----
    Senator DeWine. Where the child was physically.
    Dr. Golden. That should be there, if it was accurately kept 
at that time. We do not know the quality of work in 1998 or 
1999. So if that is anywhere--but yes, where the child was, the 
age.
    Senator DeWine. Well, I mean, if it is in your hard file.
    Dr. Golden. Right. That should be there.
    Senator DeWine. That is there.
    Dr. Golden. That should be there, unless it was----
    Senator DeWine. That would be in your computer system.
    Dr. Golden. That should be there, if it was in the hard 
copy.
    Senator DeWine. If the child received some sort of 
treatment, that would be in there?
    Dr. Golden. I do not think treatment information would be 
likely to have been very well collected----
    Senator DeWine. Whoa.
    Dr. Golden [continuing]. In 1998 or 1999.
    Senator DeWine. Whoa. Is that not important? I mean, I can 
see----
    Dr. Golden. Right.
    Senator DeWine [continuing]. Notification being important. 
That is procedure.
    Dr. Golden. Right.
    Senator DeWine. But if the child--let us say the child has 
been sexually abused.
    Dr. Golden. Right.
    Senator DeWine. And the child went to see a psychiatrist.
    Dr. Golden. Right.
    Senator DeWine. Okay. Would that not be important?
    Dr. Golden. It would be important. It may or may not be in 
the hard copy record.
    Senator DeWine. Oh, my lord.
    Dr. Golden. It may or may not have been done in 1998.
    Senator DeWine. You are kidding me.
    Dr. Golden. Right. That is an area where we have had to 
make huge reforms, the whole area of mental health services and 
the way----
    Senator DeWine. You are telling me that is not even in the 
hard copy.
    Dr. Golden. It would depend on the quality of the work. At 
that point, sexual abuse investigation----
    Senator DeWine. If it was in the hard copy, would it have 
been transferred to the computer?
    Dr. Golden. I do not know if service information as well 
transferred to the computer, probably not.
    Senator DeWine. Okay. Now that is what I find shocking. Now 
here, let us get to what I find shocking.
    Dr. Golden. Yes.
    Senator DeWine. If it is in a hard copy and it is in a file 
about Jim Smith, a little boy who has been sexually abused, I 
would expect a caseworker to be able to pull that up on a 
computer and to know that the child has been sexually abused 
and has had a psychiatrist talk to him, or whoever the 
counselor was or whatever it was.
    Dr. Golden. Right.
    Senator DeWine. That to me is important. It is not 
important that historically 3 years ago, there was a court 
notification, et cetera.
    Dr. Golden. Right, which is the kind of information that we 
are not updating.
    Senator DeWine. Right. I am not worried about that, 
historically.
    Dr. Golden. Right.
    Senator DeWine. Okay? What I am worried about is that that 
caseworker, who is dealing with that child, knows that that 
child has been sexually abused and knows that that child went 
through a treatment with Dr. So-and-So, so he could pick up the 
phone and call Dr. So-and-So and find out about this child, if 
he needed to do that.
    Now would we agree that that is important?
    Dr. Golden. I would agree that that is important.
    Senator DeWine. And would we agree that that all be in that 
computer?
    Dr. Golden. I agree that if we had that information, it 
should be in the computer. The concern I am expressing is that 
that is an area where I think that the problems back in 1998 
and 1999 went way deeper than the computer system.
    Senator DeWine. Okay. But what you just told me----
    Dr. Golden. I agree.
    Senator DeWine [continuing]. It might be, might be, in the 
hard copy. But what you just also told me is, even if it was in 
the hard copy, it might not have been transferred to the 
computer. That is what I find offensive and alarming. And I 
think you ought to fix it.
    Dr. Golden. Thank you, sir.
    Senator DeWine. Okay. We are going to--and I apologize to 
everyone on the panel. We are going to have to stop. We are 
going to have to recess this for about 10 minutes.
    I have a press conference on missing and exploited children 
in this same building. I am going to try to get to the press 
conference, get back from the press conference. We are going to 
stop this panel. We are going to come back here in about 10 
minutes, as soon as I can get back. And I apologize for that. 
And I will come right back. But it will be at least 10 minutes. 
You can take a break, whatever you want to do.
    Thank you very much. One of the GAO conclusions that I have 
listed here shows only 1 percent of children with the goal of 
reunification had a parental visit at least every 2 weeks. Now 
I find that to be a shocking statistic. Only 1 percent of 
children who had a goal of reunification had a parental visit 
at least every 2 weeks. So that means we have a child, all 
these children, who have a goal of reunification. And yet only 
1 percent of them are seeing a parent every 2 weeks.
    How could that be? How can you reunify a child with a 
parent, and only 1 percent of them are seeing the parent every 
2 weeks?
    Dr. Golden?
    Dr. Golden. That is a huge issue for us. The number that we 
have from the court monitor's report is about 12 percent. So 
that is the court monitor's finding from her review. It was an 
improvement for the year before, but it is clearly completely 
untenable. I agree with you completely.
    What we are doing about it is three or four different 
strategies. One big obstacle was a history in the agency of not 
having community sites for visitation and the logistics of 
parents coming into town and into our building. We have put in 
our contracts with all our community-based partners to 
facilitate and supervise visitation. So we are working a lot on 
community-based sites.
    A second piece of it is engaging the family early. Because 
one of the things that can happen, in the agency's past, we did 
not reach out to family members early on. And that made it much 
harder to engage them later. We are moving towards, though we 
have a long way to go, early case conferences.
    And we are focusing much more in our--both in our work with 
our community partners and with our own social workers on 
building on--once you have all the family members involved, 
then you have to do the visitation. I expect we are also going 
to learn a lot about scheduling, what we need to do to 
accommodate parents' work schedules. I think there is a whole 
set of things. I agree completely that that is an area where we 
have to keep working very hard.
    Senator DeWine. Anybody else on the panel want to discuss 
that issue?
    Ms. Schneiders. From a practitioner's point of view, when a 
case comes in, there is an automatic goal of reunification for 
the child for a period of time until, you know, we work through 
that. And in those cases where there is an automatic goal, not 
a plan goal, but just because it is a new case, it is a goal of 
reunification, sometimes the parents simply do not show up. 
They are still very heavily involved in drugs. So you may 
schedule a visit, but it does not occur. So it constitutes as 
no visit.
    Senator DeWine. Sure. Although--I understand why--you know, 
you have many cases. But 1 percent is an unbelievable figure, 
or even 12. I mean----
    Ms. Schneiders. Right. I was----
    Senator DeWine. Even if it is only 12 percent. I mean, it 
is still unbelievably low to me. But----
    Ms. Meltzer. In our study, 66 percent of the children 
actually had no visit over the period, the first 8 weeks in 
foster care, that we looked at that. So it is a critically 
important issue. It is critically important that the family get 
involved right away with the agency on the development of the 
case plan. And in your own State, Ohio, there is really good 
experience, particularly I know in Cleveland, where they have 
implemented Family-to-Family. For any child coming into 
placement, the agency convenes a family team meeting, with the 
family and the extended family, within 24 hours of that 
decision or before the decision is made. They have found that 
that is a very helpful strategy, because you use that meeting 
to make sure that the placement is one that is the best match 
to the child's needs. You sometimes can avert the placement by 
working with family members to identify family resources. And 
then you set up, at that early point, the visitation schedule 
with the family.
    It is one of the things that we have been talking to the 
District about, either implementing something like that or at 
least convening a family meeting within the first 7 days of a 
child entering foster care, which is the requirement under the 
LaShawn order.
    Senator DeWine. Now I have another statistic here that says 
that 46 percent of foster children have current case plans. 
Could that be right? It is from the GAO report, 46 percent of 
foster children have current case plans. What does that mean?
    Dr. Golden. The court monitor study shows approximately 
doubling on that number over the year, from--to reach a number 
of about half from May 31 of 2001, when 25 percent of foster 
care children and 9 percent of kinship and family services 
children had current case plans, to about 50 percent May 31, 
2002. That is an enormous issue for us which we are working on 
in several different ways.
    One way is the improvements in automation. So both with our 
own staff and with the social workers in our contracted 
agencies, we have really improved the case plan screens so that 
they are very user friendly.
    A second piece of that is the work we are doing to bring 
down the caseload ratios that we discussed with Senator 
Landrieu. A key part of that is not just addressing the 
average, but addressing the issues of the workers who are most 
overwhelmed that Ms. Schneiders described. And so we focused on 
having no one at the top end.
    And the third issue is with the Court in terms of our 
scheduling and work with them. So that sounds about accurate, 
about where we are. We have raised our quality standards at the 
same time. And that is one that we have very ambitious goals 
for ourselves for improving over the next year.
    Senator DeWine. I would like to go through, if we could, 
Ms. Schneiders's recommendations. And the way I would like to 
do it is for her to take about 30 seconds on each one of them. 
She has already done it, but I would like to get us back into 
it. And then I would like Dr. Golden, if you could respond to 
each one of them.
    Ms. Schneiders, you want to do that? I have your written 
testimony. I could read them, but I think it would probably be 
more effective if you just explained each one of them from your 
written testimony. You have nine recommendations. I would like 
to go through each one them.
    Ms. Schneiders. The first one refers to the need for active 
and aggressive recruitment of therapeutic foster homes so that 
there is a pool of families with whom to place children. And 
the children need to be matched with the family.
    I can give an example. Just recently, I have a child who 
requested of the judge in January for a family. The judge 
ordered that a family be found for this child, who was 15 years 
old. Nothing happened until----
    Senator DeWine. Excuse me. I want to make sure I have----
    Ms. Schneiders. It is on page 3 in italics.
    Senator DeWine. Okay. I am looking at a different----
    Ms. Schneiders. I think----
    Senator DeWine. I am looking at your apparently original--I 
do not care how you proceed. But I have your original one. And 
actually, it starts with outside review of reports of abuse and 
neglect that get diverted to community-based services. So I do 
not care which one you go from, but----
    Ms. Schneiders. Okay. I was going from the oral one. And 
the one that I think is in circulation----
    Senator DeWine. Okay. How many do you have in your oral 
one?
    Ms. Schneiders. Pardon?
    Senator DeWine. How many recommendations do you have in 
your oral one? Are they the same?
    Ms. Schneiders. They are the same. There are a few more in 
the full----
    Senator DeWine. All right. You do it however you want to do 
it.
    Ms. Schneiders. All right.
    Senator DeWine. You proceed however you----
    Ms. Schneiders. I will take the ones that are in the report 
that everybody has, just so it will make it easier.
    Senator DeWine. It does not matter. You do it however you 
want. I just want to make sure we are literally on the same 
page here.
    Ms. Schneiders. Well, in the full report there was 
reference to the number of diversion of reports, which I did 
not address orally. So that is problematic.
    Senator DeWine. Okay. Let us do it.
    Ms. Schneiders. That is on page 4 of the full report. The 
concern that those of us who are advocating for children is the 
number of abuse and neglect reports that come into the agency 
that get diverted to the community. They do not go directly to 
the court. They are not papered, as they say in the court 
system. They go back to the community for community service and 
then very frequently will come back to the court at a later 
date when there is a more severe incident of abuse, where the 
community services were inadequate to address that.
    And we are recommending that somebody look at a 6-month 
period or 12-month period and find out, of those abuse and 
neglect reports that came in, that got diverted to the 
community, how many of those came in in worse shape than they 
were originally when the first report was made. And that if the 
community agencies are not able to really respond to and 
support these families at that level, and the children are 
getting re-abused or more severely abused, then we need to look 
at that diversion strategy to--it is an effort to keep children 
in their families. And I understand the rationale for it. But 
it----
    Senator DeWine. I am not sure I understand. Give me an 
example. What happens?
    Ms. Schneiders. 10:30 at night, a call comes in, a child 
who has been, you know, abused, sexually abused, physically 
abused, whatever. The case, which normally would have been 
brought to the court the next morning and papered or petitioned 
as a neglect case, brought into the system and followed the 
normal route. The decisions that are being made at the front 
end that a collaborative, a community-based, service agency 
could handle that case. So the case then gets sent the 
following morning back to the community, to a community 
collaborative, a community-based program, to say we have a 
report of abuse, go see this family, look into it and see, you 
know, can you provide family services or can you provide, you 
know, something else.
    The decision making as to how serious the report was and 
how serious the--or how much service is needed is left at the 
front end of the referral process. So the case goes back. It 
may stay in the community for another 3, 4, 5, 6 months. And 
then we get it back again with a more severe incident of abuse. 
And then it gets put into the court system and into the foster 
care system.
    Senator DeWine. So your recommendation is what?
    Ms. Schneiders. My recommendation is that there be, whether 
the GAO or somebody look at all of the referrals that are 
coming in and being diverted back to the community before they 
are brought to court, to see if in fact this is an effective 
strategy to divert them to the community or are children 
suffering greater harm than is necessary, if they had been 
brought in to the court, looked at it, monitored it for a few 
months, and reunified.
    And that that effort that we are doing right now of bring 
it in, petition it for the court, let a judge take a look at it 
and have, you know, some advocacy there, and reunify the family 
quickly through the strategies that we have, may be safer for 
the child than one worker in the intake department making that 
decision on his or her own, sending it to the community, and 
we----
    Senator DeWine. So the current system is--my background is 
a criminal justice background. The current system is what, sort 
of a diversion system?
    Ms. Schneiders. It is a front end diversion.
    Senator DeWine. I mean, it diverts it out and never gets 
into the system.
    Ms. Schneiders. That is right. That is right. It keeps it 
at the community. So maybe some of those families that are 
being counted where there are services being provided in the 
community to the family, which is a good thing--I am not saying 
we should not provide services to families at the community 
level.
    Senator DeWine. Right.
    Ms. Schneiders. But there needs--we need to look at who is 
making the decision about the safety of the child in 
determining that the case does not need to go to court.
    Senator DeWine. Well, who is the best person to monitor 
that, though?
    Ms. Schneiders. Well, I do not know. I do not know who is 
monitoring it now. I mean, I know the authority to make the 
diversion is at the point of intake. I do not know if there is 
a case review or a strategy. I know that the cases are not----
    Senator DeWine. Dr. Golden, how do we know that is working?
    Dr. Golden. I guess two things. The first----
    Senator DeWine. Who monitors that?
    Dr. Golden. Who monitors how we do our intake and 
investigation and those choices would, I think, be two or three 
different places. One would be the supervisory chain. That is, 
the intake worker making that decision with their supervisor 
and their program manager. In many cases, there is a--they have 
a risk assessment. And they are also trying--this goes to what 
the court monitor said a moment ago about actually, I think, 
probably our problem in the District compared to other 
jurisdictions is that we do less of that than many places, 
rather than more.
    So we are trying to draw in the community and the family. 
In many cases, though, rather than divert right away, we would 
have that community, we would have that meeting with the 
community and the family. And then our worker has to make the 
judgment about the seriousness. They are making it within ACC, 
typically with a corporation counsel. So there is that piece.
    In addition, we are doing a variety of outside reviews. We 
obviously have our court monitor, who looks at our practice. We 
have just had a look at our placement practice in general by 
some of the national experts, including Judith Goodhand from 
Cleveland. So I actually--I think that their overall advice is 
actually going to be that the District has been behind on 
getting support in early. But I will note that concern and make 
sure we look at both sides of it.
    Ms. Meltzer. I am not sure that I actually agree with the 
description of what is happening that Ms. Schneiders has 
presented. My understanding of the emergency assessment program 
that is in place is that the only cases that are being diverted 
are cases that do not rise to the level of substantiated abuse 
and neglect. They are diverting cases that are the borderline 
cases, trying to get some community services in place to 
support the family to prevent some of these cases which 
otherwise might have come into the system.
    Senator DeWine. Oh, okay.
    Ms. Meltzer. Now the bigger question, I think, that is 
raised, is the importance of looking over time at repeat 
reports. These include cases that have been served by the 
system and then are closed and then you have a repeat incidence 
of maltreatment, as well as cases where that was never 
substantiated and you have a repeat maltreatment report. 
Looking at repeat reports and cases is work that the agency has 
to do through its own quality assurance process. And it is a 
part of the work that we will do in monitoring the quality of 
investigative practice.
    Senator DeWine. Well, would you agree with that, Dr. 
Golden?
    Dr. Golden. Yes. And I think that we are in fact, as Ms. 
Meltzer has highlighted, we divert without our involvement 
where we think it does not meet the threshold. We also are 
trying to get community supports in, even if we are going to 
keep going with it, because we might, for example, identify a 
family member who could be a caretaker for that child. And I 
agree with those ways of monitoring.
    Senator DeWine. What is your system to go back and figure 
out how many of those cases that you made a mistake on? And you 
are bound to make mistakes. I mean, everybody makes mistakes. I 
mean, this is an art. This is not an exact science.
    Dr. Golden. Yes.
    Senator DeWine. I mean, you make a judgment call that this 
is not a--that it does not rise to an abuse case. This is not 
an abuse case. This was not an abuse case. And you go back and 
look and you say, well, obviously it was.
    Dr. Golden. Let me tell you about----
    Senator DeWine. We missed that one.
    Dr. Golden. Right. I think there are several pieces to that 
process. And some of them are not finished yet, which is why in 
all of these I am telling about a work in progress. Because, 
remember, up until 18 months ago, we did not even do the abuse 
investigations. Those were with the police. And now we do.
    The first thing is that in any abuse case where there is a 
concern that it might rise to also having a criminal side, we 
would be jointly investigating with the police. So that is 
important to note. But second, in a case where, in terms of how 
we are doing and are we making mistakes, the initial review is 
the supervisor signing off and the program manager and the work 
with the attorney. Then there has to be the quality assurance 
look and review, where we are both looking at data and going 
back and looking at a sample of cases. We are in the process of 
picking across everything we do in the agency, where are the 
most important places to focus that.
    I think the other key safety net is that for those cases 
were someone in the community is involved, we are also 
constantly talking with them in terms of if they see something 
that is getting worse, that they need to bring back to us. So I 
think you always having to be looking at both sides in order to 
make it better.
    Senator DeWine. Do you want to proceed to No. 2 of the 
recommendations?
    Ms. Schneiders. The second recommendation refers to the 
need for CFSA to pursue justice for children through criminal 
prosecution of those children who are physically and sexually 
abused. I can speak to any number of children that I represent 
where the child has been physically abused in the home. I have 
one case where there are three children in the home. One was 
sexually, was burned and shot. The third child was scalped. And 
there had been no criminal prosecution of those cases at all.
    There was another retarded child that was sexually abused 
in one foster home, sexually abused in a group home. And we 
finally got him into a therapeutic foster home. There has been 
no prosecution of that case. And the rationale is they are 
young, they are retarded. And so--and it is difficult to do.
    But that CFSA has all of these corporation counsel within 
their building even under their control, I think injustice to 
children, there needs to be more prosecution of these cases and 
more aggressive, you know, digging for the facts that can 
actually prove that this child was in fact harmed. The staff 
get fired, and they go off into the sunset, and nothing is done 
to prosecute any of the people who are responsible for these 
abuses.
    Senator DeWine. Dr. Golden?
    Dr. Golden. I would very much like to see those examples, 
because it is very distressing to me if the police or the U.S. 
Attorney's Office were not proceeding to prosecute. We, I 
think, would be comfortable advocating with them. I really feel 
our relationship with both the police and the U.S. Attorney's 
Office, which does prosecutions, is quite strong now. So I 
would like to see those examples.
    Ms. Schneiders. Because in the 10 years that I have been 
practicing with this system, I have never had a case of 
physical or sexual abuse prosecution by corporation counsel.
    Dr. Golden. Well, the prosecution is not by the corporation 
counsel. It is by the U.S. attorney. But I have been in--
because now with the stronger relationships that exist, DCAC, 
the Joint Advocacy Center exists to go to address all of those 
cases where prosecution is potential. I actually, from my 
experience of observing that, had the sense that the issues 
that there might have been with the police and the U.S. 
attorney, in terms of making sure we coordinated well, were 
better. So I need to know about those cases. And we will find 
out if we need to advocate for them.
    Ms. Schneiders. Well, the two cases that I cited were both 
seen by the Children's Advocacy Center. The children were 
interviewed. And the case was closed.
    Senator DeWine. Are these current?
    Ms. Schneiders. Pardon?
    Senator DeWine. How long ago were these cases?
    Ms. Schneiders. These are still active cases. These are----
    Senator DeWine. I mean, how long ago did the criminal act 
occur?
    Ms. Schneiders. In the child that was scalped, she is now 
3. It happened when she was 6 weeks old. So it is within a 2- 
to 3-year period.
    Senator DeWine. Okay.
    Dr. Golden. So it would be useful to know----
    Senator DeWine. But what Dr. Golden is--what I am hearing 
her say is that she believes that the relationship between her 
office and the U.S. Attorney's Office is better.
    Is that what you are telling me, Dr. Golden?
    Dr. Golden. Yes. So I would want the information, to 
understand why they did not choose to prosecute or what the 
issues were. It would help us to have that information.
    Ms. Schneiders. The third recommendation is that CFSA needs 
to invest in active and aggressive recruitment of therapeutic 
foster homes. And I started to give the example of the 
youngster in January who asked for a foster home. The Court 
ordered the foster home in January. In March, we were told that 
there were no homes in the system that this child could go to. 
The judge issued a show cause. CFSA came to court and said, 
``We have one home with one bed in it. And we're going to put 
him there.''
    And I raised the question as to whether this was a good 
match, should this child be in this home, did they even want a 
15-year-old. In looking at it, they didn't want a 15-year-old, 
but they were kind of pressured to take the child because they 
had the only available bed. The child ran away within 4 days 
and is currently back in a group home facility in April. And 
there is no home available.
    And, you know, with the number of children coming into 
care, I think we really need to have a pool of homes available 
so that we can find the right home for the right child and hope 
that one placement will be all that is needed and not two or 
three bounces before we get to a match.
    Senator DeWine. Doctor?
    Dr. Golden. I agree that recruitment of foster homes that 
can meet the needs of our children and support of those homes 
is really critical. My testimony has an example where that has 
made a big difference for a child, because we have been really 
focusing on foster homes, rather than group care, which is the 
past history for many years at the agency.
    And the example in my testimony was a child who had been in 
many residential and psych hospital placements. And through a 
new process that draws in the Department of Mental Health we 
were able to stabilize her in a foster home. And you and I have 
talked about following up on this case.
    But I agree completely. And I think that the successes we 
have had in sharply reducing the number of young children in 
group care come in part from supporting foster homes better, 
though I think they also come for identifying kin support. So 
this is a very important area for us to keep working on.
    Senator DeWine. How many foster families do you need?
    Dr. Golden. We actually are working this year on a target 
with the District--this is just in the District. We also have a 
lot of children in homes in Maryland--by the end of this fiscal 
year between 50 and 100 additional families in traditional. 
That is not counting the therapeutic we are talking about here. 
And we will learn, as we go through that process, we probably 
need more than that over time. We now have----
    Senator DeWine. Well, that many more or how many do you 
have altogether?
    Dr. Golden. Our total right now--the numbers in my 
testimony are in the District. And then I can give you broader 
ones. The District numbers are about 150 traditional foster 
homes, more than 300 kin homes. And just as a side point, the 
other point in my testimony, the other story, is about having 
greater success as we work with families earlier at identifying 
kin who will care for children.
    But if you look totally in the District and Maryland, both 
within our agency and contracted, it is 900 to 1,000 foster 
homes, including all the kinds.
    Senator DeWine. And how would that breakout be between the 
District and Maryland?
    Dr. Golden. Let us see. It is about half and half, a little 
bit--I am looking at which of these are active, but roughly 
half and half between the District and Maryland in terms of our 
number of foster homes. We are working very hard to recruit in 
the District. That is why I told you our target for increases 
in the District, because we think it is generally better for 
children to be in homes in their community. But we have also, 
as I think you heard in the GAO's testimony, signed an interim 
agreement with Maryland, which actually helps both the 
jurisdictions. It is about both making sure that we are able to 
have them do what we need them to do in terms of support in 
Maryland about meeting their needs and the children's needs 
while children are in Maryland.
    Senator DeWine. And you have no agreement with Virginia?
    Dr. Golden. We actually had a terrific meeting with 
Virginia in the fall. And for a variety of reasons, in terms of 
their timetable, our next meeting is now set up for several 
weeks from now. We have a meeting scheduled for later this 
month. And with Virginia, they are interested in expanding the 
interim agreement with Maryland, which focuses on foster care 
placement, on criminal record checks of potential foster and 
kin placements, and on an abuse and neglect investigation. I 
think with Virginia we are also interested in talking about 
some adoption-related issues.
    Senator DeWine. Ms. Schneiders, do you want to continue?
    Ms. Schneiders. The fourth recommendation refers to the 
need for services for children. Children coming into foster 
care as abused and neglected children are almost universally in 
need of therapy to deal with the loss of the parent, the abuse 
that they suffered. They also are very frequently children who 
are behind academically, who need tutors.
    At the present moment, we can get a tutor for 1 month. And 
then it has to be renewed for the next month and renewed for 
the next month. And we do this on a monthly basis, which delays 
time. It disrupts the tutoring, because the tutor is not 
available while the referral process is going on.
    Mentors are only allowed on a 3-month basis. So a child 
forms a relationship, and the mentor either has to leave or be 
renewed. I know it is an effort in monitoring costs and all the 
rest of it, but it is very disruptive to the services for the 
children. And unless--I now know that I immediately ask the 
Court for an order for a 6-month tutor or a semester for a 
tutor. Because if I get it in a court order, I will get it. But 
if you just simply ask the agency for a tutor, you get it on a 
monthly basis. If you ask for a mentor--I ask for a mentor now 
for a year. But it has to be done by court order in order to 
get it, rather than getting it through the agency. And I think 
the agency needs to acknowledge that these children need the 
services and leave it to the judgment of the social worker as 
to whether the tutor needs to be for a semester or a year.
    Because this is where some of the problem comes with the 
workers and the amount of time they spend doing these 
perfunctory types of re-referrals month after month after 
month. And yet we know the children need the services. And we 
know 1 month of a tutor is not going to do any good. And the 
recommendation basically is that services be readily available 
to these children on a consistent basis and not in the 
fragmented way in which we are currently doing it.
    Dr. Golden. Let me comment on the overall recommendation 
for services, and then specifically on mentoring and tutoring. 
We have talked a little bit. There is a set of very particular 
contractor issues there.
    In terms of overall services for children, one of the 
things that was most clear to me when I came and that I think 
is clear as we develop the implementation plan for the modified 
final order is that the District's history of not having 
services for children and families has been pervasive across a 
range of services, including in terms of dramatic needs of our 
children's mental health, because the District has not had a 
child and family mental health system.
    That agency is coming back from receivership, did come back 
for receivership at the very same time as we have. And we have 
pushed intensively with them to build that network and have it 
be there for our children. And again, there are some examples 
for particular children in my testimony.
    We know and they know that we have a long way to go. For 
example, one of the things we really focus on is having a child 
be able to have an appointment for therapy regarding the trauma 
that they experienced during their abuse as quickly as 
possible. And what we are finding, as we start tracking that 
and looping back to the Department of Mental Health is that 
sometimes there are process steps they can do, but sometimes 
there is just issues of capacity, of having the person 
available. So that is an area that we are working on with them 
very intensively.
    In terms of mentoring and tutoring and other services, we 
are doing a big contract reform. We are trying to get more of 
our dollars into the front end services for children and 
families. Specifically in mentoring and in tutoring, we have 
had contracts with a relatively small number of companies. We 
are trying to enlarge and broaden, increase the use of 
volunteers in some of those areas. And we have also had 
concerns from some about quality and appropriateness. So we are 
trying to review them better.
    We had a lot of comments on our draft proposals. I have not 
had the chance, I do not think, to see any comments from Ms. 
Schneiders. And I would like to seek you out after this and 
make sure we have those. But our general direction there is 
that we are trying to broaden the range of possibilities, 
include volunteer as well as paid, and make sure that the 
mentoring is appropriate and that we are looking at it to make 
sure that it is good quality.
    Ms. Schneiders. That does not address the issue, though, of 
needing to get a tutor and then re-get a tutor and re-get a 
tutor, whether having a tutor for a month and having a mentor 
for 3 months, which is a current policy, is really in the best 
interest of the children. Because once the tutor stops and we 
do the reapplication, you may get another tutor. And then that 
one stops, and you get another tutor. So the disruption and the 
fragmentation is very problematic to the children that are 
trying to use these people.
    Senator DeWine. All right.
    Ms. Schneiders. The fifth recommendation regarding the--it 
may not be within the purview of this committee. And that is 
the dismantling of youth forensic services, which was an 
excellent service for children and for the Family Court, where 
we had trained people who understood the court system, 
understood child development. And that whole unit right now has 
no psychiatrist, one unlicensed psychologist and one licensed, 
and three social workers. So it is virtually useless in terms 
of getting quality assessments of children.
    The current problem with Child and Family of getting 
current assessments is finding people who are qualified to 
evaluate young children.
    Senator DeWine. Excuse me. That unit is under what?
    Ms. Schneiders. I think it was under the Commission for 
Mental Health. But Child and Family used it through the court 
system rather extensively. And we got very good, comprehensive 
evaluations of children and their parents. And now we are just 
scattered all over. And the people that are currently 
evaluating children very often have no knowledge of child 
development and the types of therapy that children benefit most 
from.
    And as I said, I am not sure that the family has any 
control over that. But it is a serious concern.
    The sixth recommendation and the ones that follow all 
relate to the whole issue of the adolescent. And I think this 
is a population that is very badly neglected in the Child and 
Family Services. A lot of emphasis has been placed on adoption 
and reunification of young children. But the child who gets 
past the adoptable age and the child who gets into the 
adolescent age because their parents are not ready to, or have 
not made the progress, and so they end up at 14 up to 21 really 
children in limbo in this city.
    They are youngsters--currently, the legislation says that 
children can be or should be kept in care until age 21, 
although they may be emancipated at 18, if in fact they are 
ready. That is a very human and responsible and necessary 
element of our law that needs to be kept in place. Trying to 
reduce it to age 18 is unconscionable. These children--our own 
children are not ready at 18. And I think if we did a poll of 
people in this room who had children 18, they are still at 
home, they are college hoping they will grow up, they are in--
they may be there until they are 25 or 30. And they have had 
good nurturing homes.
    To say that a child who has been abused and neglected and 
bounced around foster family to group home to residential 
treatment to psychiatric hospital are somehow going to be ready 
at 18, or even 21, to then go out and be independent is just--
it is a myth. And the children who leave the system are not 
generally prepared to do so.
    I had one youngster who joined the Marines. And she has 
done very well. And I watch for her on television every day 
now, as we proceed through this war. But two youngsters this 
month, one, as I said, is currently homeless. She called me two 
nights ago to say, ``Ms. Schneiders, where can I?'' We knew she 
had no place to go. But she was 21. Her case was closed and 
nothing was done to guarantee that she had housing or a means 
of support.
    The other youngster has two children. She was given the 
Salvation Army Shelter and a list of city shelters to go to. 
She is, you know, currently staying back with her abusive 
father until she can get into the shelter.
    The housing situation is critical for these youngsters. And 
CFSA does get a handful of vouchers, I think it is like 100 a 
year, from the Federal Government. And that is referred to in 
one of the recommendations where the--the vouchers that are 
given to CFSA right now are all allocated to parents who are 
trying to reunify, which is a good thing. I am not negating 
that. But we should not take the parents who have abused these 
children and give them housing and take the children who have 
been abused and put them on the street. There is something 
wrong with that logic.
    And we do not have a mechanism and Child and Family for 
guaranteeing that our children who emancipate are safely cared 
for at that point. And I would ask that a serious look be made 
at how they are emancipated, what the housing situation is and 
the employment. We do not help them get jobs at the point of 
emancipation to make sure they have an income. We send them to 
TANF. We tell them how to get food stamps. And I think that is, 
you know, just an unacceptable way of emancipating our 
children.
    Senator DeWine. Dr. Golden.
    Dr. Golden. At our last local advisory board meeting, we 
talked about the fact that we all think we need to be working 
in stronger ways with adolescents. One of the effects of the 
past history of this system and of the District's very broad 
policy is that compared to other States we have a very large 
proportion of young adults. We have about 13 percent of all the 
children in our caseload are young adults 18 to 21. And we 
talked about asking Ms. Schneiders and others to help us work 
on that system. And I know I appreciate her commitment to do 
that.
    The District--we are supporting the current law, which 
continues services to children until 21. We are very unusual 
compared to other States. Most States have some kind of 
voluntary commitment arrangement between 18 and 21. And at one 
point, we were talking about that. We got input that, given the 
history of our young people, having that arrangement from 18 to 
21, being voluntary and not court supervised would be a bad 
thing to do here. And so we heard that feedback.
    I think the issue for me is that we are--again, it is 
looking at the effects of all of these years and of the 
District's absence of services as a whole. We have to do better 
for the young people coming into the system, so we do not have 
as many young people who are 18 and have spent 2 years, 10 
years, in the system. And at the same time, that is one of the 
challenges of this moment in reform, we have to be changing the 
front end, and we have to be taking seriously the needs of the 
young adults in the system at a time when the District as a 
whole faces a lot of big problems that really hit them hard, 
like housing.
    And I know, Senator DeWine, in your focus on the District's 
appropriation as a whole, a lot of these are about the pieces 
that we need in place. What we are working on right now is 
trying to improve the years 15 to 17, independent living and 
skills and support for young people. And I think we are also 
planning to staff several months before aging out, young people 
who are about to turn 21. We are planning to work with the 
collaboratives and our community partners on what they can do.
    But I think this is a hard one. And I really want Ms. 
Schneiders and community help as we think it through.
    Ms. Schneiders. When I think of the vouchers that the 
agency gets from the Federal Government, a percentage of them 
need to be reserved for the children who need them, as well as 
for the parents who need them. I do not think 100 percent of 
them need to go to the parents solely. I think we need to say, 
these are our children, we are the surrogate parent, and we 
need to allocate a percentage of those for the children. Not 
all the children need them, but some really do need that front 
end help. And that is referred to in recommendation 7.
    Senator DeWine. Let me just interrupt a minute, because I 
want to make sure I understand the testimony.
    Dr. Golden, Ms. Schneiders in her written testimony she 
says, ``CFSA is now proposing to reduce the age of emancipation 
to 18 instead of the current age of 21.'' Is that true or not?
    Dr. Golden. It is no longer true. As we had let her and 
others know----
    Senator DeWine. That is no longer true. Okay.
    Dr. Golden [continuing]. We had discussed that idea, 
because we felt as though some kind of voluntary arrangement 
might work better. We got feedback from Ms. Schneiders and 
others saying it was a bad idea. And we are no longer proposing 
it.
    Senator DeWine. Okay. So that is not true anymore.
    Dr. Golden. It is not true anymore.
    Senator DeWine. Okay. Got it.
    Ms. Schneiders. In recommendation 8 we are recommending 
that CFSA design an integrated program of services that are 
staffed with persons who know how to engage young adults in 
meaningful activities and to include the young people in 
participation in this. I think we need to have a mechanism from 
hearing from these 18- to 21-year-old youngsters of what do 
they need, what do they find helpful, and what will get them 
ready. There currently is no mechanism, although I have 
proposed it on other occasions that there be a task force of 
young adults in the system as to what they need in order to be 
prepared to leave the system. And we still would strongly 
recommend that they be involved in that process.
    Dr. Golden. I have been meeting, though not as regularly as 
a task force forum, with a group of young people in our system. 
And I agree very much that their perspectives are very useful 
in shaping where we go.
    Ms. Schneiders. And then the final recommendation in this 
section is that there be some form of an aftercare department 
for these youngsters. They do go out at 21. They think they are 
ready. They try to do something. And then everything falls 
apart. And then end up on the street. They end up in a shelter 
or nowhere. And they need to be able to come home.
    If they have lived their childhood, as some of these 
children have, at Child and Family Services, they should be 
able to come home to Child and Family and ask for help in an 
aftercare type of arrangement, just as adoptive parents very 
often do. There is an aftercare for adoption. Adoptive parents 
think they know what they got into when they adopted. They run 
into trouble. They can come back and ask for help. And our 
children should also have some place, some department, where 
they can come back and say I am stuck, I need help, you know, 
to get me out of the predicament at this point in time. And I 
would strongly recommend that that be considered.
    Dr. Golden. I mean, it is interesting, because I think 
about that recommendation a little bit from my experience at 
the national level. And I remember how much difficulty we had. 
I mean, many States just go through 18. Other States do the 
voluntary involvement between 18 and 21. The District is one of 
I think not very many that support all children through 21. 
There is not Federal reimbursement for that period from 18 to 
21, which is another issue the committee may want to consider.
    So I think the question of what we can do after 21 and how 
to do it is a hard issue for us and a hard issue everywhere. We 
are trying to--I mean, in some ways the only answer in the long 
run is that children need to be in families. And we need to not 
have children aging out. So that is, I think, the longer run 
answer. But for these young people, where we are going right 
now is trying to build those links to the community better, 
having it in our contracts with our collaborative partners, 
``aftercare,'' as you described, building mentor and family 
relationships in the community that will endure.
    So that is the direction that I have been thinking about. I 
do not know if there is any more formalized direction. And as I 
say, I do think that there is an issue nationally even in 
getting support in a voluntary process beyond age 18. So I 
think we have to fix it so kids do not get to that age in that 
situation. And at the very least, we have to build community 
connections.
    Ms. Schneiders. The final recommendation is one that 
Senator Landrieu also referred to, the one case-one worker 
policy and the reduction of the number of children. And I keep 
emphasizing that we need to count children, not families. 
Because families can range from one child to eight and ten 
children in a family. So I do not think it is justified to say 
one case-one family, so much as we need to count the children 
that these workers are responsible for.
    And I think if we can get that policy in place with the 
reduction of the number, that no worker should have more than 
20 children that they are responsible for, then we might get 
the data into the computer that we were talking about. But 
right now, when they are carrying 30 and 40 and 50 cases and 
doing IUPs and treatment team meetings, they are not getting 
data into the computer, even for current data, let alone any 
back data.
    Senator DeWine. I am intrigued by your comment, the 
continual reorganizing of the agency is counterproductive. What 
do you mean by that?
    Ms. Schneiders. It seems as if there is a continual 
process. Like about 2 months ago, the agency reorganized 
everybody in the building on a given day, changed places, 
changed locations, changed phone numbers, changed supervisors, 
changed, you know, units, changed everything. The elimination 
of one unit and its consolidation with another, it simply 
causes confusion. And you call a worker and then you find out 
that, well, I am no longer the worker because I am now in this 
unit versus that unit. And you ask for the rationale for it, 
and it is just: Well, we are reorganizing. We are, you know, 
eliminating this department, adding this department.
    There is no notice to the other service providers. You find 
that there is no way to reach people with phone numbers. I mean 
it is--foster parents, generally they call me to say: I do not 
even know who my worker is anymore because I got--you know, I 
called and the message says she is not the worker anymore; she 
got moved to another unit.
    I do not know the rationale. I hope maybe the last 
reorganization may be the final one, but I am not overly 
hopeful that is going to be the case.
    Senator DeWine. Dr. Golden?
    Dr. Golden. I am really sorry, Ms. Schneiders, that we did 
not have a chance to talk when you had that concern, because 
that definitely sounds like something we should have explained 
more fully. Each of the--solving each of these problems, moving 
towards one worker-one case, unifying abuse and neglect, 
correcting our placement process has required that we have made 
changes. We have created a whole new department of clinical 
practice so that we have support for our workers. We have 
created for the first time ever in the District an 
institutional abuse unit. So we are able to look into reports 
of abuse and neglect. We have created a whole new licensing 
process, which was not--we did not have as a--did not exist in 
the District before.
    We have just improved our placement process for exactly the 
set of reasons that you have highlighted, because we want to 
make sure that children go to families. So we have changed 
that. And we did because we have also been hiring social 
workers so fast, we did find ourselves in a situation where we 
needed to do a move so people could be physically lined up with 
their units, because we are squeezed into our building, and we 
did have to do that.
    So I guess what I would say is that I think the amount of 
change we have to do is very great. And I think that that 
requires in some cases structural change, as well as hiring and 
support for families. And we--I mean, I think that the pace of 
change--and that is probably what my testimony highlighted. 
Partly, I think, what you are experiencing, I am experiencing, 
our staff, our foster parents, is that to meet the standards we 
have for ourselves, the court, and the committee have for us, 
it has been a phenomenal pace of change in 18 months. It has 
been creating an agency where there were fragmented pieces 
before.
    And the question of whether that will slow down or whether 
the amount of change we still have to do is going to be an 
equal pace actually is something I am reflecting on now. And we 
have been having lots of dialogue with the court monitor's 
office on the implementation plan. But I think that our big 
goal has been to make sure that each of those new 
responsibilities, that we are able to carry it out.
    So that is kind of core to me in terms of which steps we 
take, in which order, and at which pace.
    Senator DeWine. Do you want to comment about Ms. 
Schneiders's goal in regard to children versus families?
    Dr. Golden. Sure. And I might ask the court monitor to come 
in after that. I think that the reason both we in many 
jurisdictions focus on children in placements, and families in 
the home, is because the social workers work when a child in 
placement involves visiting and working with that child very 
intensively. When they are supervising a family, their goal is 
really for what we hope is a relatively short period of time to 
strengthen that family so that the parent can take back their 
role.
    So that is, I think, the reason behind it. We do--one of 
the things that goes with that is that you do not want workers 
to have a lot of family cases. And the standard--because they 
are very demanding. And so the standard in the modified final 
order is very strict for how many cases a worker ought to have. 
I think that we have the chance over the next year, as we bring 
down caseloads, to do a workload study and try to see if there 
is a better way to count.
    But I think the big headline, which I think is probably the 
most important one, is that the way we are getting a handle on 
what has been a huge issue for years is by working every week 
with a count of cases and workers working directly with the 
social worker and the supervisor and focusing first on the ones 
who are at the top end, so that we had a few months ago had got 
down to nobody over 50 this week to nobody over 40. And so we 
are focusing on the people who are most overwhelmed to try to 
make an impact there first.
    I do not know, Judy, if you want to----
    Ms. Meltzer. The modified LaShawn Order has caseload 
standards which are based on the Child Welfare League of 
America standards. And they are: 1 worker to 20 children for 
children in foster care, although they are 1 to 12 for children 
with special needs. They are 1 to 17 for families, when the 
children are in their own homes with their families. And they 
are 1 to 12 for investigations. Those are the standards that 
the District has to comply with. And the hiring has to match so 
that they can get caseloads down to those caseload standards.
    I personally think that when you are doing work with 
families, you want the caseloads organized around the families. 
But what you want to do is have the caseloads low enough so 
that the worker can deal with both the needs of the individual 
children in that family and the whole family.
    The place where caseworkers complain the most is when one 
child is in placement. So it counts as one case on their 
caseload, if they are a foster care worker. But there may be 
three or four children in the home with the family that, for 
reasons that may or may not make sense, they are not in foster 
care or they are not being served. And it is those situations 
where I think caseworkers feel the most burdened.
    The answer for me is caseloads that are low enough so that 
workers can individualize the services to the needs of those 
children and families.
    Dr. Golden. And actually, one important step in terms of 
just counting in a way that feels more responsive to our 
workers is that in that situation you have just describe with 
the child in foster care and a family at home, for a long time 
that was a big issue with our union and our workers that we 
were not counting the family work. Now we do, because that 
worker is responsible for a child in placement and for 
reunification. So they have to be doing work with that family. 
And that should count. So we do count that.
    Senator DeWine. Ms. Schneiders?
    Ms. Schneiders. What we need to keep in mind is that when 
we have one child in placement and three at home, the three at 
home obviously something was amiss in that family which brought 
one child into care. And therefore, that family needs closer 
monitoring. With the three children at home, you know, it can 
run the range of disability or need for service. They can be in 
different schools. They can be--one needs therapy. They can be 
different ages. You can have a disabled child at home, even 
though it is not brought into care.
    So I think there has to be some look at what is asked for 
in that family, what is needed in that family, not just a 
numerical count that meets a standard. So that when workers are 
complaining at the amount of work they have to do with the 
family, it can be three children in a family or eight children 
in a family, as we have any number of families with large 
numbers in them. And it counts as one. And I think there has to 
be some method for looking at what it is we are asking the 
worker to do. How many children are we asking that worker to be 
responsible for in the provision of services?
    Senator DeWine. All right. Dr. Golden, let me ask you for 
your comment about this report. I am referring to the Child and 
Family Services review, District of Columbia, from the U.S. 
Department of Health and Human Services, dated February 2002. I 
am 7. ``A little evidence was found in the cases reviewed that 
showed the agency as consistently petitioning to terminate the 
parental rights of parents whose children have been in foster 
care for 15 of the last 22 months. Of the foster care cases 
reviewed, 54 percent of the children who were in care longer 
than 15 months did not have parental rights terminated. And the 
compelling reasons for not terminating parental rights were not 
documented in the case plan or court order. Children in the 
sample were in care an average of approximately 65 months 
before they achieved their permanency plan or were still in 
placement as of July 29, 2001 review.''
    Now I understand that is July 29, 2001. And so what I would 
like to do is just give you the opportunity to update that for 
me.
    Dr. Golden. Okay. That report--and as you know, Senator, 
because I think you and I worked together when I was at HHS and 
designed the child and family reviews. That was an experience 
for me of having the Federal review right as I moved to the 
District that I had previously worked on designing the 
framework at the Federal Government. And I felt as though it 
was extremely useful to us. It gave us the baseline, looking at 
the past system that we then needed to use to move forward. So 
it was extremely helpful.
    One of the things, as you know, that is highlighted there 
about the history of the system is that there was never a focus 
on TPRs in the District. And that is--well, let me tell you 
what we are doing about it. But then I want to give you just a 
little more history, because it will help you understand what 
has to happen to move forward.
    There are really three parts to what we are doing. One is 
an aggressive legal strategy. Last year for the first time, we 
filed more than 100 TPRs, or the corporation counsel's office 
did, more than many previous years all added together. And this 
year we have expectations in our performance agreements with 
our attorneys of filing many more.
    A second piece is changing, improving our social work 
casework, because another piece of it is making our decisions 
earlier. It is about what we were talking about earlier, 
engaging the family earlier so we can make up our mind whether 
that is working or not, and having much prompter permanency 
staffings and administrative reviews.
    A third piece is working with the Court on the legal 
framework for terminating parental rights. And Judge 
Satterfield and I actually just talked about that this week, 
about moving ahead on that.
    The history in the District is that there is a second way 
of terminating the rights of a parent in an adoption, which in 
the past was used almost exclusively instead of TPR. And that 
is terminating the rights during the adoption petition through 
a show cause. I am not a lawyer, but it happens at the point 
where there is an adoptive home identified. And it only 
terminates rights for that home.
    That approach, which was historic in the District, has big 
disadvantages for children where it delays timeliness or makes 
it harder to recruit adoptive homes. So the Court is now--we 
are both being more aggressive. And the Court is very open to 
working with us so that we continue to move forward on that. So 
those are the pieces of our strategy.
    Senator DeWine. Okay. I appreciate that. I thank you for 
that. Where are we now, though? Are these figures still 
accurate, 65 months? It says children in the sample were in 
care an average of approximately 65 months before they achieved 
their permanency plan.
    Dr. Golden. Was that a sample----
    Senator DeWine. Is that about right now?
    Dr. Golden. It is not right if it is all children. If it is 
children with a goal of adoption, I do not know. The numbers I 
have right now, in terms of permanency, are that our median 
across all of our open cases is a little under 3 years, which 
is way too high. But that is for sort of all of our open cases. 
We have done a little research work looking at a sample of 
cases at the point they close. And it is clearly in the 2- to 
5-year range.
    I do not know. Typically around the country, if you look at 
the sample that closes for adoption, it is even higher. So I 
guess the main thing I would say to you is that I know that 
time until a case closes is too high. It is--that number, it is 
not as high as that number, but it is definitely higher than it 
should be. And that is part of what we have to work on.
    And part of it--this may be more than you want to know 
about the measurement of it. We do have--part of having so many 
older young people and the history of the system's earlier 
failures is that we are going to continue to have young people 
who will be aging out at the same time we are trying to change 
the experience of children who come in.
    Senator DeWine. Doctor, with all due respect, if I was in 
your position--and thank God, I am not. You have the toughest 
job anybody has--I would want to know that.
    Dr. Golden. Yes. Well, we just asked----
    Senator DeWine. Why would you not want to know that?
    Dr. Golden. I actually just asked for a study. So I 
appreciate that.
    Senator DeWine. You have to know that. You have to know 
each different category. You have to know, you know, each--I 
would want it broken down of each type kid.
    Dr. Golden. Absolutely.
    Senator DeWine. Because it is a measurement of--how are you 
going to hold everybody accountable on your team? Are you going 
to back and say: Look, we have to do better than this? And you 
are going to break it down. You are absolutely right. Kids in 
the certain age category, you know, where are they? And the 
kids in a certain age category, where are they? And there is 
going to be reasons why some of them are going to be where they 
are.
    Dr. Golden. Absolutely.
    Senator DeWine. But for you to come in front of this 
committee, or it is not just this committee, but in front of 
the public, in a public meeting or anyplace, and not be able to 
answer that basic question is a real problem. Do you not 
understand that? It is just a horrible, horrible problem. How 
can you run your department and not know that?
    Dr. Golden. And the specific question is, not know the 
median time to closure for cases.
    Senator DeWine. Oh, it is not the--yes. But that is just 
one question.
    Dr. Golden. Right.
    Senator DeWine. I would want to know the range.
    Dr. Golden. Absolutely.
    Senator DeWine. I would want to know----
    Dr. Golden. Absolutely. Well, let me tell you what we are 
doing about it. Because I agree. When I came to this agency, 
the fact that there was no data available was a huge issue. Now 
we have, as the court monitor will testify, data on dozens of 
indicators. But I agree completely that the ones about 
permanency, we know the average time to closure. We know the 
average time cases have been open. That is that, I believe it 
was, about 2.8 years. And we have actually just had some 
graduate students work with us to analyze our data in more 
detail. And that is where the information that I just gave you 
came from.
    So I think that that is exactly right. It is also an area 
that we are working with the Court on, because they also have 
an interest in tracking their data. And as we work on exchange 
of data, we are making that more consistent.
    Senator DeWine. And the universe is what? And Senator 
Landrieu asked you this. But how many total cases are we 
talking about?
    Dr. Golden. Our total number of cases--the conversation she 
and I were having was about the family cases and whether to 
count the children.
    Senator DeWine. Okay. How many kids are we talking about?
    Dr. Golden. Right. And the number of children is about 
8,000. The number of cases is about 5,000, because--of the 
family cases. So that is about the total number. And we track 
every month, not only those overall caseloads, but age 
breakdowns, geographic breakdowns, information about the 
investigations that come in every month and what percent are 
substantiated, the children who have left our caseload but are 
being supported by adoption subsidies. So all of those things 
we regularly track.
    Senator DeWine. But, I mean, I really would want to know 
how long these kids were in care before they got a permanency 
plan. I mean, that is just so basic.
    Dr. Golden. Yes.
    Senator DeWine. I mean, if they were not getting a 
permanency plan, I have a problem, right?
    Dr. Golden. Absolutely.
    Senator DeWine. A permanency plan is kind of a----
    Dr. Golden. Well, until a plan, we do know. We know from 
the court monitor's report and the court data about the 
permanency hearing. We know that about 75 percent meet the AFSA 
standards in terms of the permanency hearing, met it in 2001. 
And we have to keep building on that.
    Senator DeWine. Wait a minute. You do know what? I missed 
that.
    Dr. Golden. The share of children who achieve the 
permanency hearing within the AFSA time line.
    Senator DeWine. Okay.
    Dr. Golden. I am sorry. I thought that was----
    Senator DeWine. You know that.
    Dr. Golden. Right.
    Senator DeWine. But you do not know how many actually have 
a plan in place, because that is what the quote is.
    Dr. Golden. I am sorry. I thought you were----
    Senator DeWine. Well, let me just read it again to you. I 
am just reading directly from the report.
    Dr. Golden. Okay.
    Senator DeWine. ``Children in the sample were in care an 
average of approximately 65 months before they achieved their 
permanency plan.''
    Dr. Golden. Right. So that means until they either went 
home or were adopted. Right? That is until the closing of the 
case. Right. And that is something that we know how long cases 
have been in care, and the information that you are just asking 
me for at the point of closure for different categories, we 
have just had a special study done that looks at some pieces of 
that. And I will be happy to share the more detailed 
information with you.

                          SUBCOMMITTEE RECESS

    Senator DeWine. Anybody have any other comments?
    Well, I thank you all for your patience very much. I think 
it has been a very helpful hearing. As I said at the beginning, 
this committee will continue to have hearings on these issues. 
We think it is very, very important. We want to work with you. 
We want to try to be of assistance to you. And again, we thank 
you very much. You each have contributed a great deal. And 
there is nothing more important, I think, than what is going on 
in the District than to work with our children.
    Thank you very much.
    Dr. Golden. Thank you.
    Senator Landrieu. Thank you.
    [Whereupon, at 1:05 p.m., Wednesday, April 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
